<html>
<title> - CHILD CARE: STRENGTHENING FAMILIES AND IMPROVING THE WELL-BEING OF CHILDREN</title>
<body><pre>[Senate Hearing 107-349]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-349
 
  CHILD CARE: STRENGTHENING FAMILIES AND IMPROVING THE WELL-BEING OF 
                                CHILDREN
=======================================================================

                                HEARING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                                   ON

EXAMINING CHILD CARE: HELPING PARENTS WORK AND IMPROVING THE WELL-BEING 
                              OF CHILDREN

                               __________

                             MARCH 15, 2002

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions









                       U. S. GOVERNMENT PRINTING OFFICE
78-342                          WASHINGTON : 2002
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001











          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

               EDWARD M. KENNEDY, Massachusetts, Chairman

CHRISTOPHER J. DODD, Connecticut     JUDD GREGG, New Hampshire
TOM HARKIN, Iowa                     BILL FRIST, Tennessee
BARBARA A. MIKULSKI, Maryland        MICHAEL B. ENZI, Wyoming
JAMES M. JEFFORDS (I), Vermont       TIM HUTCHINSON, Arkansas
JEFF BINGAMAN, New Mexico            JOHN W. WARNER, Virginia
PAUL D. WELLSTONE, Minnesota         CHRISTOPHER S. BOND, Missouri
PATTY MURRAY, Washington             PAT ROBERTS, Kansas
JACK REED, Rhode Island              SUSAN M. COLLINS, Maine
JOHN EDWARDS, North Carolina         JEFF SESSIONS, Alabama
HILLARY RODHAM CLINTON, New York     MIKE DeWINE, Ohio

           J. Michael Myers, Staff Director and Chief Counsel
             Townsend Lange McNitt, Minority Staff Director

                                  (ii)

  











                            C O N T E N T S

                               __________

                               STATEMENTS

                         FRIDAY, MARCH 15, 2002

                                                                   Page
Dodd, Hon. Christopher J., a U.S. Senator from the State of 
  Connecticut....................................................     1
Bond, Hon. Christopher, S., a U.S. Senator from the State of 
  Missouri.......................................................     5
Murray, Hon. Patty, a U.S. Senator from the State of Washington..     6
Roberts, Hon. Pat, a U.S. Senator from the State of Kansas.......     8
Reed, Hon. Jack, a U.S. Senator from the State of Rhode Island...    10
Collins, Hon. Susan M., a U.S. Senator from the State of Maine...    11
Merkison, parent, Kennebunk, ME; Helen Blank, Director, Child 
  Care and Development, Children's Defense Fund; Elaine 
  Zimmerman, Executive Director, Connecticut Commission on 
  Children; and Janet Schalansky, Secretary, Kansas Department of 
  Social and Rehabilitation Services.............................    12
Thompson, Elizabeth Bonbright, Executive Director, Washington 
  State Child Care Resource and Referral Network; Kathy R. 
  Thornburg, Research Director, Center For Family Policy and 
  Research, University of Missouri-Columbia, and President, 
  National Association For the Education of Young Children; and 
  Travis H. Hardmon, Executive Director, National Child Day Care 
  Association....................................................    37

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    Helen Blank..................................................    54
    Elaine Zimmerman.............................................    59
    Janet Schalansky.............................................    66
    Elizabeth Bonbright Thompson.................................    69
    Kathy R. Thornburg...........................................    76
    Travis Hardmon...............................................    78
    Jim Klein....................................................    80

                                 (iii)



















  CHILD CARE: STRENGTHENING FAMILIES AND IMPROVING THE WELL-BEING OF 
                                CHILDREN

                              ----------                              


                         FRIDAY, MARCH 15, 2002

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:32 a.m., in 
room SD-430, Dirksen Senate Office Building, Senator Dodd 
presiding.
    Present: Senators Dodd, Jeffords, Bingaman, Murray, Reed, 
Bond, Roberts, and Collins.

                   Opening Statement of Senator Dodd

    Senator Dodd [presiding]. Good morning. The committee will 
come to order.
    Thank you all for coming. I apologize for starting a few 
minutes late, but we had a vote a moment ago. I welcome my 
colleague from the State of Washington, Senator Murray, who has 
joined us; she was one of the champions of child care even 
prior to her arrival here as a member of the Washington State 
legislature.
    I am thankful to all of our witnesses and the people who 
have gathered in the audience to talk about this issue. I thank 
all of you for being here. As I look out over our witness 
table, I know that I have worked with some of you for years on 
these issues, and it is a pleasure to see all of you. So thank 
you for coming to be a part of this hearing this morning which 
we have entitled, ``Child Care: Strengthening Families and 
Improving the Well-Being of Children.''
    We have invited you all to talk this morning about one of 
the most basic issues of our times and certainly one of the 
critical issues of the 21st century--and that is not an 
exaggeration or hyperbole. Let me share the statistics with 
you.
    Certainly I have said many times, and maybe it is becoming 
overstated but it is absolutely true, that children represent 
20 percent of the population of the United States, but no one 
would deny that they represent 100 percent of the future of 
this Nation. As we enter this very, very difficult century 
already, with the problems that we have seen as a result of the 
events of 9-11, the raging problems of the Middle East, the 
staggering economic problems that we are going to be facing, 
the competition worldwide, the generation that is born in this 
century and will be raised in this century and the coming years 
will play a critical role in terms of whether this Nation will 
carry on its great traditions--and that is not an exaggeration. 
How we treat the very youngest of our population will in large 
part determine the outcome of that question.
    Let me share with you some very basic statistics which, 
during today's hearing and the consideration over the weeks 
ahead, to keep in mind. I think it makes the case more so than 
any rhetoric than I can offer about the importance of these 
children.
    Today, 78 percent of mothers with school-age children are 
in the work force. Sixty-five percent of mothers with children 
under the age of 6 are in the work force, and more than 50 
percent of mothers with infants are in the work force. Those 
are the facts, and the numbers are going up all the time of 
people in the work force with young children. That is the 
reality, and I see nothing on the horizon that is going to 
change those numbers.
    Most parents are simply not at home full-time any longer. 
Many might like to be. For those who are, I introduced, along 
with my colleague from the State of Washington, legislation in 
the Senate to provide tax credits for stay-at-home parents, 
recognizing that there is a sacrifice that they engage in, and 
we want to recognize that sacrifice through the Tax Code.
    But many people do not have that choice; they have to be in 
the work force, and it is not easy. These people deserve our 
attention as well. It is not an easy matter to balance work and 
family issues under any circumstances, and today it is 
extremely difficult.
    Since 1996, the number of families receiving child care 
assistance has grown dramatically, to about 2 million children 
today. But for as many children who receive assistance, 
available child care funds reach only one in seven eligible 
children across this country. And as many of you in this 
audience know, child care in too many communities is not 
affordable even if you can find it; and in too many more, it is 
not available even if you could afford it; and even worse, in 
many places, it is of dubious, dubious quality--which may be 
the most important issue that we will discuss today.
    About 14 million children under the age of 6 are in some 
type of child care arrangements as I speak to you here this 
morning. This includes about 6 million infants in our country.
    The cost of care averages somewhere between $4,000 and 
$10,000 a year, more than the cost, I might add, of tuition at 
many if not most of our State universities and colleges. Far 
too many of our American parents are left with far too few 
choices. Nearly 20 States currently have waiting lists for 
child care assistance. Every State has difficulty meeting the 
child care needs of its population. Not a single State in this 
country serves all the eligible children in their State.
    While waiting lists show that there is a demand for 
service, that is certainly only part of the picture. Wyoming, 
for instance, does not have a waiting list, but if you earn 
over $18,800 a year, which is barely above the poverty level 
for a family of three and probably below the poverty level for 
a family of four, you cannot obtain any child care assistance 
whatsoever in that State.
    In some of these States with long waiting lists, parents 
throw up their hands and do not even bother getting on the 
list. You can imagine if you show up and say, ``I believe I 
qualify for child care,'' and you are told by someone, ``Well, 
we will put you on the list, but you are number 500,'' or 
number 1000 on the list, the likelihood is slim that you are 
even going to bother to be on the list, understanding that 
there is little or no likelihood you are ever going to receive 
that assistance.
    More than 30 States require families of 150 percent of the 
poverty level to pay more than 7 percent of their income in 
child care fees, or do not even allow a family at this low 
income level to qualify for child care assistance. Other 
families who are eligible for assistance have difficulty 
finding child care in the community, because subsidies are far 
too low.
    Most people think of child care as work support for working 
families, and it certainly is that. We talk about the necessity 
of having a child care program so that people can go to work. 
But this is far more than just ``parking'' children. This is 
not like someplace where you can leave your automobile where it 
is going to be safe. We need to understand that if we are going 
to be talking about people's ability to go to work and making 
it possible for families to work, we need to spend as much time 
thinking about where these children are going to be and the 
circumstances under which they are going to be cared for.
    It is time to focus, in my view, at least as much attention 
on the needs of children, who spend so many hours a week in 
child care, to make certain that they obtain the intellectual 
stimulation necessary to hone the learning skills that they are 
going to desperately require in their formative years. Seeing 
to it that they are safe ought not to be even a question. 
Seeing to it that they get proper care, seeing to it that it is 
going to be a stimulating, nurturing environment, is something 
that we should pay far more attention to.
    Let me tell you why. Forty-six percent of kindergarten 
teachers recently responding to a national survey reported that 
more than half of their students in kindergarten are not ready 
for kindergarten. The learning gap does not begin, they said, 
in kindergarten. It is first noticed there, but it does not 
begin there. Strengthening the quality of child care in the 
country is one of the keys, I believe, to shrinking this gap. 
Quality child care is a major factor in school readiness. In 
addition to meeting a child's cognitive, physical, social and 
emotional needs, quality child care should include pre-literacy 
and oral language training as well. Too many child care 
settings are deficient in these areas.
    I am currently working with Senator Olympia Snowe of Maine 
and many others, including my colleague from Washington Senator 
Murray, to introduce legislation to reauthorize the Child Care 
and Development Block Grant that will address the early 
development needs of children. Seventy-five percent of children 
under 5 with working parents are spending a lot of time in 
child care. If these children are to enter kindergarten ready 
to learn, we must strengthen the child care that they are 
receiving today.
    In our reauthorization bill, we will set aside specific 
portions of child care in the development block grant to 
strengthen the child care work force. I believe it is almost 
criminal that child care workers on average earn about $16,000 
a year. It is no wonder that the turnover rate among child care 
workers is among the highest of any career in our country. I 
also believe it is criminal that cab drivers, hair stylists, 
and window washers all need training and certification--and 
understandably so, in many cases. But the people whom we 
entrust to care for America's young children for the most part 
require no certification whatsoever. If we are to expect better 
outcomes for children, we must first work to strengthen the 
child care work force.
    Last year, I introduced the FOCUS bill to provide grants to 
States to increase child care teacher compensation and to 
provide scholarships for those who want to improve their 
training and education. Many of the FOCUS bill provisions will 
be included in the child care reauthorization bill.
    In addition, the education bill was recently enacted to 
include an amendment to provide professional development for 
early childhood educators to promote children's school 
readiness. We know that under the best of circumstances in a 
growing economy over the last several years, we have not been 
able to meet the need or demand for child care assistance. 
Today in a tough economy, the task is going to be that much 
more difficult.
    To compound matters, I am very concerned about the 
administration's welfare reauthorization plan submitted to 
Congress last month. The plan calls for an enormous increase in 
the number of parents who will be required to work under the 
Temporary Assistance for Needy Families, or TANF, program. I 
understand that; what bothers me is the following. Not only 
will the overall number of parents required to work increase, 
but the number of hours each parent will be required to work 
each week will also increase from 30 to 40 hours a week.
    What is troubling to me is that the administration 
requested no additional child care funding. In fact, the 
administration requested a 5-year freeze on child care funding. 
It is one thing to increase the work load and to demand 
additional hours, but if simultaneously we are not going to 
make it possible for those families to be able to leave their 
children in a safe place and to afford to do so, we are just 
adding additional burdens to families that are already facing 
tremendous economic difficulties.
    Does that mean--a freeze on child care pay for 5 years, a 
freeze on reimbursement rates, a freeze on eligibility rates, a 
freeze on helping working poor families--and by the way, this 
is the group that we are primarily talking about. You can get 
the assistance by and large if you are on public assistance or 
welfare. But we do not want to crowd out the working poor. 
These are the people who are really going to get hit by 
freezing this and putting the burdens on them.
    So as we talk about this issue, remember that the audience 
we are talking about is the working poor primarily when we talk 
about the needs of child care.
    It goes without saying that we must be certain there are 
sufficient child care funds to assist families transitioning 
from welfare to work, particularly if the Government is going 
to require them to work. I am concerned that the 
administration's plan will result in a raid of child care 
assistance from the working poor to pay for those families 
transitioning from welfare. We need to do both. Welfare reform 
cannot succeed in the long run without sufficient funding for 
child care, and the working poor cannot get by without the 
child care help that they need.
    Leading studies have found that early investments in child 
care can reduce the likelihood of being held back in school, 
reduce the need for special education, reduce dropout rates of 
high school students, and reduce juvenile crime rates. If we do 
not improve the quality of child care that our children now 
spend so much time in, in my view, we will be in danger of 
missing the boat on a whole generation of children.
    With those opening thoughts, let me turn to my colleagues. 
I see my friend from Missouri is here, as well as my colleague 
from Kansas, and obviously my colleague from Washington.
    I will turn to my colleague from Missouri for some opening 
comments.

                   Opening Statement of Senator Bond

    Senator Bond. Thank you, Mr. Chairman.
    It seems like old times working on child care. A dozen or 
so years ago we worked on your act for better child care 
legislation, and that was less contentious than some of the 
things we are working on now--no death threats or anything like 
that in that one--and it is a pleasure to be working with you 
again on something that is so important.
    I appreciate your calling this hearing. Unfortunately, I 
have other commitments this morning, but I want to make a 
preemptive introduction of Dr. Kathy Thornburg, who is going to 
be on the second panel. She has spent the past 20 years as 
director of the Child Development Laboratory at the University 
of Missouri at Columbia.
    In Missouri, we are very proud of a number of things. We 
are proud of our Parents As Teachers which takes care of the 
parental responsibility, and we are also extremely proud of the 
Child Development Laboratory which provides a high-quality 
early education setting for children from 6 weeks through the 
third grade, and serves as a teaching and research lab for 
university students, faculty, and staff.
    Dr. Thornburg directs a program that focuses on the growth 
and development of each individual child by promoting cognitive 
development, social and emotional development, physical 
development, creative development, and parental involvement. In 
fact, the Child Development Laboratory under the leadership of 
Dr. Thornburg was recognized by Child Magazine as one of the 
top 10 child care centers in the Nation in 1992.
    Dr. Thornburg is a great resource in Missouri on child 
development and early learning programs. We are very fortunate. 
I thank you very much for having her here today to testify on 
work force issues and the important role that compensation and 
professional development play in building good child care and 
quality early learning programs.
    I will have to read her testimony, but I hope she will be 
able to address the general questions about what we can do at 
the Federal level to help attract and keep qualified child care 
teachers. I know that some States are doing a good job, but 
this is a shared responsibility, and we need to keep the 
pressure on State and local governments as well. I would be 
interested in her thoughts if we were to provide more money in 
the Child Care Development Block Grant for professional 
development, whether that would solve the problem of 
underqualified teachers.
    With that, Mr. Chairman, again I apologize that I have 
other commitments this morning, but we do look forward to 
reading the testimony, and I thank you very much for holding 
this hearing.
    Senator Dodd. Thank you very much, Senator Bond, and we 
will give Dr. Thornburg a very warm welcome from the committee 
when she appears on the second panel.
    We thank you for coming by this morning. I should note in 
addition to your help on the Child Care and Development Block 
Grant a number of years ago that you were very instrumental 
along with others on this committee in the Family and Medical 
Leave Act.
    Senator Bond. Yes.
    Senator Dodd. You played a very critical role in drafting 
that bill, which has now served almost 40 million families in 
the United States since its adoption 9 years ago, and we thank 
you for that as well.
    Senator Murray?

                  Opening Statement of Senator Murray

    Senator Murray. Thank you very much, Mr. Chairman.
    Thank you for holding this really important hearing and for 
your tremendous work on behalf of children in this country and 
certainly in particular on the issue of child care at the 
present time.
    Child care is an issue that touches all parts of our 
society, from working parents who are struggling to hold it 
together, to employers who are losing valuable hours because of 
someone's child care problems, to the children, who really 
spend too many hours in settings that are not preparing them 
for what life holds.
    I can tell you from my own experience in the classroom that 
early childhood education and child care have a tremendous 
impact on a child's development. I could tell immediately when 
a child joined my class whether they had been in a high-quality 
child care program or a good preschool, or whether they had 
been left in a setting where there was not a lot of stimulative 
activity going on, or it just was not good for them.
    There are a lot of dedicated people who work in child care 
and help our children grow and develop, but too often, many of 
them do not have the kind of training they need, and certainly, 
all of them do not have the compensation they need.
    I think the sad thing, Mr. Chairman, is that every parent 
wants his or her child to succeed. No parent looks around for 
an option and says, I would rather leave my child in a setting 
where they do not get the kind of attention they need or have 
an untrained caregiver.
    The reality is that a lot of parents have no choice. 
Quality child care is either too expensive, or it is just not 
available. I think we should be aware that it is even more 
difficult for parents who work the night shift or who have 
infants, and any program that we develop has to address those 
issues.
    In my home State of Washington, we have worked very hard to 
provide good child care options, and until just recently, we 
were serving families up to 225 percent of poverty, whether 
they were welfare recipients or just working poor. 
Unfortunately, my home State of Washington is very much 
impacted by the economy right now--we have the second-highest 
unemployment rate in the Nation, second only to Oregon, our 
neighbor to the south--and because of a tremendous budget 
shortfall, our State unfortunately just cut eligibility from 
225 percent to 200 percent of poverty, which means that about 
13,000 families in my State will be impacted.
    My State also increase the copayment requirement and de-
funded some important quality initiatives, so I am deeply 
concerned as our economy is in a very difficult State that the 
kids are the ones in my home State who are really hurting, and 
certainly, child care is an issue that is always impacted 
first.
    I think the good news for kids in my State is that there 
are some really good, committed people who are fighting to get 
good, quality care, and Mr. Chairman, I am very pleased that 
one of Washington State's leading advocates for children is 
here in our audience today; she is on your second panel. 
Elizabeth Bonbright Thompson is the executive director of the 
Washington State Child Care Resource and Referral Network. She 
is a member of the Washington Child Care Coordinating 
Committee, and she is immediate past president of the National 
Association of Child Care Resource and Referral Agencies. That 
is just a small part of her resume, which I know all the 
members have, so I will not go through it; but I think that 
what is not in her resume is even more impressive, and that is 
her total dedication to children and the passion and 
professionalism that she brings to work. Through her work in my 
State and our State's Resource and Referral Network, she has 
helped countless struggling parents find high-quality, 
affordable child care; she has created opportunities for child 
care workers to get more training and better salaries; and she 
has built coalitions to improve child care quality and overcome 
obstacles.
    I think she more than anyone in my State has really worked 
to make sure that thousands of our kids have a safe and 
nurturing environment, and I am delighted that she is here 
today to talk about the Resource and Referral Network, which is 
really a linchpin for our State.
    Unfortunately, I cannot stay for the second panel--I have 
to catch a flight back to Seattle for commitments in the 
State--but Mr. Chairman, I want you to know how much I 
appreciate your work on this issue and my commitment to work 
with you to make sure we do the right thing particularly as we 
reauthorize TANF--I concur with the remarks that you made 
earlier--and I thank Elizabeth for traveling 2,500 miles to 
come out here and help my colleagues understand the challenges 
that we face in child care.
    Thank you very much.
    Senator Dodd. Senator Murray, thank you very, very much. As 
I said a moment ago, you have been a wonderful supporter on 
these issues, and you have brought a wealth of experience as a 
teacher and then as a State legislator in the State of 
Washington to this issue, so you have been a wonderful ally 
over the years in your service here in the Senate on these 
issues.
    We have been joined by other colleagues--Senator Roberts of 
Kansas, Senator Collins of Maine, and Senator Jack Reed of 
Rhode Island.
    Let me turn to Senator Roberts. I would point out that when 
Senator Roberts sees me coming, he looks at me and says, 
``Child care.'' The reason I approach him is because he has 
been such a terrific advocate and great supporter on these 
issues.
    Pat, I thank you for your support and thank you for being 
here this morning.

                  Opening Statement of Senator Roberts

    Senator Roberts. If I do not say ``child care,'' I say 
``Cuba''--but that is another issue.
    Mr. Chairman, thank you for your leadership. It is Friday, 
and I want to thank all the witnesses for taking their very 
valuable time to come here. This is a crazy place--they give us 
cards, and we are supposed to be in two places at the same time 
over half the time--but it does not mean that we are not 
tremendously interested and share, as Senator Murray has 
pointed out, your perseverance on behalf of child care.
    It was a great night last night for Connecticut and 
Missouri and Kansas; they all won--although I think you play 
tonight.
    Senator Dodd. Connecticut plays today.
    Senator Roberts. Well, you are going to win.
    Senator Dodd. Thank you. [Laughter.]
    Senator Roberts. That is not March madness.
    Senator Dodd. You barely won last night, I might add.
    Senator Roberts. We persevered; our point guard has a bad 
ankle, so I am going to have to leave--I may have to play if 
things get too bad. [Laughter.] Then we would really be in a 
world of trouble.
    Let me say that Kansas has an impressive record in reducing 
welfare cases and providing quality child care services. I am 
so pleased that our Kansas leading lady in child care who 
really administers these programs for my home State is here 
today to testify. Secretary of Social and Rehabilitation 
Services for Kansas, Janet Schalansky, is here to lend her 
expertise on this issue and give a State perspective.
    Kansas has seen the number of welfare clients decrease from 
over 26,000 cases in 1996 to an estimate 12,500 cases last 
year. While decreasing the number of individuals on welfare, we 
have also seen an increase, like other States, in the number of 
individuals who are indeed in need of child care. For example, 
in 1997, about $37 million was spent on child care in Kansas; 
this year, it is estimated that over $61 million will be spent. 
Those funds assist 17,000 children, and only 3,000 of those 
children are designated TANF children. This data really proves 
that child care is crucial for working parents.
    An important and impressive point to note is that there is 
no waiting list for child care services in Kansas. Janet is 
certainly responsible in part for that. In addition, SRS has 
outreach programs to target working families who might qualify 
for child care, which include partnering with our county health 
clinics, our schools, our chambers of commerce, health care 
providers, and various community action agencies.
    The mission of the Kansas SRS is ``to protect children and 
to promote adult self-sufficiency.'' I am happy to say that 
Janet has promoted this theme throughout her entire career, and 
we are very fortunate and very lucky to have a person as 
dedicated as Janet.
    Mr. Chairman, I have about seven additional paragraphs here 
indicating my strong support for child care; I think I will 
just ask that it be made a part of the record in the interest 
of time. And like Senator Bond and Senator Murray, I have 
another commitment that I have to rush off to, and I apologize 
to the panel and to you, sir.
    Thank you for your leadership, and thank you for your 
perseverance. You have strong bipartisan support in this 
regard, and in that regard, I do whatever Senator Collins 
suggests that I do--within reason. We are team for you, Mr. 
Chairman.
    Senator Dodd. Thank you, thank you. I know that, and I 
thank you for coming. I know it is very difficult for Members, 
but I want the audience and our witnesses to know that there 
are many times when that occurs, but Members will just send a 
statement over; and the fact that Members have come here this 
morning and cannot stay is an indication beyond just the 
normal, perfunctory submission of statements of their support. 
I am not just saying the things I have said because they are 
here. What I have said about Pat Roberts is true--on every, 
single occasion that I have gone to him and asked for his help 
on child care, he has been there. So those seven or eight 
paragraphs, whatever you want to say, we will include it in the 
record, and thank you for your support.
    Senator Roberts. Thank you, Mr. Chairman.
    Bless your heart, Janet, and thanks for what you do.
    [The prepared statement of Senator Roberts follows:]

                 Prepared Statement of Senator Roberts

    Kansas has an impressive record in reducing welfare cases 
and providing quality child care services. I am pleased that 
the woman who administers these programs from my home state is 
here today to testify to our committee. Secretary of Social and 
Rehabilitative Services for Kansas, Janet Schalansky is here to 
lend her expertise about this issue and give a state 
perspective. Kansas has seen the number of welfare clients 
decrease from over 26,000 cases in 1996 to an estimated 12,500 
cases last year. While decreasing the number of individuals on 
welfare, we have seen an increase in the number of individuals 
who are in need of child care. For example, in 1997 about $37 
million was spent on child care in Kansas compared to this year 
where it is estimated that over $61 million will be spent. 
Those funds assist 17,000 children. Only 3,000 of those 
children are designated TANF Children. This data proves that 
child care is crucial for working parents.
    An important and impressive point to note, there is no 
waiting list for child care services in Kansas. In addition, 
SRS has outreach programs to target working families who might 
qualify for child care, which include partnering with county 
health clinics, schools, chambers of commerce, health care 
providers, and community action agencies.
    The mission of the Kansas SRS is to ``protect children and 
promote adult self-sufficiency.'' I am happy to say that Janet 
has promoted this theme throughout her entire career. Kansas is 
lucky to have a person as dedicated as Janet.
    Child care, in the home when possible and outside the home 
when parents work, goes right to the heart of keeping families 
strong. Unfortunately, finding quality, affordable child care 
is one of the most pressing problems for families in Kansas and 
around the country.
    With the enactment of the 1996 welfare reform, we were 
successful in administering assistance to those who need it, in 
an innovative and streamlined way. In the last 5 years, these 
programs have been extremely successful in reducing the rolls, 
while giving individuals real skills to work and retain 
employment. However, even with a decrease in the rolls, we must 
continue to assist those in need, whether it be welfare 
recipients or the working poor. One of the easiest ways we can 
do this, is by offering assistance for child care.
    Many families work but are still unable to afford child 
care, which forces them into economically difficult situations. 
Child care can eat up 40% of a family's income and can easily 
cost as much as college tuition. With this in mind, we must 
continue our commitment to support families who leave TANF but 
still require some assistance.
    Offering states flexibility in administering the Child Care 
and Development Block Grant has been the driving success of 
this program. For instance in Kansas, we have rural areas out 
west and urban areas in the east--giving states flexibility 
allows individualized needs to be met.
    Finally, child care is the beginning of the education 
process for many children. With an increase of single parent 
families and an increase of families with two parents who work, 
we must continue to offer states the flexibility to promote 
these programs and to invest in child care. Partnering with 
Early Head Start and Head Start is vital to all our children. 
If we are able to provide quality and educational child care, 
we will have kids on the path to success.
    Senator Dodd. Senator Jack Reed of Rhode Island has also 
been a strong supporter of this issue. We thank you, Jack, for 
being with us.

                   Opening Statement of Senator Reed

    Senator Reed. Thank you very much, Mr. Chairman, and let me 
begin by commending you for your leadership, not just in this 
hearing and this Congress, but for many, many Congresses. There 
are literally hundreds of thousands of children throughout the 
United States today who have better chances, better 
opportunities, and better lives because of what you have done, 
and I thank you very much for that.
    I thank the witnesses. You bring great expertise and 
experience.
    I am particularly concerned--and I hope we can explore it 
in the questioning--about the fact that we demand very high 
quality from child care workers, and we do not pay for that 
quality. I hope we can begin to think about that. I have 
introduced legislation along with Senators Dodd, Kennedy, 
Daschle, Murray, Kerry, Corzine, and Cleland to provide some 
incentives to raise the reimbursement level at the State level 
for child care. I think that will go a long way toward ensuring 
quality.
    In my view, too much of our system is subsidized by child 
care workers, most of them women, who are extremely competent, 
extremely dedicated, but woefully underpaid. So I hope we can 
do something about that.
    Thank you, Mr. Chairman.
    Senator Dodd. Thank you, Senator Reed. I hope we can as 
well.
    Senator Collins--and again, I rarely get involved in a 
children's issue that I do not reach out to her or she reaches 
out to me as a partner in these issues, and this is no 
exception--so I thank you, Susan, immensely, for your support 
and your work.

                  Opening Statement of Senator Collins

    Senator Collins. Thank you very much, Mr. Chairman.
    I am delighted to be here today. I saw Senator Paul 
Wellstone on the way over, and he asked me to express his 
concern about this issue and his wish that he could be here. 
Fridays are very difficult because all of us are catching 
planes, so like many of my colleagues, at 10:30, I have to turn 
into a pumpkin and be out of here.
    But Mr. Chairman, I want to thank you for calling this 
hearing to examine the challenges that working families face in 
finding affordable, quality child care for their children. You 
truly have been a tireless advocate for working families for 
many years. Even before becoming a parent yourself, you were 
concerned about the adequacy of child care, and I have been 
pleased to support you in a number of initiatives to make 
quality child care more available and to increase funding from 
the Federal Government.
    As any parent will tell you, quality child care is 
difficult to find, and even mediocre care is at times out of 
reach for many working families. Moreover, studies show that 
the biggest barriers that most families face in both getting a 
job and keeping a job is affordable, reliable child care. Child 
care is the crucial work support for parents.
    I am particularly pleased to welcome this morning a witness 
from Maine, Sheila Merkison from Kennebunk. She will describe 
the challenges that she has faced as a single working mother 
with a 2-year-old son. While she has been fortunate to find 
good quality child care, her child care expenses are 48 percent 
of her weekly net income. That obviously leaves her very little 
left over for even the basic necessities of life.
    While Ms. Merkison qualifies for child care assistance, 
Maine, like many States, does not have sufficient funds to 
serve all of its eligible working families. I was impressed to 
learn that Kansas has been able to serve its families without a 
waiting list.
    Ms. Merkison, on the other hand, remains on a waiting list, 
and she is not alone. More than 42,000 Maine children need 
child care and are eligible for subsidies, yet the State 
currently has funding available for just over 12,000 subsidies. 
That means that there is an overall unmet need for subsidized 
child care in Maine for 30,000 children.
    I know from talking to child care providers that many 
working parents in Maine are forced to make terrible choices 
about what to do in the absence of these subsidies. In fact, 
there was a survey of low-income working families in Maine that 
reported that 20 percent of the working parents interviewed 
acknowledged that they had left their children in an unsafe 
child care situation during the prior year--it is not that they 
want to; it is that they feel that they have only bad choices.
    That is why I think it is so important that we work 
together to provide more assistance so that we can meet this 
very considerable unmet need for subsidized child care.
    So thank you, Mr. Chairman, for holding this hearing.
    Senator Dodd. Thank you very much, Senator Collins. We are 
very grateful as well to Ms. Merkison for coming down from 
Maine to be with us.
    I want to note that the other day, the Finance Committee 
held a hearing on child care from a tax perspective, and they 
were wonderful. I just want to make reference to Senator 
Baucus, who chairs the Finance Committee, who was extremely 
eloquent and forceful; Senator Rockefeller, who was passionate 
on several rounds of questioning to Secretary Thompson about 
child care.
    And Secretary Thompson, I might point out, as former 
Governor of Wisconsin, was one of the leaders in support of 
child care, so he is in a different position today, but he was 
the witness before the Finance Committee. Senator Lincoln, 
Senator Breaux, and Senator Snowe, our colleague from the State 
of Maine, were also extremely forceful and articulate on the 
issue.
    So I just want to express my gratitude to the Finance 
Committee for expressing their strong commitment to this issue 
as well.
    With that, let us turn to our witnesses who have come 
today. Ms. Merkison, we are really grateful to you. The other 
witnesses that we will be hearing from are also wonderful 
friends, but they testify periodically, even before State 
legislative bodies or Congress itself in the case of Helen 
Blank, whom I have seen on many occasions, and Elaine 
Zimmerman. But for you to come down is a tougher thing to do, 
and I want you to know how deeply grateful we are that you have 
come down to talk about your own circumstances in a crowded 
room full of strangers, far away from your own home. It means a 
great deal to us, because you put a face on this, rather than 
just numbers. I have a lot of statistics up here about waiting 
lists and so forth around the country, and those numbers get 
written down, but when you talk about what you are going 
through and how difficult it is for you to make ends meet and 
to meet your obligations and see to it that your son is well-
cared for, you give a dimension to this discussion that, with 
all due respect to the number-crunchers, really resonates. So 
we are very grateful to you and anxious to hear your comments.

  STATEMENTS OF SHEILA MERKISON, PARENT, KENNEBUNK, ME; HELEN 
BLANK, DIRECTOR, CHILD CARE AND DEVELOPMENT, CHILDREN'S DEFENSE 
    FUND; ELAINE ZIMMERMAN, EXECUTIVE DIRECTOR, CONNECTICUT 
COMMISSION ON CHILDREN; AND JANET SCHALANSKY, SECRETARY, KANSAS 
        DEPARTMENT OF SOCIAL AND REHABILITATION SERVICES

    Ms. Merkison. Thank you. Thank you for inviting me this 
morning, and good morning.
    I am excited to be here because I am very anxious to tell 
people what it is like to work and try to provide for your 
child when you do not make enough money to do it--and I would 
definitely describe myself as ``working poor''; I think that is 
a good description of it.
    My name is Sheila Merkison. I am 26 years old. I am from 
Kennebunk, ME. I have a 2-year-old son who is in day care, and 
I feel that I have found a good facility for him, because it 
has a nursery school program, and I feel he is learning. 
However, there are sacrifices that I feel we have made for him 
to be in this program.
    I just want to give you a little bit of background on how I 
came to be where I am. I was married when my son was born, and 
I decided to become a homemaker. So, 1 week before he was due, 
I stopped working to stay at home. Eventually, my husband was 
verbally abusive and eventually became violent, and I decided 
that my son and I both deserved a better life. So in 2001, this 
past September, I decided to leave everything we had behind. I 
packed the car with clothes that would fit, and we drove to 
Maine, which is actually my home. I was born in Portland, but I 
have been in the Carolinas for the past 10 years.
    We came to Kennebunk, ME to stay with my grandmother until 
I could get on my feet. I found full-time employment with an 
insurance agency in October of 2001. You have to have child 
care in order to work, so I found somewhere to enroll him. Like 
I said, it is a great place, but the problem I face, as Senator 
Collins mentioned, is that 48 percent of my net income goes to 
day care. There is not enough left over for me to pay for rent. 
I can provide him with food, diapers, clothing, and everything 
else, but it was a choice--rent or child care. But I cannot 
work without the child care, so this is the choice that we 
made.
    I feel that I am perfectly capable of working, and I can 
provide everything for my son if it were not for the cost of 
child care. And I do not believe that child care deserves any 
less money; it is just that it is such a heavy expense for any 
parent when you are trying to raise a young child. When your 
child is sick and unable to attend, you are still required to 
pay for a full week. If there is a holiday, and the child care 
is closed, you are still required to pay for that day. Parents 
either have to stay home on those days, so you would lose that 
day's pay from your employment, or you have to make a choice 
such as paying a babysitter, which is an extra expense. It is a 
difficult situation for any parent.
    I see no other way to fully provide for my son if we cannot 
get child care assistance. This is really our last hope. The 
only other Government assistance that I qualify for is the WIC 
program, which I do participate in. I have been to social 
services, and I was told that I make too much money for their 
programs. I make $18,000 per year. That is hardly enough to 
raise a child my son's age.
    So I am asking for help. I am asking to be enabled to work. 
And in my mind, really, if you are enabling people to work, 
would that not cut down on women on welfare? If you allow them 
to go to work, if they have the means to work, we would not 
need so much of the food stamps and the other assistance that 
is out there, because we would have the money to provide those 
things because we would be working. If we had that assistance 
with child care, I believe I could do it--I could pay for an 
apartment. My son could have his own home, with his own bed, 
toys again, with a room to put them in.
    My son and I have been sleeping on a couch for 6 months 
because we have been on a waiting list for child care for 4 of 
those months. I feel that the waiting list is full of other 
parents like myself, and we desperately need this help; parents 
need the child care assistance.
    Thank you.
    Senator Dodd. Very good. Thank you.
    Ms. Merkison. Thank you for your consideration, and I will 
be happy to answer any questions.
    Did you hear me okay? This is the first time I have spoken 
on a microphone.
    Senator Collins. I did. You did a wonderful job.
    Senator Dodd. You did very well, yes; very, very well. And 
thank you again for being with us.
    What is your son's name?
    Ms. Merkison. His name is Skyler.
    Senator Dodd. OK. Thank you.
    Helen Blank is our next witness. Helen, as I said, we have 
known each other for a long time, and I would be hardpressed to 
name anyone else in the country who is as knowledgeable about 
child care as Helen Blank. She has for 25 years, a quarter of a 
century, been involved in these issues--it is just a fact, and 
the audience knows it, too; you cannot hide it, Helen--and has 
done terrific work.
    Helen is director of Child Care and Development for the 
Children's Defense Fund and has been a real leader on these 
issues for so long. I cannot think of an issue that we have 
dealt with over the years involving children where she has not 
been involved and given us wonderful advice. She is 
knowledgeable about almost every State in the country and what 
they are going through and the difficulties that States have as 
well as the people who live in them with making ends meet, 
particularly in the area of child care.
    Your report, the newest one, ``A Fragile Foundation: The 
State of Child Care Assistance Policies,'' has been 
tremendously helpful in helping us formulate ideas at the 
Federal level.
    We thank you for your presence once again before the 
Congress.
    Ms. Blank. Senator Dodd, members of the committee, we 
cannot thank you enough for the incredible impact that your 
efforts have had on the lives of countless children. We still 
have huge gaps in child care, but there are 2 million children 
and families who now get child care assistance, and much of 
that is because of your work and the work of this committee.
    As you look at child care, as you said, it is really 
important to remember that it helps parents work, and it helps 
children enter school ready to learn. We have seen an enormous 
increase in both the number of single mothers and welfare 
mothers who have entered the work force in the past 5 years. 
The President's welfare proposal puts even more demand on a 
fragile child care system, with not one new dime, while States' 
TANF dollars have started to dry up. So we are really at a 
significant impasse.
    You did note that child care costs more than public college 
tuition, yet 39 percent of child care costs are borne by 
parents, and only 23 percent of higher education costs are 
borne by parents. So to make this work, to improve the quality 
and help families pay for care, we need the Government and the 
private sector to step up to the plate more.
    Even in a robust economy, there were huge gaps in child 
care assistance policies. States make three choices when they 
determine how they provide help to families. They decide who is 
eligible, how much a fee parents pay for the cost of care, and 
how much to pay providers. When setting eligibility, as many of 
you have noted, you cannot just look at welfare families, 
because working poor families are one unstable job away from 
welfare, and if we are going to make welfare reform work, we 
have to look differently at child care. Only a few States have 
done that. Rhode Island has really stepped up to the plate with 
a guarantee of child care assistance for all families, but we 
have a long way to go. In 40 percent of the States, if you earn 
$25,000 a year, you cannot get any help. In Iowa, if you make 
$20,000, a family of three cannot get any help paying for child 
care.
    You talked about the long waiting lists. In Texas and 
Florida, 37,000 children are on the waiting lists. Some people 
say that is okay--if you are on the waiting list, like Sheila, 
you find child care. But studies show that families on the 
waiting list face incredible hardships.
    In California, one wait list had one-third of the families 
earning $10,000 or less. About 42 percent had problems with 
quality. In Houston, most families were spending 25 to 30 
percent of their income for child care. Families on the wait 
list are also very stressed. Many of them are not happy with 
the quality of their children's care, and they bring this 
stress home.
    In North Carolina, the Smart Start program actually pays 
for subsidies as a family support, because if families know 
that their children are in better care, they bring home less 
tension.
    Families who receive help still face hurdles. In about 35 
States, if you earn half the poverty level, $7,000 a year, you 
still have to pay for child care, and in many States, you have 
to pay 5 percent of your income; in 46 States, at poverty 
level, you pay a fee.
    Then we get into paying providers. The quality of care that 
a child gets, as well as the family's choice--we talk a lot 
about choice--depends on how much a provider makes. It is 
important to remember, as you all said, that these providers 
are often low-income women struggling to make a living. Many of 
them have to use child care subsidies themselves. But nearly 
half the States set rates below a current market rate. What 
does ``below a current market rate'' mean? It means--let us say 
you are running a program in 2002, but you have a 1996 rate. 
Are you supposed to pay your provider, pay the rent, pay the 
utilities, pay for things like books and crayons and supplies 
at 1996 rates in 2002?
    We have seen some innovative work on rates. About half the 
States pay higher rates for higher-quality care, care that is 
hard to find; but often those rates are on top of a low base 
rate, so you are still not getting enough to provide for that 
high-quality care. These gaps are growing wider. Last year, New 
Mexico lowered eligibility from 200 to 100 percent of poverty. 
West Virginia plans to lower eligibility and also eliminate 
rate bonuses for infant care and odd-hour care. Texas is going 
to be serving 6,000 fewer children of those working poor 
families. Illinois is going to serve fewer families and raise 
copays.
    Gaps in subsidy policies are only part of the picture. You 
have to remember that families who use subsidies are buying 
into their States' child care systems because we use vouchers. 
You all talked about the low salaries that child care providers 
make. Until we do more about what providers get, we cannot 
expect to attract and retain trained teachers.
    But what States do is, just as they make tradeoffs on their 
child care assistance policies, they make tradeoffs in their 
licensing policies in order to keep the cost of care low so 
women can go to work.
    You need 2,000 hours of training to be a cosmetologist. In 
30 States, you can work in a child care center with no training 
in child development; in 33 States, you can work in a family 
child care home with no training in child development. Ratios 
are very important because you want children to get enough 
attention from the staff. Only 10 States meet the ratios set by 
national experts. In Texas, one person can care for nine 18-
month-olds--think about it--think about little Grace and having 
these little children walking around, running around, and they 
need a lot of attention.
    Senator Dodd. I need nine people to help me take care of 
her alone right now. It was a long night last night, I will 
say. [Laughter.]
    Ms. Blank. One of our young staff people had triplets, and 
it has been extraordinary watching them. And one-to-three is 
considered the best ratio for infants.
    All of these are tradeoffs, because if you have better 
ratios, you raise the cost of care.
    This year, you have a major opportunity. The Child Care 
Development Block Grant is only reauthorized once every 5 
years. This is the time to increase the funding. We always say 
money, money, money--but you cannot help families like Sheila, 
you cannot improve ratios, you cannot raise compensation given 
the gaps that we currently have, given that wait list chart 
that sits out there.
    What about other programs? Head Start only serves three out 
of five eligible children, and Early Head Start reaches only 5 
percent of eligible children. Many States now do pre-K 
programs, but they are limited to low-income children, and 
they, like Head Start, are only part-day. So if you are running 
a Head Start or a pre-K program, you actually need a full child 
care subsidy to make that program work for working families. 
Nearly 7 million children come home alone, yet we could only 
fund 11 percent of the applications for the 21st Century 
Community Learning Centers program.
    This is the chance to do something about the Child Care and 
Development Block Grant, not only to add money but to increase 
the money that is set aside for quality. We have fought about 
this year after year after year. People do not like set-asides; 
they want flexibility. But unless we put aside more money for 
quality, we cannot address the many issues that have been 
raised about helping children go to school ready to learn.
    It is the time to address teacher compensation and quality. 
It is also the time to address infant and toddler care where we 
have our biggest gaps.
    You have a big job to do, but I am confident that given the 
commitment of this committee and the strong interest not only 
in helping families work, but in helping children learn and 
succeed in school, we can expand investments in a program that 
is so critical to both of these national goals and really 
ensure that no children are left behind.
    Thank you.
    Senator Dodd. Excellent testimony, Helen. Thanks very, very 
much.
    [The prepared statement of Ms. Blank may be found in 
additional material.]
    Senator Dodd. I want to complete our panel, but I want to 
note the fact that we have been joined by two additional 
colleagues--Jeff Bingaman of New Mexico is here; and Jim 
Jeffords, my good friend from Vermont. Both are members who 
have been long involved in these issues.
    Now let me turn, if I can, to complete our witnesses, if 
that is all right with my colleagues.
    Elaine Zimmerman is again someone with whom I have worked 
for a long time in Connecticut. She has testified here in the 
past. She is the executive director of the Connecticut 
Commission for Children and one of the most innovative and 
creative people I have met in public life. Her talents have 
been particularly useful in working with families and children 
in Connecticut, and she always comes up with great, innovative 
ideas on how to approach these problems. We are very fortunate 
that she is a resident of Connecticut and spends so much time 
on our State issues. Her lessons have been tremendously 
valuable, and we have stolen a number of them and applied them 
to national ideas.
    Elaine, we thank you for being here.
    Ms. Zimmerman. Thank you very much, Senator Dodd, members 
of the committee, and I want to thank the committee again for 
your leadership on children's issues.
    Lack of quality early care for families is like a loose log 
on a trail--it can trip up what is just basic foothold to us. 
It trips up health, curiosity, a place of safety, readiness for 
school and, unexpectedly, equity.
    We have very much in Connecticut taken keen interest in 
what you and Congress have done in education this year, and we 
are moving rapidly to fight social promotion. We have rigorous 
standards, testing, high expectations in the schools, but we 
have discovered something that was not part of the picture. We 
have discovered that the missing piece of the puzzle to 
educational achievement and to blocking social promotion is 
early care and education.
    We just did a study and followed children who were in early 
care against those who were not, and I would like to offer the 
findings today, a few key findings that are changing the 
silhouette of this in Connecticut.
    In Bridgeport, out of our poorest cities, we followed 
children who had early care against those who did not, and we 
found that children who had early care had fewer retentions, 
more frequent attendance, and much higher reading scores in 
grades K through 2. In the first grade--and this is really a 
shocker--47 percent, nearly half of the students, who did not 
have quality care were kept back.
    Once you implement law to stop social promotion, once you 
implement law in the public school and say that children need 
to learn, and if they are not learning because of the schools, 
we are not going to falsely pass them forward, what do you do?
    You need to make sure that the early care system is in 
place. That is the missing piece of the puzzle once you make a 
commitment to blocking social promotion.
    And get this--of the children who had early care, only one 
child was held back. So almost half and only one of the 
children who had early care.
    The reading scores were startlingly different among those 
who did and did not. And in terms of cost, the cost for the 
children who had early care compared to the cost for those who 
did not in terms of retention was 5.5 times more expensive for 
the children who did not have early care. So the cost issue as 
soon as you begin to cost it out in elementary school and go to 
your goals that are education goals that the President and you 
have just signed, you see that the gain is so much wiser to 
invest in the early care.
    We similarly are very interested and committed to reducing 
the achievement gap in race and poverty for children 
educationally. Once again, I am pleased to give this 
information to you. We found in Connecticut that we were able 
to not just narrow but stop the minority achievement gap with 2 
years of early care and education.
    In a study that we have just released out of Middletown, 
CT, a working poor town, we found through the data, following 
children in early care and education, that low-income African 
American children who attended a school readiness program 
attained a school readiness score that was comparable to white 
children, they surpassed white low-income children, and they 
surpassed African American children who did not have early care 
and education. It was 2 years, not one. We needed the 
continuum, but we broke the race divide through quality early 
care.
    I want to flag for you that the dollars for this and these 
findings came from CCDBG funds collocated with education 
dollars. We could not have done it without Child Care 
Development Block Grant dollars.
    We have a former president of the most successful bank in 
Connecticut, People's Bank--the CEO is David Carson--when he 
saw this data, he stood in front of our State legislature and 
said, ``Well, I think what you are going to start needing is 
two kindergartens--a kindergarten for the children who have had 
quality early care and a kindergarten for the children who have 
not--because the divide is so profound.''
    Then, a child care provider from Stamford, CT in Fairfield 
County near Manhattan, said, ``I took the children to look at a 
swimming pool and to go by the ocean, and the children had 
never seen a swimming pool before. There were seniors swimming, 
and they thought the seniors were in their underpants. They saw 
seagulls, and they thought the seagulls were chicken birds. I 
gave a test and I asked do boats have wheels, and the children 
said yes--not because the children were stupid, but because the 
children had never seen a boat in the water; they had only seen 
boats connected to cars. So they thought boats did have 
wheels.''
    Then, she said, ``This thinking that children will learn 
when they are ready in any particular setting is a bunch of 
lark. We will have to teach children, and if we do not teach 
them, they will not have the images that they need in order to 
get to language and print.'' That is what I would like to talk 
about next.
    We brought in a fifth grade cohort of teachers in a large 
city, New Haven. We brought in an outside consultant out of 
shame, because the children were about to take the mastery 
test. The teachers had a secret. The secret was that they were 
teaching the entire fifth grade curriculum verbally. They were 
not teaching presuming the children could read print, because 
the children could not.
    They were about to do a major mastery test that was going 
to expose this, and they brought in an outside reading 
consultant. Well, this is of course what President Bush and you 
all in education are realizing, is how important reading is. We 
now know that many States are building their prisons and 
determining how many prisons to build based on the third grade 
literacy rate in the State--and this is accurate--if you do not 
read by third grade, you are going to be in trouble, you are 
going to be a dropout.
    What we are seeing is that teachers have a host of skills 
they need to have to teach reading effectively in K\1/2\, but 
there is a missing piece, and that is the early care and 
education piece. Oral language and pre-literacy are infant, 
toddler, and pre-K.
    I have a list in my testimony which you can access--I will 
not take the time now--but just bare-bones, to succeed in oral 
language development, children need 1,000 hours of experience 
with books, alphabet games, storybook reading and activities 
before they enter school. And yet in one city alone, in 
Hartford, 73 percent of the adults in a sample group were 
functionally illiterate. What does that mean? They could not 
sign their name, they could not total a bank deposit ticket, 
and they could not locate an intersection on a map.
    For us to rely on parents for the pre-literacy skills is 
missing that our parents are not necessarily literate. The core 
indicator of a child's capacity to read is the mother's 
literacy level. Seventy-three percent in the cohort were not 
functionally literate.
    We need children to be in quality child care not just so 
that it is for babysitting. They need the sound of language, 
the rhyming, the holding and touching of letters. This is not 
rushing children to read. It is having them become facile and 
love the sound of words, which many children are not getting.
    I am going to jump because I know my time is nearly up. The 
other component that we have not talked about yet is safety. 
Virtually any time--and I would challenge you probably in most 
States--if you did the horrible thing of calling the department 
in charge of child deaths and you asked how the children died, 
I can guarantee you that one-third to one-half of the children 
who died would have died in unlicensed, unsafe care.
    What we are seeing now in many instances is that it is 
because the parent is working and does not have any care, needs 
to find fly-by-night care, and the children are inadequately 
protected.
    I am sure many of you read that when the World Trade Center 
imploded, the child care workers there went barefoot, put the 
children in Safeway carts and started walking. They knew to do 
one thing--they got every family file--because they knew that 
by the end of the day, the parents might be dead, and they also 
know that perhaps the children would not make it. So they 
risked their lives, got the emergency folders, put the children 
in Safeway carts and walked and walked and walked. They walked 
until it was safe, and they never looked back. And then, do you 
know what they did? They pretended that this had always been 
their intention. They took the children out, and they played 
games with them. The children were protected. None of them 
died. They were all safe, and they were not as traumatized as 
many. These child care providers were trained.
    I hate to say this, but our world is a different world 
after September 11. We in our State have created a training 
system for all of our providers. We are teaching oral language. 
We are also going to require multihazard evacuation planning.
    I do not want my children to be in environments where the 
people are not trained in case there is a danger, internal or 
external. The level and need to think about safety as we 
address child care becomes of new valance; it is just plain old 
different, given that the context is different.
    In sum, I would say that poor-quality care or no care is 
the starter fuel for inequities in lifelong achievement, and 
now that we know that early care is the first staircase for 
learning patterns and early school success, we had best hammer 
those stairs and help children ably climb them. I think we need 
to expand CCDBG. I also think we need to expect more from the 
field. I am tired of the complaints that we do not have enough 
and that the people who do this are not able. We need to have 
as high expectations in child care as you have just had of 
schools, and I think you can only do that by putting in the 
resources.
    Thank you.
    Senator Dodd. Thank you very much, Elaine.
    [The prepared statement of Ms. Zimmerman may be found in 
additional material.]
    Senator Dodd. Janet Schalansky has already been introduced 
by Senator Roberts. We thank you very much for joining us and 
are happy to receive your testimony.
    Ms. Schalansky. Thank you, Senator Dodd and members of the 
committee. I am pleased to be here.
    I am Janet Schalansky, Secretary of the Kansas Department 
of Social and Rehabilitation Services, and we appreciate this 
opportunity to come and testify on the subject of child care, 
no more important subject, not only as Senator Roberts said, of 
our mission and our agency to protect children, but also to 
promote adult self-sufficiency so that those families might 
work.
    Since the passage of welfare reform in 1996, States' 
investments in child care have exceeded all expectations. We 
have seen a dramatic increase and unprecedented growth in the 
number of families and children served as evidenced by child 
care expenditures. Between 1996 and 1999, there was an 80 
percent increase in the number of children receiving a monthly 
child care subsidy. States have programmed every dollar 
available, and nationally, we have doubled our spending on 
child care.
    For example, looking at the TANF block grant, in 1997, we 
transferred or spent $187 million of the TANF money on child 
care; in the year 2000, we spent $4.3 billion--again, using 
those dollars where they were most needed in order to have 
families be self-sufficient and for children ready to learn.
    I am concerned, and Senator Dodd, I think you outlined it 
in your opening statement, about what happens if the current 
economic downturn continues and the TANF money that we have 
been transferring is no longer available; or in addition, if 
the Congress mandates new welfare reform, work rates or hours 
of participation, then Federal child care must be increased. We 
will need to replace that $4 billion that has been transferred 
to TANF to CCDF in order just to maintain our current 
investment, and that does not include what would appear to be 
an increased investment, at least in the President's proposal.
    If Congress wants States to increase quality and increase 
access, additional funding will be needed. And I share with Ms. 
Blank the concern that it sounds like we are always saying more 
money and more money--but the children need to be cared for, 
and it takes money to do that.
    Let me talk for just a minute about Kansas specifically. We 
are a relatively small State in the scheme of things, but we 
have 15,313 children who are served monthly by our child care 
subsidy. That is up significantly from the early nineties. Our 
expenditure as well has almost quadrupled on what we spend in 
child care subsidies since 1992.
    But what is more important--and I think you heard it 
articulated very well by Ms. Zimmerman--is the importance of 
the first 3 years of their lives, and even the first 5 years of 
their lives. We have tried to focus in our State on that 
quality, both through broad-based educational campaigns and 
also in some training.
    We have a special infant and toddler project that we use 
through our child care resource and referral agencies to have 
access for child care providers all over the State to make sure 
they are trained in those very critical years of development 
for a child.
    We spend almost $14 million on quality in Kansas. Governor 
Graves 2 years ago in his ``State of the State'' announced a 
new initiative, suggesting that we transfer $8 million of the 
TANF block grant to begin a Kansas Early Head Start program. It 
serves 825 children and families directly, but it has impacted 
the quality for an additional 2,000 children.
    The flexibility that we have been provided in the Child 
Care Development Block Grant has allowed us to partner with 
other agencies and funding sources, and we really encourage 
that that be continued. These collaborations have resulted in 
an after-school program for inner-city children. We 
collaborated with the Kaufman Foundation and also with one of 
the 21st Century projects.
    We also have a 3-year pilot project going on to define and 
evaluate quality child care involving Kansas, Nebraska, Iowa, 
and Missouri, and we think the data from that will help us 
focus and then advocate for the needs of children in the 
Midwest.
    We have been able to achieve some degree of success in our 
child care programs, but we know there is much more work to do. 
Increased dollars would enable us to continue to face those 
needs. As Senator Roberts said, right now, we do not have a 
waiting list--we do some outreach, but even with that, we only 
serve 16 percent of the eligible children, and I would suspect, 
Senator Dodd, that it would be much like you said--they know we 
have spent all of our available allocation, so people are not 
applying.
    We also know that we need a significant increase in slots 
for infants and toddlers. Particularly in Kansas, the slots for 
infants are costly and very hard to find.
    We need to do more outreach to low-income families to 
support the caseload growth.
    We need to continue to work and focus on recruitment and 
retention of quality providers. The research has shown over and 
over that the quality of staff and training for them is 
critical to the outcome for the children in their care.
    We also need to increase provider rate payments above the 
current percentiles. Even in our tight financial times in 
Kansas, the Governor did recommend a small increase in child 
care, knowing that we had to do that while we are cutting other 
significant places in our budget, because we needed to keep the 
provider network available.
    States, including Kansas, have made a variety of 
investments to support working families by focusing on odd-hour 
and after-school care. We have got to figure out what works to 
get the incentives for the providers in that. Examples from 
other States include Maine, which provides technical to schools 
starting school-age programs; and Connecticut has established a 
child development associate credential certificate for school-
age providers; Massachusetts has funded distance learning 
courses in infant and toddler care also through the Child Care 
Resource and Referral Network; in New Hampshire, family and 
center-based providers can participate in intensive training 
and services equipment.
    Five years ago, this Congress made a decision to invest in 
child care, streamline funding, and devolve authority to the 
States. Unprecedented success has been achieved to date, but we 
know there is much more to do. We urge you to keep the promise 
made in 1996 and resist adding new requirements and 
expectations without the resources necessary to implement them.
    We ask you to fully understand how critical an ample supply 
of quality child care is to healthy families who can remain in 
the work force and positively support healthy children.
    Thank you for this opportunity. I will be happy to respond 
to questions at the appropriate time.
    [The prepared statement of Ms. Schalansky may be found in 
additional material.]
    Senator Dodd. All of you have been terrific and have given 
excellent, excellent testimony, and I want to thank you 
immensely for your comments and your thoughts on this subject.
    Let me turn to my colleagues. Senator Bingaman, do you have 
any comments or questions that you would like to raise, and 
then I will turn to Senator Jeffords.
    Senator Bingaman. Thank you very much.
    What strikes me in listening to the testimony and beginning 
to learn about what we are faced with this year in this 
reauthorization effort is that we have a real disconnect 
between what we are saying and what we are doing. We give a lot 
of speeches around town here about the importance of early 
childhood education and development and so on, and the 
administration budget to us asks for level funding on child 
care at the same time that we are being requested to 
dramatically increase the requirements to work for a lot of 
families. So it seems to me that there is a lot of disconnect 
there that will be particularly adverse in my State.
    Thirty percent of your TANF funds can go to child care; we 
have hit that cap, and we have made that transfer, but we would 
like the flexibility to do more if we could. We would like to 
see substantial increases in the amount of funding available 
for child care. I know that is a joint responsibility of this 
committee and the Finance Committee, and I am fortunate to 
serve on both, as is Senator Jeffords, and we look forward to 
working on these issues with you, Mr. Chairman. You have been a 
great leader on this issue for many years, ever since I have 
been here in the Senate, and we want to see if we can get these 
numbers up.
    Let me ask one question. Some of the argument that I hear 
in discussions about this is that although we are not providing 
that much for child care, or not providing near what is needed, 
that is not a full description of the situation because we are 
making this up with other programs. We are making it up with 
Head Start; we are making it up with 21st Century.
    Are those comparable? It seems to me that Head Start in my 
State is a pretty weak reed for a working family to depend on. 
I would be interested in any of your comments on that.
    Ms. Blank. You got it, Senator Bingaman; it is a weak reed 
for a working family to depend on. Head Start is a very 
important program. It is a high-quality program with Federal 
performance standards; it has set-asides to improve quality and 
to improve salaries; it has teacher credentials. It is, as the 
Bush Administration in their budget said, our premier early 
childhood program.
    But it is--well, first of all, it only serves 3- and 4-
year-olds, and mostly 4-year-olds. Early Head Start, which 
Kansas is working on, is a jewel for babies; it serves less 
than 5 percent of eligibles.
    But both Early Head Start and Head Start and the limited 
number of State pre-K programs are dependent on child care 
block grant money to meet the needs of working parents. Some 
people will say we are double-counting. They will put the list, 
and they will say we have all this money. Well, first, just ask 
any provider. You are going to hear from Travis Hardmon who 
runs Head Start and child care if there are enough resources in 
early childhood. But you are not double-counting if New York 
City's pre-K program is 2\1/2\ hours a day, or if Head Start is 
4 hours, and a parent needs 10 or 11 hours of child care; you 
actually have to wrap in a full child care subsidy.
    So we need both. We are actually layering a child care 
system that includes Head Start and pre-K and child care. And 
21st Century is wonderful, but as I said, only 11 percent of 
the programs were funded. It is an interesting program, too, 
because it is academically focused, which is good, because 
children need a lot, as Elaine said, to be able to read and to 
catch up--but many children need 3 or 4 hours of after-school 
care 5 days a week and during the summer, and 21st Century does 
not do that. It can be a couple of hours a week. It is an 
important program.
    One-third of children getting Child Care Block Grant 
subsidies several years ago were school-age, so CCDBG is 
actually an important piece of our support for school-age 
children. So we do have more than one program, but they all 
have a role, and they all together do not fill the enormous 
gaps for our young children or our school-age children.
    Senator Bingaman. Thank you very much.
    Senator Dodd. Let me turn to Senator Jeffords. I mentioned 
Pat Roberts and others, both Senators Reed and Bingaman, but 
Senator Jeffords has cared about this subject matter for all 
the years that we have served together, so we are listening to 
colleagues here who have dedicated a good part of their public 
service to this issue, and Jim Jeffords certainly falls in that 
category.
    Senator Jeffords. Well, thank you. I have just begun to get 
moving, and I have a lot of things in mind.
    I would like some information from you. I have been 
studying the European situations and the Asian situations, and 
the differences are so dramatic that it gives me concern as to 
how we can catch up and what it will take to do that. I am 
actually doing the arithmetic to do that, and it is astounding.
    One of the key areas is the quality of early child care and 
education, and I notice that the European standards are about 
the same for K through 12 as for the pre-school. What do we 
have in this country as far as being able to get those 
standards and get that kind of preparation? Do we have many 
people involved in learning how to have the quality of child 
care that the Europeans and Asians have?
    Ms. Blank. I have been to both France and Sweden, and it is 
quite an experience. What I think is really astounding is their 
commitment to children as nations. They differ--Sweden has sort 
of a community system where one caregiver has five children; in 
France, it is sort of extraordinary--you see 30 4-year-olds. 
Now, the teachers have 5 years of training. Someone once said 
to me the French children do not talk at table. It is a very 
different society, and you could not just superimpose the 
French system on America, just because of the way we are as a 
people; I think we are more gregarious. You would never see 30 
American children sitting so quietly with one teacher, and I am 
not sure I would recommend it, but I certainly would recommend 
the 5 years of training.
    What they do in several European countries is not just the 
early childhood, and I think that is an important lesson. 
First, they do the health care. If you look at families' and 
children's faces, you see less stress, because you start with 
paid leave, so families stay home for several months. In 
addition to the 3 or 4 months in France, you have family 
allowances that you layer on top of. They have a lot more time 
off, so the children get to spend more time with their 
families. But as nations, these countries are committed to 
children and family.
    We could do it. It would take a while. New Jersey has a 
pre-K program that goes to all children in the poor school 
districts, and they are requiring teachers to have a 4-year 
degree, and they are finding it takes a while, because we do 
not have the work force. Kathy Thornburg can talk more about 
that. We are not there yet, but if we made the commitment and 
we gave ourselves some time and we invested the resources, this 
is not rocket science. I think we know what works for young 
children. There is lots of research. We need to roll up our 
sleeves and make the commitment.
    We have been taking steps. It is better than it used to be. 
About $2 billion is invested in State preschool programs. But 
we still have a lot of gaps. And it does take resources. 
Georgia has universal pre-K. They use their lottery, and they 
spend almost $300 million. Parents there see it as free child 
care; they love it. They still need child care to extend the 
day, but when we asked Georgia if they would do it for the 3-
year-olds, they said, ``We could never do it because we cannot 
get any more lottery money.''
    Somebody in this country has to say that children and 
families matter, and we now understand how important the first 
5 years of life are, and we are going to do it. But in the 
meantime, if we do not get there right away, we have to keep 
taking these incremental steps, because they do add up. America 
is often an incremental country. But those countries are great.
    Senator Jeffords. Ms. Zimmerman?
    Ms. Zimmerman. I had an opportunity to live in Sweden, and 
one of the things that really stood out from the quality of the 
care and how it was presumed was the amount of father 
engagement. Fathers are dramatically more involved in the 
raising of their children, even if the parents are divorced, 
than you see here. So you walk the streets there and, whether 
divorced or not, the fathers have the strollers and are with 
the children, are with the children during work breaks, are 
home during the infant care as much as the women are. It is 
dramatically different.
    Also, there is a commitment actually in their law that 
understands that a key tenet of democracy is safety. And we 
might talk about diversity as a core tenet and freedom of 
speech, which they do too, but they put in safety and factor 
that into all they do in child development. So that stands out 
as quite different.
    In Connecticut, when we put together our school readiness 
initiative, frankly, we had to sculpt it as if there were 
nothing, because as soon as we tried to put in the pieces that 
we knew needed to go together--the health piece, the oral 
language piece, the safety piece, the parent engagement piece--
the pieces are like a case of pick-up sticks; it is so 
fragmented, there are so many shards and different funding 
streams, that we had to build it, and people looked awry, and 
different State departments looked awry. And even though it is 
a fine system, we are only in targeted areas where children are 
at risk. We have a wait list for school readiness of 15,000. It 
has been level-funded for 3 years. So we have a Cadillac 
program that has praised around the country, and it has not 
grown for lack of funds.
    Senator Jeffords. Some of my staff have young children, and 
they are paying $5,000 a year for quality child care. Is that 
fairly standard across the country for quality child care?
    Ms. Zimmerman. It is much higher in Connecticut; it is more 
to the tune of $7,000 to $9,000.
    Ms. Blank. Infant care is $10,000 to $12,000, although 
someone here told me they were spending $10,000 in Washington, 
DC for a 4-year-old. It depends on your region.
    We have found that if you look at rural and urban areas, 
the costs were still high; that in rural areas, it was not 
considerably lower than urban areas.
    Senator Jeffords. Even taking the $5,000, I am trying to 
figure out from a national perspective if we were to spend that 
kind of money on every child, preschool, whatever, that is 
about a $50 billion per year increase in expenditures. Can we 
afford not to spend that?
    Ms. Zimmerman. This was the data that I was presenting, 
that as we are looking at the outcome data in K through 3, and 
as we align it with Congress' goals for improved education, 
what we are clearly seeing is that quality early care and 
education narrows the race divide and improves school 
preparedness, decreases retention, decreases school absence, 
and improves reading and other cognitive capacities.
    When we cost it out, the savings in early child care far 
larger than the costs of retention. Put bluntly, we can make 
this investment in the early years, or we can make it later 
through holding children back or watching dropouts. The former 
is more dignified. The latter is clearly not dignified and 
comes with ancillary costs that are connected to self-esteem 
and a sense that one can have an impact on the work force and 
on the economy.
    So I think the choice is just one or the other--either do 
it early, or do it later in a negative way.
    Senator Jeffords. It is my understanding that with the 3- 
and 4-year-olds, if you do not get it at that time, you never 
get it. Is there some truth to that--if you miss that good-
quality care as a 3- or 4-year-old, or earlier, you really 
cannot regain it.
    Ms. Zimmerman. Well, we know so much more now than we knew 
10 years ago about the brain, and we did think that when 
children were born, what came out was what you got. Now we know 
that the brain cells actually form and are shaped like tree 
boughs, the way the sun helps a tree bough form, that it is not 
just what the child is born with but how the brain gets 
activated.
    We also know that the most important periods of pattering 
for the brain actually happen before the age of 5; that 
actually, lifelong patterning of thinking is taking place in 
those very early years.
    Now, I am an optimist, and I would be very disinclined to 
say, well, after 5 years, that is it. But what we do know now 
is that children can learn much more, and the patterns hold if 
we do it early. And if we do that well, with sensitivity, we 
are missing so much that those in Europe have already known to 
do. And the findings there are not just about learning; they 
also factor into things such as health and safety.
    So the truth is very simple--the more we do early, the more 
we gain in dignity, good outcomes in health safety and 
learning, and also in dollars.
    Ms. Blank. I agree with Elaine. There is one caution, and 
this happened when we focused on the first 3 years of life. 
That is that it is absolutely essential that children get this 
strong start to start school if they are going to be strong 
readers. If they come into kindergarten with very little verbal 
action and no experience with letters and language, they are 
far behind. But sometimes as a Nation, we tend to look in 
blocks, and yes, we must do much more on the first 5 years of 
life, and then we have to keep supporting children. We do a lot 
less at the adolescent end because we say it is too late. So 
every year of a child's life is important, and we do not do 
enough in the first 5 years; we actually do not do enough in 
the later years, either.
    Senator Jeffords. Thank you.
    Senator Dodd. Thank you, Jim, very much.
    Let me now turn to my colleague from Rhode Island, Senator 
Reed. I know many of you have to catch planes and do other 
things.
    Senator Reed. Thank you very much, Mr. Chairman, and let me 
thank the witnesses for extraordinarily cogent and compelling 
testimony today, all of you. Thank you so much.
    Again, I am struck by several things. First, I took note of 
Ms. Zimmerman's comments about the involvement of parents in 
Sweden. I did not know you were Swedish, Chris, with your 
paternal involvement----
    Senator Dodd. The Irish have a long traditional. 
[Laughter.]
    Senator Reed. Which we celebrate this weekend.
    Senator Dodd. I want to know whether those French programs 
have wine at the table for those children.
    Ms. Blank. They eat on china plates.
    Senator Reed. All of this raises many questions, but I want 
to focus on the issues that you all touched upon, and Ms. 
Blank, you not only touched upon it but were very articulate 
about increasing reimbursement rates, and I know you have been 
working very closely with Elyse Wasch on my staff.
    This seems to me to be a major issue that we have to 
address--and it is not just improving pay; I suggested that in 
my opening remarks--but with increased reimbursement rates, you 
can improve training, you can do many things that have to be 
done and also help providers to lessen the impact on parents, 
because if they are getting more substantial reimbursements 
from State and Federal programs, there is not quite the 
necessity to turn to parents.
    Again, I think that we have to really focus on 
reimbursement rates in this reauthorization, and I wonder if 
you have any other comments you would like to make in that 
regard, Ms. Blank.
    Ms. Blank. We certainly commend you for your strong focus 
on this issue and for helping to bring it forward. You know, 
this is all related. Two million children are getting 
subsidies, so when we talk about school readiness, you cannot 
not talk about child care. We have millions of children in 
child care settings who are not getting subsidies. Rates that 
providers get do not even really reflect, even if you were 
paying the full rate, the true cost of running a program, 
because there are so many other costs that are not there, like 
facilities sometimes.
    We have this odd thing where we say that we should not pay 
the full market rate for poor children because then they could 
get Cadillac care. Yet these are our poorest children. These 
are the children in Bridgeport who need school readiness. So we 
set up a bar, which is not even in law because States really 
have the flexibility to pay whatever they want, that is less 
than the market. And even when we had a law that said you had 
to pay the 75th percentile, Connecticut up until this year was 
paying the 75th percentile of 1991 rates. States are always 
trying to balance. They want to keep their waiting lists small. 
They do not want parents to pay so much. But I believe that in 
Chicago, the rate for infants is something like the 18th 
percentile--I might be wrong, but it is very, very low. How can 
you do a good job? It is impossible to run a program and do 
well by children, and you are talking about programs in poor 
neighborhoods where you have less access to private resources. 
Sheila talked about absent days. To save money, some programs, 
if you are getting public money, do not want to pay for absent 
days, but you have got to keep your program open. A school 
would never say, ``If a child does not come, we will not pay.'' 
But we are always trying to make it cost less, and it does not 
work. And we are asking providers to really pick up a huge 
burden, and many of them cannot do it. I just heard of a 
program in Westover that had been around for years that closed 
the other day in Massachusetts. They cannot do it if you look 
at the fact that 80 percent of their budget is wages. If we 
want to do well by children, and we want them to have good 
experiences, and they are in the child care line, their 
provider probably needs a rate that is not even built on the 
market, because as we all talked about, the market does not 
really allow you to provide the kind of care that these 
children need.
    Senator Reed. Thank you.
    One of the points that you made, Ms. Merkison, is that good 
child care means that a parent can be in the work force and be 
a productive worker. Might you comment on that again, because I 
think that is a very important point.
    There are some people who pooh-pooh all of this as just the 
typical fuzzy-headed thinking of people who just do not know 
about real life and the business world. Frankly, without good 
child care, you cannot have good workers in many respects, and 
I wonder if you might elaborate on your own experience.
    Ms. Merkison. Sure. I can just reiterate for you, if this 
is what you are looking for, that people who are applying for 
child care assistance want to work. I look at it like these are 
really the people who are looking for help as opposed to--and 
what I have gotten in my own work environment is people who are 
not happy with people that they feel are looking for a handout. 
But people who want child care assistance want to work; they 
want to work to provide what their children need. But without 
that help, they cannot work.
    In my case, I felt that the quality child care was so 
important that I am putting him in a good facility with a 
nursery school program, but I am sacrificing that much money. 
Half of my paycheck right off the bat goes to this facility 
because it is important to me that he has a good, safe 
environment to be in. But we cannot afford a housing expense 
because of child care expense, and it is frustrating to me to 
have to make a choice like that.
    So in regard to school, I feel like that is wonderful; I 
have him in a good place. But when we come home, my son and I 
sleep on a couch. I am trying to work and get on my feet. 
Hopefully, later in the year, I will become an insurance agent, 
but it is going to take time. I need to study. I need to learn 
the business. So I will be able to make more income eventually, 
but we need the help right now.
    Senator Reed. Thank you so much.
    Ms. Blank, you said that it is all related. Senator Dodd 
and I serve on the housing committee, and I am struck again by 
your comment, too, Ms. Merkison, that child care is one issue, 
but there is another set of issues--health care and affordable, 
decent housing for you and your child. We have lots of things 
to do, and they all come together, and the measure is how well 
our families are doing.
    Ms. Zimmerman, I was particularly struck by your comments, 
cutting to the chase--that if we want the best-educated 
students in the world, we had better have the best child care 
in the world, and we do not. Your statistics about looking 
analytically at different groups of young people who have had 
good child care and how they do in school is terribly 
convincing. This is again not just some kind of altruistic, do-
gooder notion. This goes right to what everyone is saying they 
want to do--have children be the best in school and in the 
world so they can be good citizens, productive members of our 
economy, and ensure this country remains strong.
    Can you just amplify a bit?
    Ms. Zimmerman. Yes. There was a reference before by Senator 
Bingaman about the divide between wanting more TANF recipients 
to work more hours, but the lack of care.
    I think there is another divide, Senator Reed, and that is 
the Nation's commitment to educational excellence beginning in 
kindergarten, but not paying attention to the early care piece. 
And what has become so evident from the latest findings that we 
have seen in Connecticut is that the early care piece is the 
missing piece; it is the connecting piece to succeeding in K 
through 3. It is paramount. Clearly, the literacy, the math, 
the language, the writing differential between those children 
who were in a quality early care environment for at least 2 
years against those who were not--we have a new fissure of 
haves and have-nots.
    One could say, well, maybe we just should not provide any 
of it, but that is ridiculous if we are committed to quality 
education and to global competitiveness which, since September 
11, we certainly see the need for global connectedness. We need 
to begin much earlier.
    The other item that we saw we had not paid enough attention 
to and that we had not seen much literature on--we asked the 
question whether children, if they were racially integrated 
earlier, would be less fearful of difference and more open and 
receptive to difference. And lo and behold, again, the outcome 
is that the understanding of difference and bias toward 
difference begins very early, and the outcomes are borne out 
much better in a joy with difference and a sort of acceptance 
as if this is the way it is when children are exposed to 
difference and live with difference.
    Now, the nice thing about child care is that unlike the 
public school where, once your kid is in school, it is your 
neighborhood school, and that is that in early care, parents 
are willing to drive to have their children be in the best 
situation or to take three buses to get to the best situation, 
and they can do that; they can pick and choose, and they can 
also pick care near their work site.
    So the opportunities for racial integration and helping our 
children learn to accept and to actually respect difference 
happens early.
    Senator Reed. Thanks so much.
    Senator Dodd has been very kind, and I am going to yield 
back, but I just want to commend Ms. Schalansky and her 
colleagues, because running these programs is a challenging 
task with our policy, your policy, our funds, your funds, 
private payers--and not just to you, Ms. Schalansky, but to all 
of your colleagues who do this challenging job, again I want to 
thank you.
    Thank you, Senator Dodd.
    Senator Dodd. Thank you, Senator Reed, very, very much.
    Let me ask just a couple more questions--and obviously, we 
could probably keep each panel here all day.
    I just want to ask Sheila to comment and respond to this. 
You are living with your grandmother; the couch that you and 
your son are sleeping on is in your grandmother's house?
    Ms. Merkison. Yes.
    Senator Dodd. I suppose the distinction I would make is 
that you have a situation that you can fall back on. The 
problem for thousands and thousands of people is that they do 
not have that grandmother around. So I think you are saying how 
fortunate you are, as difficult as it is, that you are able to 
kind of make this work because of that unique situation that 
you are in, whereas most people would not have that alternative 
available for housing.
    And second, you did something that is very important. I 
suppose you could have chosen to have a babysitter or a 
neighbor provide child care, and then you might have been able 
to meet that housing need, which is what I think a lot of 
people probably do who do not have an option. I presume your 
grandmother is not charging anything to stay with her.
    Ms. Merkison. No, she is not.
    Senator Dodd. I did not know the answer to that question, 
and I was going to be in real trouble if she was.
    Ms. Merkison. No, no. I think you made a good point that 
some people do not have that to fall back on. But the concern 
that I have as far as the urgency of the child care assistance 
is that my grandmother is in her eighties, and should something 
happen, my son and I would essentially be homeless, to be 
honest. We would have nowhere to do.
    It worries me--in that situation, would I take my son back 
to the abusive home? I hope not.
    I also want to mention that with only a high school 
education, I am still capable of finding a job, finding 
employment--with child care assistance--that can give me health 
insurance, can give me the ability to provide the other things 
that will take away from my need for the other programs--for 
the health insurance assistance, for the food stamps. I think 
that if we had more child care assistance, it would cut down on 
the people needing these other programs.
    Senator Dodd. Yes. You are a great witness, and I do not 
know what companies are up in Maine, but if I were a small 
insurance company, I would hire you as an agent in a minute.
    Ms. Merkison. Thank you.
    Senator Dodd. If they are listening or watching, I would 
get hold of Sheila Merkison right away. I think you are going 
to do very, very well. But you are adding a voice to a lot of 
people who, candidly, Sheila, are not as articulate and suffer 
under a variety of circumstances--they do not have one child, 
they have three----
    Ms. Merkison. Yes, and I have friends in that situation.
    Senator Dodd. So you, by your own admission, as tough as it 
is, are pretty fortunate to be in a situation where you do have 
someone at this point who can help out. And you are on the 
brink of maybe moving into a different economic category that 
may make you far more independent than you otherwise would be.
    Ms. Merkison. Hopefully, yes.
    Senator Dodd. So we thank you again for coming down.
    I wanted to make a point that I did not mention earlier. I 
want to commend Mrs. Bush, the First Lady. Some of us 
participated in a hearing where she testified about the 
importance of early learning and pre-literacy, and I want to 
endorse what she is saying and suggesting--that those are 
critically important issues. And if there is any disagreement 
at all--and I do not want to suggest that there is, because 
there is none over her points--and I would like to ask people 
to comment on this--it is that that is a very important aspect, 
but in order to have a good pre-literacy program, in order to 
have a good learning program, there are other elements that 
contribute other than just reading to someone; there are other 
elements that are critically important. And when you are 
talking about the numbers that I cited at the outset of this 
hearing, where 78 percent of women with school-age children are 
in the work force, 65 percent of women with children under the 
age of 6 are in the work force, and more than 50 percent of 
women with infant children are in the work force, that child 
care setting, the kind which you are making a sacrifice, 
Sheila, to get into, is critically important if in fact we are 
going to achieve the goals that Mrs. Bush has laid out for pre-
literacy and early learning. But you have got to have a quality 
child care program to do that, and that is the thing that I 
think was missing, with all due respect to the First Lady and 
her testimony.
    I would be interested, Ms. Schalansky, if you would comment 
on that point--and I hope I am saying that in the way that I 
mean it. I am so thrilled that she has taken this on as an 
important issue, but just expanding it so there is an 
understanding of the role that quality child care can play.
    Ms. Schalansky. I think you stated it very well, Senator 
Dodd. My understanding is that the role that Mrs. Bush is 
playing is trying to broaden the understanding of the American 
people about how important that is, and I think you heard it 
from Ms. Blank and Ms. Zimmerman. But also by your data, 70 
percent of those women are working, so it is not a matter of 
our learning how to be better parents at home or picking a 
preschool or a nursery school two or three mornings week. It is 
a matter of having child care available for the 10 or 11 hours 
a day you need 5 days a week.
    One of the things that our department does--child care is 
only one of them; we also run the child welfare program and 
others--and as you stated, Ms. Merkison's situation is such 
that she has something to fall back on. You might imagine that 
if you do not wrap the total services around the family, you 
start getting families in stress, you start getting child 
welfare issues, you start getting marital issues, and all those 
sorts of things.
    So I think it is really critical. We have tried to do some 
education as well in our State. We have borrowed a program 
called ``Good Beginnings Last a Lifetime,'' and we have tried 
to educate businessmen and parents and caregivers and 
grandparents--but we have got to put that whole package 
together, and if the economic situation is that you have to 
work, or if you are in the part of our society that benefits 
from the Temporary Assistance for Needy Families program, then 
we tell you that you have to work 30 hours a week now and 40 
hours if the President's proposal is passed. You have got to 
have that child care available.
    As one of the other Senators said, there are programs 
available--there is Head Start, there is the 21st Century 
project--but the only minutely serve the programs.
    I think one of the other questions is do we know what to 
do--yes--but we do not have the resources to have them 
available for every child, and in Kansas, being very urban in 
the eastern part of the State and very profoundly rural in the 
west, how we are able to deliver that service to kids wherever 
they are and where their parents need to work.
    Senator Dodd. I thank you for those comments. I think you 
make the case, and I saw your colleagues here nodding their 
heads in agreement with what you had to say.
    Let me ask you as well, Ms. Schalansky, you mentioned that 
fewer than 20 percent of TANF leavers, as they are called here, 
participate in the State's child care subsidy program. Why do 
you think that rate is so low, and what do you think we can do 
to ensure that those leaving welfare for work get all the 
support possible and why that gap exists.
    Ms. Schalansky. We have tried to research that a lot over 
the years, even prior to the welfare reform that was passed in 
1996. I think a couple of things happened. For some families in 
some situations, it is a cultural issue that they prefer to 
have a family member if available to care for their child; or 
the other situation that is occurring--and Ms. Merkison's 
example may be one--is that families have made some choices. 
They have made choices about rent or about child care, and they 
might share a home with another person in a similar situation, 
and they try to adjust their work schedule so they can work.
    I think that folks know it is available, but we require, as 
many States do, a subsidy that goes up on a sliding fee scale, 
and I think we just have a situation that these families as 
they have left welfare--although we are pleased that we 
continue to get their wages up--many of them start at minimum 
wage, and with all the things that hit them, I think they make 
some choices. We try to educate them about making good choices 
about what is important for their child and about getting good 
child care, but I suspect many of those folks, if they have to 
choose between rent and child care, may oftentimes patch 
together child care that would probably be less than the 
quality that you have heard described this morning.
    Senator Dodd. OK. I mentioned at the outset of my remarks--
and my two colleagues were not here at the very outset to hear 
these comments, but I know they agree with what I am about to 
say, and I think others who were here do as well--we are 
talking about people in the work force in child care, and I 
mentioned the numbers. All of us here also respect and 
understand that there are people who make the choice--the 
difficult choice, economically--to stay at home. And I 
mentioned how we have tried to get a tax credit available for 
those people who make that decision to be at home and raise 
their children, understanding the financial difficulties 
involved.
    What I do not want to ever see us get involved in here is 
pitting the person who has made that difficult choice to be at 
home, who does not necessarily have the income to do it but 
wants to try to do it, against those who have no choice because 
they are single parents or because the economic circumstances, 
like Sheila's, just demand it, or the fact that we are 
requiring it as a matter of Federal policy of the welfare 
program.
    So I feel very strongly about supporting those families who 
make that decision to be at home and to get some help.
    Elaine, I wonder if you might comment on this. We were 
talking earlier about child care settings and how valuable they 
can be in terms of learning, and you also talked about the high 
rate of illiteracy or difficult literacy with a lot of parents. 
You are not suggesting--well, let me ask you what you are 
suggesting in a sense, because if one were just dropping in on 
this conversation, it could almost sound like you are in a 
sense recommending an alternative, and that is if you have a 
choice where you can actually be a stay-at-home parent and care 
for your child as opposed to placing that child in a child care 
setting, we are recommending the latter. And I do not think 
that is what you necessarily believe. Obviously, parents are 
the best first teachers. So I wonder if you might comment on 
that, because I think that too often we engage in this 
conversation about subsidies and support and other things which 
are critically important, but I think that too often, we leave 
the audience believing somehow that we are caring only about 
the people in that one circumstance and are not being 
respectful of those in the other.
    Ms. Zimmerman. I think parents having the choice to be at 
home is paramount, and a child having a mother or father at 
home gives that child a sense of constancy, intimacy, and 
relationship that cannot be replaced by any State institution 
no matter how wonderful.
    So I would fully support that and in no way meant to infer 
otherwise.
    What we are trying to do in Connecticut is to address--and 
this is where there is another disconnect--family literacy so 
that parents who are not literate have access to this. One of 
the problems we are finding in TANF is that a mom is in TANF, 
reaches her limit, goes out and gets a job, and then she loses 
the job. We are finding that there is a cohort of parents who 
are losing their jobs because they are barely literate. So they 
get a job with UPS, but it turns out they cannot read the 
manual, so they lose their job. They could read a little bit, 
but they could not read and critically think enough to get 
through the manual.
    So what we are doing now is we are just about to move 
policy this session that will help us work with the literacy 
level of the parents before they are expected to be in the work 
force.
    So I think it is the adult and the child--we want to make 
sure that there is language and capacity to read, because 
frankly, health and the capacity to have language are really 
the boat to achievement. So it is an intergenerational 
strategy.
    Senator Dodd. I am so glad to hear you say that, and I know 
Helen agrees with this comment as well. Too often, people in 
politics like to argue against what we are suggesting here 
because somehow, we are not respectful or supportive of people 
who made the other decision. And I think that too often, we end 
up allowing ourselves to be drawn into that political divide, 
and we end up not doing much for either, as the case often 
results. So I appreciate your saying that.
    Finally, I just want to raise this with you and ask Helen 
to comment as well, if I could. There is a report that you 
helped craft in Connecticut--and I think I sent this one around 
to every colleague in the Senate; if I have not, we will do 
so--but my colleagues should know about this. This is a 
masterful piece of work done by the Commission on Children in 
Connecticut among others, bringing together in a very 
bipartisan way--it was really rather remarkable--in the State 
legislature. They sort of cleared the decks and said we are 
going to do this--no one had any preconceived notions about 
this--and began to look at the relationship between a child's 
development of oral skills and reading skills. And I was 
stunned by the results; it was really a fascinating study that 
was completed, and it again goes back to a lot of what we are 
talking about here. We have talked about child care and safety 
and other things, but a child with someone else for as many 
hours as someone like Sheila has to work a day, and that oral 
relationship in terms of, ultimately that child's ability to do 
exactly what Mrs. Bush and all of us want to do, and that is 
good reading skills and pre-literacy.
    I wonder if you might just take a couple of minutes and 
comment again. I know you did in your testimony, but I think it 
is such an important point, and maybe people would like to know 
more about it.
    Ms. Zimmerman. I would be glad to. We wrote legislation in 
Connecticut that said that we needed to find out what teachers 
needed to know to be able to teach reading effectively. That 
was it. And we brought together the best experts in our State, 
including teachers, psychologists, linguists, early childhood 
experts, kindergarten teachers. We also brought together 
experts from around the country who turn out to be the same 
experts that President Bush is utilizing for his work on 
reading.
    We met together for a year, and we agreed to try to put 
aside any differences or biases we had on what this was about, 
and we did begin as if we were making the soup from the 
beginning.
    We were able to get rid of some of these fights that are 
actually extraneous, like phonics and whole language fights; we 
just put it all aside. And by the end, we cobbled together the 
core skills and knowledge that teachers need to teach reading 
effectively. We delineated it out by grade and by outcome for 
every child.
    We have since designed modules and a curriculum. We are 
training every teacher in the school in how to teach reading 
effectively beginning with kindergarten, first, and second 
grades. And then, what became eminently clear was that we also 
in the report needed to address the oral language piece.
    So although this was originally intended to be an education 
document K through 3, it became an early childhood plus K 
through 3 document, and actually on to 3 through 6, because as 
I testified, there are plenty of children who cannot read who 
are in sixth grade.
    But the marriage between the oral language and the pre-
literacy--understanding sound, rhyming, understanding the 
connection between letter and book, understanding book and the 
value of book--all of that is in child care and early 
education, so that then became part of the reading panel 
report.
    We broke through so many divides with this report that we 
have now revisited all of our code on reading, and we are 
saying that it all has to be aligned with this report. It 
became a sort of State-owned document, and it is actually as 
good, I must say, as the document that has just come out of 
Congress on reading from the Education Department.
    Senator Dodd. As my colleagues know, I have a great love of 
the Spanish language and culture, having served in the Peace 
Corps in Latin America. There is a lot of talk about bilingual 
education and the importance of it. One of the statistics that 
I found really interesting is that oral ability, regardless of 
the language in which you are orally capable, increases 
tremendously your likelihood to learn to read in English. So 
when people start talking about children and worrying about 
whether they are going to speak English well in our society--
and that obviously becomes very, very important--but what is 
more important, based on this study, is that they be orally 
proficient in some language, and if they are, then the 
connection with their ability to learn to read in English will 
be dramatically improved.
    Ms. Zimmerman. That is exactly right.
    Senator Dodd. So that making it difficult for a child to 
learn which language they are going to be orally proficient in 
can actually retard that ability to learn to read.
    Ms. Zimmerman. That is right.
    Senator Dodd. That was a revelation to me in terms of how 
we look at language ability, and given the fact that in school 
systems now, it is not uncommon--I was at Stamford High School 
recently, and there were 150 kids in the audience, and I think 
there were 43 different languages being spoken by children in 
that school--and this is not uncommon in any of our States now, 
with the great richness of the country in a sense. So it is an 
important added statistic.
    As I said, we could spend all day with all of you, but I 
think we should get to the second panel if we could. So we will 
submit some additional written questions.
    Sheila, a particular thanks to you for coming down from 
Maine. You have been very helpful this morning.
    Ms. Merkison. Thank you for having me.
    Senator Dodd. Good luck to you and your son as well.
    Helen, Elaine, Ms. Schalansky, thank you very much.
    We will now go to our second panel. I know that some of my 
colleagues are going to have to head off, but I thank them 
immensely for their participation.
    I will introduce the second panel as you are coming up. 
Some of you have already been introduced by members who were 
here earlier.
    Elizabeth Bonbright Thompson--is that the correct 
pronunciation?
    Ms. Thompson. Yes. It turns into ``bombsight'' if you do 
spellcheck. [Laughter.]
    Senator Dodd. Yes. I will tell you the word I hear about 
you. When I said you were going to come and testify--``You are 
about to hear from a firecracker.'' So ``bombsight'' may be 
appropriate. You have a lot of fans who think very highly of 
you.
    Ms. Thompson. Thank you, Senator.
    Senator Dodd. Ms. Thompson is executive director of the 
Washington State Child Care Resource and Referral Network. We 
heard Senator Murray describe how effective Ms. Thompson has 
been on behalf of children and their families and child care 
issues.
    We are going to hear from Dr. Kathy Thornburg. Senator Bond 
was very gracious in his comments about his constituent. Dr. 
Thornburg is a professor of human development and family 
studies at the Child Development Laboratory and research 
director at the Center for Family Policy and Research, and also 
is president of the National Association for the Education of 
Young Children, which is the largest early childhood education 
membership organization in America. We are very honored to have 
you with us.
    And Travis Hardmon is also well-known to this committee and 
the members up here. We rely upon him a lot for his expertise 
and knowledge about these issues. He is executive director of 
the National Child Day Care Association, the Nation's largest 
nonprofit provider of child and family development services. 
Mr. Hardmon knows first-hand the struggles that families face 
in trying to afford child care and that providers face in 
trying to keep costs down while raising the quality of care. I 
was impressed with Mr. Hardmon's testimony, I might add, 
prepared for the September 11 early learning hearing which we 
were not able to have for all the reasons that we have heard. 
In fact, Mrs. Bush was here that morning and was about to 
testify.
    I found the testimony that you were going to give that day 
tremendously interesting, and it is still very, very valuable.
    So I thank all three of you. You have been very patient 
while we went through the first panel. I should have said this 
to the other witnesses, but we will accept all of your 
testimony and related documents that you would like to include 
as part of the record. So if you could try to keep your 
presentations brief, we can get to some questions.
    We will begin with you, Elizabeth.

STATEMENTS OF ELIZABETH BONBRIGHT THOMPSON, EXECUTIVE DIRECTOR, 
  WASHINGTON STATE CHILD CARE RESOURCE AND REFERRAL NETWORK; 
KATHY R. THORNBURG, RESEARCH DIRECTOR, CENTER FOR FAMILY POLICY 
 AND RESEARCH, UNIVERSITY OF MISSOURI-COLUMBIA, AND PRESIDENT, 
 NATIONAL ASSOCIATION FOR THE EDUCATION OF YOUNG CHILDREN; AND 
TRAVIS H. HARDMON, EXECUTIVE DIRECTOR, NATIONAL CHILD DAY CARE 
                          ASSOCIATION

    Ms. Thompson. Thank you, Mr. Chairman, members of the 
committee. Thanks for the opportunity to testify before you 
today, and as you said, I will submit my written testimony and 
will try to limit it and will just take excerpts.
    I have been asked to focus on the role of child care 
resource and referral as the thread which holds the fragile 
early child care and out-of-school time system together, or the 
quilt together.
    Child care resource and referral, commonly called ``R and 
R''--which I will use to keep this shorter--is the child care 
system's best-kept secret. Today, children are in so many 
different types of early childhood settings; we need one system 
that can reach them through either their parents or their 
caregivers. Only the R and R system offers that kind of access. 
Only the R and R system has the capacity to integrate the 
wishes of the families, the skills of the caregivers, and the 
needs of the children.
    There are four major activities that are core to R and R 
services, and they are in every State. The first is family 
services, and obviously, that is where we assist families to 
find care, to identify quality, and to access subsidies as 
appropriate.
    Nationally, through NACCRRA, the National Association of 
Child Care Resource and Referral Agencies, we know that we are 
serving nearly 3 million families a year.
    The second is provider services. We recruit, train and 
provide technical assistance and consultation support to over 2 
million child care providers each year to increase the supply 
and improve the quality of care and early learning 
opportunities for children.
    The third is community building, and this is really key. It 
is tough to get your head around it, but it is very key. 
Resource and referral programs regularly engage business, 
faith, education,l health, and philanthropic leadership in 
every community to help build that early learning community. 
Without this community building component, the whole system 
would fall apart.
    The fourth is also really important, and it is data and 
research. As you know, numbers really help you make decisions 
about how you draft policy, and numbers in child care are very 
hard to come by. The resource and referral programs all collect 
locally-based supply and demand data around child care. In 
States with strong resource and referral networks like 
Washington State, the local R and R programs each report on a 
monthly basis their data to us, and we compile, analyze and 
disseminate that data Statewide, for use by State and local 
partners and policymakers.
    We feel that it is a proven model and merits replication 
nationally, because I think it could provide you all the key 
information you need to make some good decisions.
    I want to tell you a little bit about resource and referral 
in Washington State, because I think we have been a successful 
model. Washington State has invested in one of the most 
comprehensive Statewide R and R systems in the Nation. The 
beauty of the R and R structure is that every R and R looks 
like the community it serves. So that as you can imagine, there 
is a diversity of organizations that run at the local level.
    In Washington State, only 2 of the 18 locally-based R and R 
programs are stand-alone R and Rs--all they do is resource and 
referral. The other 16 programs are housed in parent 
organizations which have a wide variety of broader interests 
that they use, and these are just a program within it. Those 
include CAPs, which are Community Action Program agencies; city 
government; a university; educational services districts, which 
are school districts; a community college; and six of our 
resource and referral programs are housed in faith-based 
organizations.
    A key byproduct of a strong, well-funded R and R system is 
the ability for the Statewide R and R network to both leverage 
private dollars to match State and Federal funds, which is a 
prerequisite for the CCDBG, and also to position the State to 
acquire and distribute Federal grants.
    Since 1990, the Washington State Child Care Resource and 
Referral Network--that is my organization--has leveraged, 
secured, or facilitated the distribution of more than $16 
million in private, Federal and State dollars for child care 
and out-of-school time system in Washington State, and that is 
above and beyond--that is not even counting--the amount of 
money that the State funds us to do the core services. That is 
for the other kinds of programs.
    The R and R Network has served as a catalyst for change and 
a mechanism for raising resources to meet the specific 
community and Statewide needs.
    Let us talk a little bit about parental choice; it is so 
key. Many families are unable to find the type of care they 
seek due to the lack of child care supply to meet their needs. 
This is especially true for infant and toddler care, care for 
children with special needs, school-age care, and care for 
children during nontraditional working hours.
    During the years between 1996 and 2000, which was the 
beginning of welfare reform, right when we needed it--we needed 
a lot more care--we were losing up to 1,000 family child care 
providers a year in Washington State. They were closing. These 
were small businesses. They were making decisions for lots of 
reasons, because it was a hot economy in Washington, and they 
could get higher-paying jobs elsewhere, and there were a lot of 
reasons. But this had a profound impact on the availability of 
in particular infant and toddler care, because in our State, a 
lot of the youngest kids are in family child care.
    In an effort to address this growing lack of supply and 
others in nontraditional hours and others, the State has 
dedicated over $15 million between 2000 and 2003 to fund 
creative community-based approaches to building the quality and 
capacity of child care.
    A majority of these resources flow through the R and R 
system, and were we not there to do it, it would not be 
happening. In addition, Washington State has consistently put 
100 percent of its share of its Federal CCDBG infant/toddler 
set-aside dollars into community-based activities. I think that 
is pretty impressive. You often hear that States are taking the 
money and using it for other things. Washington State is 
putting 100 percent of its infant/toddler set-aside into the 
community-based programs.
    We make every effort to use existing service delivery 
systems. Why replicate or duplicate if you do not have to? So 
we depend heavily upon strong partnerships between existing 
systems, and resource and referral and the local health 
jurisdictions work hand-in-hand through Health Child Care 
Washington, which is a byproduct of Health Child Care America, 
to provide unique health linkages for families and caregivers, 
and that has proven to be very effective as a retention tool.
    I have been asked to talk a little bit about family child 
care providers and what we do for them. Well, the R and R 
programs are a primary source of support for family child care 
providers who are independent small businesses that are 
operating out of their homes.
    The R and R support for family and child care providers--
they support them in many, many ways, but some of them include 
help with becoming licensed; training and consultation on 
health and safety, infant, toddler, and school-age care; 
lending libraries, resource vans, materials--taking them out to 
their homes when it is harder for them to get in--and home 
visits. So there are many ways.
    Senator Dodd, you mentioned the stay-at-home moms and the 
folks who care for friends, neighbors, and relatives--the 
informal care system. We support that as well, and as a matter 
of fact, I think every State could tell you that a significant 
number of the children on subsidy are choosing nonparental, 
family member, friend and neighbor care at least some part of 
the week. Reaching out to this population is extremely complex. 
They are not licensed, and it is hard to find them. Yet 
nationally, 82 percent of the resource and referral programs 
support this type of care.
    Literacy is a huge component, and I want to say that a 
cost-effective option for enhancing early literacy through a 
variety of child care settings would be to capitalized on the 
established R and R system in each State and to provide early 
literacy specialists in every R and R.
    This is a model which is already working in Maine through 
their R and R system, which is called the Research Development 
Centers. That is the other probably R and R--everybody calls it 
something different, so it is hard to know what it is in your 
own State.
    In conclusion, because of welfare reform, Washington has 
committed ever increasing amounts of its Federal and State 
dollars to enhance the quality, affordability, and availability 
of child care and out-of-school time services. Over half--53 
percent--of all current TANF dollars flowing into Washington 
State are used in child care. To me, that is an incredibly 
impressive number. This commitment of TANF resources is a 
powerful recognition of the importance of child care to working 
families and the success of welfare reform--but as a result, 
funding for child care services has become extremely vulnerable 
to the upward fluctuations in TANF caseloads, which we have 
actually just been experiencing and which is sending the child 
care system into a tailspin in our State.
    Congress has the power to create a strong safety net for 
children and families through the Child Care and Development 
and TANF reauthorization. It is time to design those policies 
and dedicate the funds, and I have five recommendations for 
you.
    One is to significantly increase funding for child care 
subsidies for eligible families working on low-income jobs and 
leaving welfare.
    Two is to fund efforts to improve the recruitment and 
retention of qualified professional staff and provide 
incentives for additional training.
    Three is to fund specialists for services to parents and 
programs on critical issues, such as inclusion of children with 
special needs, infant/toddler care, early literacy, health, 
etc.
    Four is to require and fund a comprehensive system of R and 
R services in every State, including a Statewide network.
    And five is to fund a comprehensive, accurate, and current 
national system of early care and education data collection, 
analysis, and reporting using local R and R data.
    If you do these five things, and they are in place and 
appropriately funded, you can count on the following positive 
outcomes. Communities will be better poised for economic 
development and growth. The early childhood and out-of-school-
time work force will be well-prepared and more appropriately 
compensated. Families will have choices of appropriate 
nurturing and learning environments for their children, and 
children will enter school ready to succeed.
    Thank you.
    Senator Dodd. Thank you immensely for that testimony. It 
was very, very helpful.
    [The prepared statement of Ms. Thompson may be found in 
additional material.]
    Senator Dodd. Dr. Thornburg.
    Ms. Thornburg. Thank you.
    Senator Dodd and Senator Jeffords, it is my pleasure to be 
here and be able to talk about the CCDBG, because as you know, 
we need to tackle the crisis as it relates to quality, 
affordability, and compensation. So thank you for having me.
    We must make an investment in CCDBG now. We have heard a 
lot already today about low-income working families and their 
need to be able to afford quality child care with qualified, 
well-compensated professionals.
    As you know, there are many important components to this 
reauthorization, but today in the few minutes that I will be 
speaking with you, you will hear me talking several times about 
compensation, because I am really here to talk about the early 
childhood work force and how the work force is the group that 
makes the difference in the lives of the children, in addition 
to the school readiness for making them ready to enter school 
successfully.
    Research tells us that high-quality child care makes a 
difference for young children's math and literacy skills, 
behavior, and over time, we have already talked about them 
completing school and also to lower the incidence of juvenile 
delinquency.
    I want to mention two studies right now. One is the Cost, 
Quality, Outcomes Study, and then, I am sure you have both read 
the Neurons to Neighborhoods research. There are many important 
findings in these studies, but one major finding that they 
share is that programs that have staff with better 
qualifications and better compensation experienced lower staff 
turnover and higher-quality programs.
    So it is no surprise to anyone in this room that it is the 
people--it is the teachers and the other staff who are the key 
to high-quality early childhood programs. So that again, we 
have to look at the compensation issue of the teachers.
    So the lesson is pretty clear. The benefits of good-quality 
early childhood programs will only be achieved if we invest in 
the child care programs and finance the full cost of providing 
high-quality services. Again, this means the equitable 
compensation of the well-qualified staff, but we must also 
ensure affordable access for all families to good programs.
    I am honored to be President of the National Association 
for the Education of Young Children which, as Senator Dodd 
mentioned, is the world's largest organization. NAEYC supports 
Federal legislation introduced last year--thank you, Senator 
Dodd--known as the FOCUS Act. This Act would deal with the work 
force issue in the form of a compensation plan based on 
education.
    You already mentioned earlier ticket-takers making more 
than child care professionals, and $16,000--both of you know 
these statistics quite well--and that the turnover rate is at 
least a third; so I will not repeat that.
    On the earlier panel, Janet mentioned that there is a 
Midwest Child Care Consortium including Iowa, Kansas, Missouri 
and Nebraska. We just completed our first round of data, we got 
the data a few months ago--you will find some in the written 
testimony--but Gallup called 920 infant/toddler and preschool 
teachers through a random selection process, and from that 
chart, you will be able to see that 40 percent of the teachers 
had at least a 2-year child development degree, but in spite of 
that, 60 percent of the teachers earned less than $15,000 a 
year. This is in Region 7. Missouri was right at $15,000. 
Nebraska and Kansas followed, and I must say that Iowa had an 
even lower salary.
    A recent report outlined staffing patterns in 75 relatively 
high-quality child care centers in California. They interviewed 
a lot of people in 1996. Four years later, they went back to 
check and see how they were doing. Seventy-five percent of the 
teachers were gone, and 40 percent of the directors were gone. 
So we know the importance of consistency for children, and we 
know that high turnover is not good for that.
    Essentially, I like to think of the early childhood work 
force as a bucket with a gaping hole in the bottom of it, 
because we set standards, we put professional development 
dollars into our early childhood professionals, and it is 
really futile.
    In one example I give in my written testimony, the example 
is from Michigan, and the main point in that example is that 
there are degreed teachers who are in the pre-K classrooms, and 
the second a primary classroom opens up, that person leaves--
and who would not, because it is for double the pay. Other 
States have similar stories.
    Fortunately, we do have some successful examples of how 
quality of children's early learning and development can be 
enhanced when we do pay attention to linking professional 
development with higher compensation. And of course, the U.S. 
military model is the best example today, where they have taken 
training, education, and compensation, linked it, and reduce 
turnover.
    This committee heard from Sue Russell last month about some 
efforts in other States. I think you both know about the TEACH 
early childhood project now in 19 States that provides 
scholarships to help early childhood teachers go back to 
school, pay for their education, their tuition, their books, 
release time, and so forth. But for those who already have 
college degrees, there are programs like WAGES in North 
Carolina and CARES in California that provide a graduated wage 
supplement to participating teachers, again based on the level 
of education.
    So both the scholarship as well as the retention and 
compensation initiatives link quality with compensation. States 
and communities are seeing results from these efforts in lower 
teacher turnover and better-educated child care teachers, but 
expansion of these programs must happen at a faster pace.
    Many of the States using TEACH and WAGES projects are in 
fact using CCDBG moneys to finance them. So the FOCUS Act has 
been incorporated as a second title in the CCDBG 
reauthorization bill introduced in the House by Representative 
George Miller--and we of course hope that it will be part of 
the Senate's reauthorization legislation.
    Senator Dodd. It will be.
    Ms. Thornburg. Thank you. And Congress of course must make 
the investment today.
    Ms. Thompson had five recommendations. I actually have one 
to conclude with, and that is straight from the wisdom of 
Senator Jeffords. I think I heard you ask a few minutes ago 
would it be helpful if we added $50 billion, and I think that 
would be great. I think it would be a good start. So that would 
be my recommendation, to look at not only serving more 
families, but what I am concentrating on today is really 
worrying about the work force and the inconsistency. And of 
course, we cannot expect an 18-year-old without tuberculosis, 
who has a child abuse screen--which is Missouri's requirement 
for being a head teacher in a child care program--how can we 
expect that person to know, understand, or worry about the 
literacy of young children. So the work force issue is quite 
serious.
    I thank you for listening and for caring about young 
children and their teachers.
    Thank you.
    Senator Dodd. Thank you very much, Dr. Thornburg. That was 
very, very helpful.
    [The prepared statement of Ms. Thornburg may be found in 
additional material.]
    Senator Dodd. Mr. Hardmon?
    Mr. Hardmon. Senator Dodd, Senator Jeffords, thank you for 
having me today. It is indeed a pleasure. I work on these 
issues locally here in the District of Columbia, and also serve 
on the USA Child Care Board of Directors, so it is a pleasure 
to be speaking to you from a local perspective.
    The National Child Day Care Association happens to be the 
largest nonprofit child care provider here in the District of 
Columbia. We serve over 1,600 children ages 6 weeks to 12, at 
25 centers, and also through a family child care satellite 
system. Approximately 75 percent of those children enrolled in 
NCDCA are beneficiaries of the subsidy program.
    During my time at NCDCA, we have actually expanded by 
opening eight additional child development centers, and 
unfortunately, we are still unable to meet the growing child 
care needs of the District of Columbia community.
    It is indeed an honor and a pleasure for me to come before 
you today to testify on the importance of and the need for 
significant additional funding for the Child Care and 
Development Block Grant, the major Federal support for child 
care assistance. Even in times of economic uncertainty and 
pressing international and domestic concerns, our Nation must 
look first at the care and education of our children.
    I have been asked to focus on what is needed in terms of 
meeting working parents' needs and looking also at issues 
around school readiness. I am happy to do this from the 
perspective of a child care provider.
    There are three things that I think are significant, one 
being the stability of the child care delivery system, 
including a trained and educated, adequately compensated child 
care work force, and the need to increase payment rates to 
providers who serve low-income families.
    Second is providing services to meet the needs of families 
with infants and toddlers, and third is improving school 
readiness in the context of the child and the family.
    Next, stability of the child care delivery system. Our 
organization, NCDCA, employs over 300 staff in 25 centers in 
Northeast, Northwest, and Southeast DC. Of that staff, 
approximately 150 are teaching staff. Annually, on average, 
NCDCA loses about 10 percent or more of our teaching staff to 
better salary offers or retirement. Recruiting approximately 15 
new teachers a year places an enormous burden on the 
organization and jeopardizes the quality and stability of our 
child care services.
    High staff turnover is also a burden to the children, who 
must deal with the change in beloved teachers and must risk 
developing a new relationship on a too-frequent basis.
    We constantly struggle to recruit well-qualified staff and 
often find that we are hiring replacement teachers who have 
less training and education despite recognition that higher 
wages contribute to greater staff stability and program 
quality.
    Compensation for the majority of teaching staff positions 
does not keep pace with the cost of living. Additionally, the 
payment rates that we receive are too low to provide families 
with access to a full range of quality services and directly 
impact the stability of the child care infrastructure.
    In the District, as we look at the inadequate reimbursement 
rates that are outpaced by the market rate, looking at what we 
are paid in terms of a subsidy has a tremendous impact on our 
ability to provide quality services to purchase the equipment 
and supplies that we need, the books that were talked about 
earlier, as well as the curriculum materials, and all kinds of 
classroom supplies that are needed. In addition, there is a 
tremendous impact on recruitment and retention because the 
agency faces this impact on a significant way as we have opened 
new classrooms in our efforts to expand, but we do not have the 
teachers to be able to operate and begin providing services. So 
recruitment and retention is a significant issue.
    Let me put this in perspective. Without an increase for 
work force development and reimbursement rates, we will not be 
able to keep pace with inflation and the rising expenses, 
leaving these critical needs unaddressed--the need for 
increased staff training to improve quality, salary increases 
to avoid losing more qualified staff, and the need for 
additional slots to meet the growing unmet need for child care 
services.
    My second point is around services for infants and 
toddlers. The District of Columbia last year had a waiting list 
of over 6,000 infants and toddlers District-wide; again, that 
is 6,000 infants and toddlers District-wide. Each week, our 
organization receives calls from families seeking services, and 
we must turn them away because we do not have the capacity to 
serve them. Unfortunately, this leaves low-income families in 
the District with choices that do not promote the optimal 
development of their children and may indeed place them in care 
settings that do not provide for basic health and safety.
    Additional funding is needed to develop and equip 
facilities to meet this age group and to ensure that our 
youngest children are in safe, developmentally appropriate and 
enriching care while their parents are at work.
    The infant care work force must also be appropriately 
prepared, trained, and compensated.
    The third issue is school readiness. Given the recent 
compelling research about young children and what they need to 
know in order to be successful in school, I am pleased with the 
increased emphasis on early literacy. High-quality child care 
programs have traditionally emphasized pre-reading and language 
development; however, we need to improve training for early 
childhood teachers and need better materials and curricula so 
that children in child care will have the language-rich 
environment and skills they need to succeed.
    However, I must share with you a concern that was 
articulated earlier by you, Senator Dodd. That is that we are 
in a situation that, as we look at this whole issue of school 
readiness, it is not about school, it is about school 
readiness. Quality early care and education providers have long 
recognized the importance of a holistic approach which includes 
comprehensive services for children and families at risk. Book 
learning will not be achieved isolation, especially when you 
are dealing with children from low-income families, where basic 
physical needs must be addressed if we are to create a rich 
learning environment. Nutrition, health screening, family 
support, and parental involvement are just a few of the 
elements which pave the road to success in school and in turn, 
success in life.
    I cannot stress enough the critical role that the parents 
play, which has already been articulated here earlier.
    Our program, NCDCA, just to bring this to a close in the 
interest of time, provides GED training, a male initiative, 
parent apprenticeship training programs, home ownership 
programs, and self-empowerment programs for families. In order 
to do this, we must raise money privately to supplement what we 
receive in the way of our reimbursement rate.
    We believe it is important to provide these kinds of 
services to children from disadvantaged backgrounds so they can 
grow and learn in an effective manner.
    In conclusion, I thank you for the opportunity to share my 
excitement about the work we do and seek your help to address 
the challenges faced by families and the child care providers 
who serve them. We know what works. When it comes down to the 
nuts and bolts, one message remains clear: If we are to address 
our infrastructure needs, expand services, and improve quality 
for children from birth to school age, substantial increased 
funding is absolutely necessary.
    I was part of the panel, as you indicated earlier, that was 
to speak on September 11, and since that day, we have done much 
healing and have come together as a Nation. I want to thank you 
for your leadership and also say that all of our efforts as a 
country and as a world leader much start by looking at the 
well-being of our children. They are our most precious asset, 
and ensuring their care and well-being is our best defense.
    Thank you.
    [The prepared statement of Mr. Hardmon may be found in 
additional material.]
    Senator Dodd. Thank you very, very much.
    Again, all three of you have given excellent, excellent 
testimony, and you bring such a wealth of knowledge to this 
discussion, with many, many years of deep involvement in these 
issues. There will hardly be enough time to examine all the 
aspects of all this, but we are very, very grateful to you.
    Let me turn to my colleague from Vermont, because he may 
have a schedule conflict. We are going to try to get you out of 
here at a decent hour. So let me turn first to Senator 
Jeffords.
    Senator Jeffords. Yes, I do, and I appreciate it, Mr. 
Chairman.
    Mr. Hardmon, I am of course very interested in DC. Several 
years ago, I sat on DC appropriations and, I was kind of the 
pseudo superintendent of schools for several years, years back, 
and it depresses me to see that the needs of the Nation's 
Capital are still not being met in the area of education, and I 
want to do what I can to try to help rectify that. It shocks me 
that the Nation's Capital, which we here in Congress have made 
ourselves responsible for, has not been able to have the 
funding available to do what needs to be done. I may save that 
for a visit later to get more information, because it just 
shocks me. This Nation's Capital ought to be the example to 
follow, not the example of what is needed. So I appreciate your 
testimony.
    I do have to leave, but I want to let all of you know that 
I am deeply concerned about this Nation and our failure to act 
as every other Federal government has throughout the world to 
fully fund early childhood especially and to make it part of 
the responsibility of the Federal Government.
    I am going to be doing all that I can, working with my good 
partner here, to get this Nation to live up to its 
responsibilities. Senator Dodd is probably in the more 
unfortunate position of having to look to the appropriations. I 
am on the Finance Committee, and I am excited about the 
opportunities that I have, because I enjoy a reordering of 
priorities through the tax system. So I have in mind some 
exciting things, like, as was mentioned earlier, the $50 
billion. That is an easy one. All I have to do is find a match, 
and I think I have found a match, so we will get moving.
    Anyway, it does raise the consciousness of all of us in 
regard to the serious problem that we have relative to the rest 
of the world. We have just not recognized as a nation that the 
Federal Government has to provide more resources. What we 
provide relative to every other Nation is unbelievable. I look 
at Japan as the prime example of what a country can do. Their 
teachers, for instance, are paid within the top 10 percent of 
wage-earners in the country. They have demonstrated that that 
is a top priority and that their child care and everything all 
the way up and down the line is probably the top example, but 
the Asians and the European nations just shame us relatively to 
what we do, especially when we get down to the young children.
    Together with my chairman over here, we are going to do all 
that we can--he has done remarkable things.
    Mr. Chairman, I have to go to another committee meeting, 
but I have listened very carefully to the testimony, and I 
reserve the right to drill you with additional questions after 
you leave.
    Thank you very much.
    Senator Dodd. Thank you very much, Senator Jeffords, for 
your support.
    I mentioned earlier the wonderful hearing that the Finance 
Committee held on child care and the members, both Republican 
and Democrats. It was a very impressive sight to see the issue 
of child care raised as predominantly or as dominantly as it 
was in that hearing. And we have a joint hearing coming up with 
Senator Breaux on the Finance Committee and this committee as 
well, looking at the appropriations, authorization, as well as 
the tax code, which can play a very critical role in all of 
this.
    So we look forward to some efforts here this spring and 
summer to try to improve the support for this issue.
    Senator Jeffords. If nothing else, it will be exciting; I 
am not sure about the results.
    Senator Dodd. Well, hope springs eternal here. We have been 
at this for a long time.
    I do not know if they can pick this up on CSPAN or not--the 
numbers are probably a little small--but just to lay out here 
what we tried to do was to compare occupations, salaries, and 
so forth. I always hesitate to do this to you, because it is in 
no way meant to denigrate the salaries that other people are 
paid, but just to put salaries in perspective for people. As 
Senator Jeffords just said, when you look at other countries, 
how do you value certain things.
    One of my colleagues said earlier that you cannot go 
anywhere, and I do not care who is standing up to speak about 
the priorities of a Nation--if it is one of these general 
subject matters or speeches where education is not always 
listed if not the top, near the top, of everyone's agenda of 
what is important. And that transcends ideology and political 
lines. Yet we painfully see--and this may shock people--but we 
spend less than one percent of the entire Federal budget on 
elementary and secondary education, excluding higher education, 
as a partner with State and local governments. Here we are in 
the 21st century, and we are an anemic--to put it lightly--
partner on elementary and secondary education. We are even more 
anemic when it comes to early childhood issues.
    I do not know how many articles in national magazines, 
programs on television--everyone seems to know these numbers 
rather well about the importance of zero to three, zero to 
five, brain development--we heard it again today. People can 
almost cite these numbers verbatim without relying on charts or 
staff memos. Yet, despite all of that awareness there is this 
inverse proportion to the need and the allocation of resources 
as opposed to the other end of the spectrum, where I do not 
deny there is a need, but when you start talking about the 
commitment of dollars at a higher education level--and someone 
pointed out earlier what percentage of a person's disposable 
income goes to the cost of higher education versus what 
percentage of disposable income goes to providing for the early 
education needs of their children.
    Again, this is no longer a debate. We are not arguing--this 
is not the argument about global warming--not that I think 
there is much of an argument there, either--but a debate on 
whether or not it is critically important to a Nation's well-
being, particularly this one that depends on the sophisticated 
document of a Constitution and a Bill of Rights, which I carry 
with me every day, to have someone understand the subtleties of 
the First Amendment, you need to have an educated population. 
If you end up with an ignorant population, you not only put our 
economy in jeopardy, you put this document and everything it 
stands for in jeopardy. An educated society, a democratic 
society, absolutely and totally depends upon an educated 
society.
    So when you start looking here at comparative salaries in 
terms of where child care workers are down here at $7.43 an 
hour, $16,000 a year, and with all due respect to gaming and 
casino change persons and the like, who can early $2,000 and 
$3,000 more; desk clerks at resort hotels and so forth--God 
bless them for doing what they are doing, and many of them are 
trying to provide for the child care needs of their children--
but nonetheless in terms of where we as a society allocate our 
resources, how our rhetoric and our actions are completely 
misaligned. The rhetoric is way up here, and the actions are 
almost at the bottom. It is frustrating to me, after 20 years 
here arguing on these issues, to find ourselves pretty much 
making the same case today as we were almost a quarter century 
ago. So it is frustrating, and I hope Senator Jeffords is 
wrong, that we will actually do better.
    I am heartened by the turnout here today and the comments 
made by people from both political parties about the importance 
of greater commitment to this issue.
    With that, let me ask a couple of questions if I can of our 
last three witnesses. I want to come back to the STEPS program, 
Ms. Thompson. I was interested in hearing how that works, how 
it provides what I think you described as a seamless transition 
for children into kindergarten. I wonder if you could tell us 
more about how that program works?
    Ms. Thompson. Yes. The STEPS program was actually initially 
begun for children with special needs. It was a way to 
integrate them into kindergarten through zero to three 
programs.
    In Washington State, we have elaborated on that program and 
had it apply to children from all kinds of backgrounds, 
children who are having trouble assimilating into the 
kindergarten experience. What is exciting about that program is 
that they have teams in local communities that consist of the 
Child Care Resource and Referral program, the teachers, the 
principals, different human services supports for families, 
family support centers, and they all work together for the 
family early on, way before they even come close to 
kindergarten, to have an integrated program, to make sure, 
whether it is literacy issues or whatever is at stake for that 
program, we try to deal with it before they get to 
kindergarten. It has been wildly successful; the problem is it 
is woefully underfunded. As a matter of fact, we used to use 
Child Care and Development Block Grant funding to in part fund 
the piece for the child care participants, and unfortunately, 
because of the State budget woes, that was just cut, so we are 
not using CCDBG funds for that anymore.
    But it is a wonderful program, and we hope that those kinds 
of programs can be stimulated.
    Senator Dodd. Yes. It is very, very innovative, and I 
commend you for it and hope you can get it back on track. In 
fact, we would like to know a little more about it; if you 
could send us some information on it, we might try to 
incorporate in some of our other ideas ways to promote this 
concept, because it is so important to make that transition. 
Too often we think of these things in boxes, and we do not 
understand that it is a seamless piece here and that it moves 
that way.
    Oftentimes--I do not know if this will sound humorous to 
you--I will ask people if they will support me on the Child 
Care and Development Block Grant, and I will also ask if they 
will help me out on the WIC program as well, and I also need 
some help on nutrition.
    And they will say, ``Look, I will help you out on WIC, but 
I cannot do all three.''
    And I always say, ``We are talking about the same child 
here, I want you to know. We are trying to transition this 
individual. So when you pick and choose on me a bit, that is 
okay, but understand that you are giving with one and taking 
away with another.'' This is the point the earlier panel made 
as well.
    One thing I want to raise with you, Dr. Thornburg, is the 
point that Mr. Hardmon raised about the early learning 
preschool literacy issues. Again, none of us here argues about 
the value and the importance of that. I think the concern 
expressed is that, again, to deal with that in isolation from 
these other issues and that a person's ability to succeed as an 
early learner and in pre-literacy depends on a variety of other 
issues such as their ability not only to think cognitively, but 
also how to deal socially as well as emotionally, physically, 
and so forth.
    I wonder if you might comment on that issue as it relates, 
one, to the people who are trained to work in these ares, but 
also the significance of that in terms of early learning and 
the pre-literacy programs.
    Ms. Thornburg. I have been a teacher trainer for 35 years, 
and we continue, as we did three decades ago, to know the kinds 
of things that we should be training teachers. We have added a 
little bit of knowledge--the brain development information has 
been helpful and useful--but we know, as you mentioned, that 
literacy and numeracy--teachers must know how to, not just that 
it is important. Social-emotional development is equally 
important. Learning to know how to have friends and play with 
your peers and so forth, of course, is crucial.
    Physical development has been mentioned once or twice 
today, and I really want to reiterate that, because the 
exercise and the nutrition that can go on in helping families 
learn and understand--young children begin to develop their 
habits, and I am really concerned about obesity among young 
children today--that is something else----
    Senator Dodd. We are going to have a hearing on that issue.
    Ms. Thornburg [continuing]. That is good, because teachers 
of young children need to know and understand more about that 
issue as well.
    So it is not only teachers needing to know and understand 
basic child development, but how children learn, how to set up 
the learning environment so children can learn, how to have 
curiosity come from the children--and that is really discovery 
learning and so forth--so how to set up an appropriate 
environment for these children so they can be curious and they 
can learn through discovery as well as learning through some 
intentionality, for example, with literacy and numeracy.
    I like what Mr. Hardmon said about the role that early 
childhood teachers have in working with families and parents, 
because teachers cannot do it alone. We have seen today that 
parents cannot do it alone. So it is just one more aspect that 
we want early childhood teachers to be good at--working with 
and supporting parents on behalf of the children. And we do 
this in many of our States with no formal pre-service or 
educational requirements for our children birth to five.
    So the system I think is very broken. The teachers I 
train--and they get 4-year degrees and master's degrees--a year 
later, some may be insurance agents, or they have moved to R 
and R where they can make a little more money. They are 
wonderful teachers. They love kids, and they love working with 
children and families, but they are no longer teachers because 
you do not have to pay more than, we found out in Missouri, 
$15,000 was average.
    So we know how to do it, we know what the research says, 
and we just are not doing it, and I think the $50 billion truly 
is a good idea--then I think we would be well on our way--but 
it still is not the complete package.
    Senator Dodd. Your job is to call Senator Bond over the 
weekend, who sits on the Appropriations Committee.
    Ms. Thornburg. I will do it. Thank you.
    Senator Dodd. I also want to ask you about the universities 
and how they can help with the early childhood work. This has 
somehow created a sort of symbiotic relationship. If it is 
elevated at a university level as an important discipline, I 
think that in itself creates its own attractiveness to people, 
who then insist--we are going to work on all sides of this--
giving the status to people who work in this particular area I 
think contributes as a piece of convincing others that there is 
a value that should be reflected in what people are paid.
    Ms. Thornburg. In many universities including my own, there 
are very few faculty members training early childhood teachers, 
so there is a limit on enrollment. So we have a lot of bright 
young people who want to go into early childhood and child 
development programs, and there are not enough slots for them 
to be trained. So as Helen mentioned earlier, we know how to do 
it, but it is going to take a little while to get there. So 
that is just one issue at the university level.
    We in Missouri, as well as people in most States, are 
looking at articulation, because we have one-year child 
development degrees from high schools and vocational schools; 
we have 2-year associate degrees, and then 4-year and graduate 
degrees. We at the State level have to get better at figuring 
out how to articulate--a few States have done it, and as I 
mentioned, other States are working on it--because we have to 
value and cherish the training--any training--that all of these 
teachers need. So we need to be better in articulation 
agreements for the teachers.
    Senator Dodd. That could be an interesting subject matter. 
Again, we talked about the FOCUS bill, and I appreciate your 
kind comments about it. We are going to incorporate it, 
obviously, since I am writing the larger bill--we are going to 
get it in there. Senator Reed also has a separate piece of 
legislation in this area on reimbursement rates, and we will 
incorporate his ideas as well as we move forward. I think that 
is a very important piece, and we need to focus more attention 
on how we can increase the status of that particular issue.
    Mr. Hardmon, your testimony almost made it sound like the 
rate that is established here--and by the way, it is around 
$10,000 for child care in the District of Columbia, is that not 
right; it is one of the highest in the country.
    Mr. Hardmon. Right. For the infant and toddler population, 
that is pretty close to being accurate.
    Senator Dodd. It is pretty close to $10,000, which is I 
think among the highest in the country, but it is very, very 
high. But you made it sound like the rate is more about what 
parents can generally afford, not what it actually costs to run 
a quality program. I wonder if you could talk a little more 
about that.
    Mr. Hardmon. Yes. The actual issue for us in terms of the 
reimbursement rate really goes back to what Helen Blank said 
earlier about looking at the fact that the rates have not kept 
pace with inflation or cost-of-living. So when you are a 
provider trying to provide quality service to children and 
families, trying to retain your staff and do things on a 
consistent basis and keep people, that is where the difficulty 
comes. With many States and the District having a tiered rate 
system, the base is so low that in order to move forward on the 
tier, you need more at even the base rate. So that is where the 
challenge really comes in.
    Senator Dodd. Yes. That is the point that I think you were 
making, and it is an important distinction to make.
    You said something else that is really important, and it 
goes back to what we have been talking about a bit today, and 
that is the early learning and school readiness issues. You 
said that when we talk about children under 5, we are talking 
about school readiness,not pushing school down to younger ages. 
I think that is a very important point.
    I now have a 6-month-old daughter, and people have been 
teasing me, wondering if I have already gone to talk to Harvard 
about a possible college education for her, and how you have 
got to begin so early talking about schools now. And obviously, 
we are going to start shopping at some point for early 
education and so forth; it is critical. You have got to start 
early looking around.
    But I was also looking at my daughter's face the other day 
thinking, she is 6 months old, and I am already talking about 
going to school. If we were in the position where I could spend 
more time with her--I want that parent-child time and so 
forth--and I do not want to rush her into a highly disciplined 
environment and not give her a chance to be a child. Maybe I 
was mis-hearing what you were saying in terms of not pushing 
school down to younger ages, but I think it is an interesting 
point, and I was wondering if you might further expound on it.
    Mr. Hardmon. I think the key to this whole thing is the 
fact that there needs to be a holistic approach, and that is 
what I really wanted to convey to the committee. We cannot 
just, as was said earlier, only think about literacy and 
reading. We have to look at the fact that especially children 
from low-income families have issues around health care, as you 
mentioned, nutrition, and other things--we have not even talked 
about transportation, and housing was mentioned earlier.
    So in order to be an effective child care provider and 
provide these services in a comprehensive way, we must look at 
what families need over and beyond just segmenting this issue 
just to deal with book-learning or reading. I did not mean to 
make it sound like it is not important, but we see parents who 
come to us with a sixth grade education and in many cases have 
no GED, so we are in a situation where we are having to support 
them in order for them to be better parents and to be their 
child's first teacher, as we have talked about here, which is a 
circumstance that you may not see as prevalent in the middle 
and upper-income communities. But parents do need the support 
in order to really make this whole thing work.
    Senator Dodd. I just realized that I probably said 
something--I have a sister who is an early childhood 
development specialist, and if she watches this, I suspect the 
phone is going to ring. She and a woman by the name of Nancy 
Rambush--for those of you who really follow early childhood 
issues, my sister was a Montessori teacher back in the mid-
1950's when she started out coming out of college at the Whitby 
School in Greenwich, CT where a lot of this was revived--and 
her point to me over the years, as someone who has now spent 
about 30 years in early childhood development is--and she tells 
me this all the time--children do not play; children work--that 
we see it as play, but they are working. Their ability to 
absorb and learn is boundless, and to the extent you can 
channel this to some degree where you allow children to enjoy 
their childhood, but in a constructive enough way that they are 
also learning, is the key to a lot of this. Just so I do not 
get that phone call, I have corrected myself about the 
importance of understanding what children are actually doing 
when we see them ``playing''; they are actually engaged in very 
serious work, and that is critically important.
    Again, I have a dozen more questions I could ask all of 
you, but I think what I will do is submit some of them to you 
in writing.
    Finally, I want to go back to the numbers that I put up 
here when we started the hearing, because it makes the case 
again. We are going to be entering more difficult times now. We 
have budget deficits that we are going to be running this year 
nationally, somewhere in the neighborhood of between $80 and 
$120 billion plus, depending upon which numbers you accept at 
this juncture; but certainly, as the President has pointed out, 
there will be no year during his term of Presidency over the 
next 3 years in which we will be operating in a surplus. So the 
days when we could talk about having additional resources are 
behind us for a while, tragically, yet we also know, if there 
is any doubt in people's minds about the need out there, about 
people who still believe in a waiting list--you just need to 
look at some of these. As I said, some States do not even keep 
waiting lists anymore, because it just does not make any sense. 
But if you start looking at places like Alabama, which is not a 
huge State, with 5,000 people on the waiting list; Alaska, a 
smaller number; Arkansas, 8,000; California, 280,000; the 
District of Columbia, 91,000; North Carolina, 25,000; Texas, 
36,000--you get some sense of the size and the magnitude of 
this issue. And we are not going to solve it all in next year's 
appropriation or tax bill, but if we can get people on the 
track to really match the rhetoric with the actions and put us 
on a glide-path that does prioritize these issues, not just in 
the speeches we give but in the actions we take here--no one is 
expecting to solve the problem overnight, but this problem is 
not becoming less of one, it is becoming more of one. The 
number of 78 percent of women with children under the age of 6 
in the work force--that number is not less than it was a year 
before--it is more. And when you get to the point where 50 
percent of women with infants are in the work force, that is a 
not a lower number--that is a growing number.
    And obviously, with welfare reform issues and the numbers 
that have been highlighted about greater work requirements in 
this year's bill and flat-lining--at best, flat-lining--what we 
are talking about--and I know, by the way, that some think 
about raiding this fund, just so you will know. I will put you 
on notice that there are those who are going to go after the 
Child Care and Development Block Grant money for some other 
issues, and I know what they are thinking about. It is hard 
enough to try to get some increases here, but for those who 
think they are going to go after these funds in order to apply 
them in some other place, they have a battle on their hands on 
this. It is hard enough to reach the level of supporting 2 
million children with so many going without their needs being 
met that I am hopeful we can convince people here that, as 
important as some of these other issues are that people raise, 
if you do not have an available, affordable, and quality child 
care program in the country, all of the other issues that we 
associate with in terms of ready-to-learn and literacy are soon 
going to go wanting.
    So I thank all of our witnesses today for their very, very 
supportive and helpful testimony. I thank my colleagues on a 
Friday for making themselves as available as they were. I thank 
our staffs for putting together the hearing this morning. We 
will have another hearing on this issue on Tuesday. We will be 
talking about it at the budget resolution when it comes up. We 
will be talking to appropriators about this. We will be talking 
with the tax-writing committees who have already spoken 
eloquently on this subject matter.
    So while there is a lot of work to be done, I am more 
heartened this year in many ways by what I am hearing from my 
colleagues, Republicans and Democrats alike, on this issue than 
I have ever been before. So I am more optimistic in many ways 
that we are building a bipartisan coalition to address these 
issues.
    This is truly, as you said, Mr. Hardmon, in your closing 
comments, about the defense of the country, too. America's 
strength is going to be measured by many factors, not only our 
ability to defeat an enemy militarily, but also to defeat the 
enemies of poverty and ignorance, which can also really 
threaten a great Nation. And we are determined to see to it 
that we are as strong in our ability to defeat those enemies as 
we are others.
    I thank all of you for coming. This committee stands 
adjourned.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

                   Prepared Statement of Helen Blank
    I am Helen Blank, Director of Child Care and Development at the 
Children's Defense Fund. The Children's Defense Fund welcomes the 
opportunity to testify today on child care and looks forward to working 
with the Committee to improve families' access to quality child care. 
CDF is a privately funded public charity dedicated to providing a 
strong and effective voice for America's children, especially poor and 
minority children. We are deeply grateful for Senator Dodd's strong and 
lasting commitment to ensuring that families get the child care help 
they need to work and children need to learn, including his sponsorship 
of the Act to Leave No Child Behind (H.R. 1990/s. 940) and Senator 
Kennedy's deep interest and support for early learning. In addition, we 
are appreciative of the members of this Committee who have provided 
leadership in the area of child care and early childhood.
    Child care is an issue central to the daily lives of working 
parents and their children. Every day, American parents go to work to 
support their families and must trust their children to the care of 
others. An estimated 13 million children younger than age six are 
regularly in child care and millions of school-age children are in 
after-school activities while their parents work. Every working parent 
wants to be sure that his or her children are nurtured and safe.
    Child care matters not just for parents but also for their 
children. Quality child care is also critical to help children enter 
school ready to succeed. The nation cannot proceed successfully on its 
track towards improving educational outcomes unless it focuses on the 
developmental needs of young children. Research is clear about the 
importance of the first three years of life to brain development. The 
process of learning to read begins well before a child enters 
elementary school. Early childhood experiences that include exposure to 
language-rich environments are building blocks for school success.
    Studies also show that when child care is available, and when 
families can get help paying for care, they are more likely to work. 
Without help, they may not be able to become and stay employed and may 
end up turning to welfare.
    In a survey of Minnesota families with children, one out of five 
said that child care problems had interfered with getting or keep a job 
in the previous year.
    In a study of families who were potential recipients of child care 
assistance in Illinois, nearly half said that the cost of child care 
had negatively impacted their opportunities for employment.
    The number of low-income parents entering the workforce has risen 
significantly since the enactment of the welfare law. Among families 
receiving welfare cash assistance, the proportion participating in paid 
employment or work activities grew from 11 percent in 1996 to 33 
percent in 1999. Overall, employment among low-income single mothers 
with young children grew from 44 percent in 1996 to 55 percent in 1999. 
These employment gains can only be sustained if families have access to 
dependable child care. This means help with child care costs, which can 
be a staggering burden for these working parents and consume a large 
portion of their paycheck. Child care costs can easily average $4,000 
to $10,000 a year--more than the cost of college tuition at a public 
university. Yet, 77 percent of higher education costs are covered by 
public and private dollars while 23 percent are bome by parents. In 
contrast parents pay the bulk of child care costs. Spending by parents 
account for 60 percent of the cost, compared to 39 percent for 
government and just 1 percent for businesses.
    The welfare law created a new urgency to meet families' need for 
child care help while offering states new opportunities and resources 
to accomplish this task. The number of children and families receiving 
assistance has increased significantly over the past five years as a 
result of significant increases in federal and state funding for child 
care. However, the goal of providing adequate supports for all children 
and families who need them remains far out of reach. Only one out of 
seven children eligible for child care assistance through the Child 
Care and Development Block Grant (CCDBG) program is currently receiving 
it.
    The continuing shortcomings of our child care policies are 
particularly troubling given the extremely favorable conditions for 
states that prevailed until recently--a strong economy, shrinking 
welfare rolls, and growing revenues. Given the current state of the 
economy, families relying on child care assistance face a double-edged 
threat. As the economic downturn affects more families, their budgets 
will be squeezed even tighter while their need for help with their 
child care bills will intensify. States will require additional 
resources to meet this demand, but they may be less able to depend on 
the Temporary Assistance to Needy Families (TANF) block grant as one of 
their major sources of child care funds. States will likely need to use 
an increasing proportion of their TANF funds for cash assistance, 
leaving fewer resources available to help families with child care 
costs just at the point when the need for assistance may be growing.
    Just as states are attempting to maintain a precarious balance in a 
faltering economy, low-income families are also trying to sustain their 
own fragile balance. Low income working families are often one 
unreliable child care arrangement away from welfare. These families 
balance competing basic needs with very limited resources. If our 
country is serious about promoting work, then it must address their 
real needs, which includes the need for stable child care. Unstable 
child care arrangements that fall through can easily catapult into a 
lost job.
    Already, there are clear indications that the economic downturn is 
negatively impacting state child care assistance programs, and the low-
income families these programs are intended to help. In many states, 
surpluses have rapidly been replaced by deficits--forcing states to cut 
back in many areas, including child care. As of January 2002, 45 states 
and the District of Columbia reported revenues below forecasted levels. 
Nineteen states responded to the economic crisis with cuts to programs 
for low-income families and human services programs, including 10 
states that cut income support or employment support programs such as 
child care and job training. Another eight states made across-the-board 
cuts that will affect every program.
    At the same time, many states are starting to see their TANF 
caseloads grow. In 33 states, TANF caseloads increased between March 
and September 2001, and by the end of the 2001 fiscal year, state TANF 
outlays exceeded the amount of the basic TANF grant by more than $2 
billion, a shortfall that states will have to fill.
    A Fragile Foundation: State Child Care Assistance Policies, a 
recent report by the Children's Defense Fund covering the 50 states and 
the District of Columbia (and which we request be included in the 
hearing record), reveals that inadequate federal and state funding 
prevents millions of children in low-income working families from being 
able to get the help they need. Many hard-working low-income families 
are not even eligible for help due to low state income eligibility 
cutoffs for child care assistance. Many who are eligible cannot get 
it--either because they are put on waiting lists or turned away due to 
inadequate funds, or because no effort has been made to let them know 
they are eligible to get help. Those fortunate enough to actually 
qualify for child care assistance face additional hurdles. In some 
cases, the amount that state will pay for care is so low that parents 
cannot find good quality providers who can afford to serve their 
children, and in other cases parents have to pay so much in parent fees 
or copayments that child care expenses still are a staggering financial 
burden.
    It is essential that additional federal investments be made to help 
address the continuing gaps in child care assistance policies, 
particularly as families grapple with the current economic situation. 
Without sufficient funding, state policymakers will continue to face 
unacceptable tradeoffs between helping families pay for child care and 
ensuring that they can choose good quality care.
    As of March 2000, only four states I allowed families with incomes 
up to the maximum level allowed under federal law (85 percent of state 
median income) to qualify for assistance. In 40 percent of the states, 
a family of three earning $25,000 could not qualify for help.
    Even if a family is eligible for child care help, they may not 
necessarily receive it.
    As of December 2001, more than one-third of the states had waiting 
lists or frozen intake-meaning they turned families away without even 
taking their names because they were unable to serve all eligible 
families who applied.
    Some of these waiting lists were extremely long: 37,000 children in 
Florida, nearly 37,000 children in Texas, 18,000 children in 
Massachusetts, and 12,000 children in Indiana.
    Studies and interviews with parents highlight the challenges that 
families on waiting lists face--many must choose between paying the 
rent and affording care, go into debt, or settle for inadequate care 
because they cannot afford better options:
    In a 1998 survey of parents on the waiting list for child care 
assistance in Santa Clara County, California, over one-third of parents 
reported earning less than $10,000 annually. About 40 percent of the 
families said they had given up on searching for work since they could 
not find affordable care for their children. Forty-two percent of 
families cited shortcomings in the quality of their children's care 
with 47 percent reporting that their child only received individual 
attention sporadically.
    In a 1999 survey of families on the waiting list in Houston, most 
families reported that they spent 25 to 30 percent of their income on 
child care. Nearly one-third of the parents said that they had to put 
off paying other bills in order to pay child care expenses first, and 
17 percent had to do without certain necessities. Nearly two-fifths of 
the families had to work fewer hours or miss work because of 
inconsistent child care.
    Individual stories of these families bring home the consequences of 
not receiving child care assistance. A mother on the waiting list in 
Florida has Krone's disease but no insurance, so money for tests and 
the $200 a month for prescriptions must come from her pocket. Her child 
support is paid erratically, and currently is several months behind. 
She works for an employer who has seen business decline because of the 
economy. This employer lets her live in the upstairs rooms, but if 
something should happen to the business, the family would be homeless. 
Child care costs 50 percent of the mother's salary. She wants her 
daughter to have good quality care that promotes her development, but 
wonders whether she can afford it. She says, ``I have seen my daughter 
Katie's social skills and general knowledge increase dramatically since 
she has been in child care. Without help in paying for child care, 
however, I will have to withdraw her, and go on welfare. I can hardly 
say the word, welfare, but I really would have no choice.''
    The families on waiting lists are mainly low-income families who do 
not receive TANF and are not transitioning from TANF. Only a few states 
have acted to ensure that all eligible families who apply will have 
access to assistance, regardless of whether or not they are receiving 
welfare. Rhode Island has established a legal entitlement to child care 
assistance for all eligible families, and states such as Illinois, 
Oregon, Vermont, and Wisconsin have clearly indicated (through budget 
language, regulations, or public statements) their commitment to 
serving all eligible families who apply. These states are the exception 
rather than the rule.
    Waiting lists tell only part of the story. They do not include 
families. who do not bother applying for assistance because they know 
it is futile to expect to get help. They also fail to include families 
who simply do not know that child care assistance programs exist.
    The waiting lists would be even longer and many additional states 
would have to turn to them if more families know they could get help. 
States report that many eligible families are not sufficiently informed 
about child care assistance. Two-fifths of the states acknowledge that 
eligible families are often unaware that they could receive help paying 
for care. If more families were informed about the availability of 
child care assistance and applied for it, it is highly unlikely the 
demand could be met, even in states that currently have no waiting 
lists. Only four states indicate that they could serve all eligible 
families. Many states report that they could not meet the need without 
a significant increase in funds.
    If a family does manage to qualify for and begin receiving child 
care assistance, the challenges they face hardly end there. Numerous 
obstacles may prevent a family from retaining eligibility for child 
care help. To maintain eligibility for child care help, families must 
verify that they continue to meet the income and other criteria for 
child care assistance on a regular basis. Over two-thirds of the states 
require families to go through a recertification process at least every 
six months. In most cases, families must also notify the state 
immediately following any changes in their job, income, or other 
circumstances. Requiring frequent recertification whether or not there 
have been any changes in the family's situation, and immediate 
notification when there is a change, places a tremendous burden on 
parents who are struggling to balance the demands of work and family.
    Ten states make the process particularly difficult for low-income 
families by requiring in-person recertification in many or all cases, 
rather than allowing families to recertify by mail or phone. This 
creates an unreasonable burden for parents just entering the workforce 
and likely to be employed in low-wage jobs with inflexible schedules. 
They often cannot take time off from work to visit their local child 
care agency without jeopardizing their already fragile connection to 
the workforce.
    If a family is unable to, comply with these requirements and loses 
their assistance, they may be forced to change their child care 
arrangement This not only jeopardizes a parent's job but also disrupts 
a child's relationship with their provider.
    Families that are fortunate enough to receive assistance may still 
find child care unaffordable due to burdensome co-payment policies. All 
States require families receiving assistance to contribute toward the 
cost of care based on a sliding fee scale and many states require 
families at the poverty level or below to pay a fee.
    A number of states charge relatively high fees to families earning 
half the poverty level ($7,075 a year for a family of three in 2000), 
even though there is scarcely room in their budgets for the most 
minimal charge. Thirty-five states required families at this income 
level to pay a fee, as of March 2000. In nine states, a family at this 
income level with one child in care paid fees above 5 percent of 
income.
    Forty-six states required families at the poverty line ($14,150 for 
a family of three in 2000) to pay a fee. In two-fifths of the states, a 
family at this income level was required to pay 5 percent or more of 
their income in fees. Arkansas' fees were I I percent of income for a 
family at the poverty line, and North Dakota's fees were 15 percent of 
income.
    In two-thirds of the states, a family of three earning just $21,225 
a year (150 percent of poverty in 2000) with one child in care was 
required to pay more than 7 percent of their income in fees or was not 
even eligible for help. In comparison, families nationwide at all 
income levels only pay an average of 7 percent of income for care, 
according to Census data. Fees were particularly high in some states. 
In Oregon, a family at this income level paid 16 percent of income; in 
Nevada, they paid 17 percent; and in South Dakota, 19 percent.
    Another important component of a state's child care assistance 
policies are reimbursement rates for providers. Adequate reimbursement 
rates can ensure that parents have a real choice of providers. They 
make it possible for providers to accept children receiving child care 
subsidies and have the resources needed to support quality care. Nearly 
half of the states fail to give families a real choice of care. They 
set their rates below the 75th percentile of the market rate-the rate 
that gives families access to 75 percent of their community's 
providers--or base them on outdated market rate surveys. Rates are 
extremely low in some states. Missouri set its reimbursement rate below 
the 75th percentile of the 1996 market rate as of March 2000. The 
state's reimbursement rate for a four-year-old in a center was $167 a 
month lower than the 75h percentile of these outdated rates. Several 
other states also set their rates more than $100 a month below market 
prices.
    With such low rates, providers may require parents to make up the 
difference between the state's rate and the provider's--on top of the 
parent's required fee--or may refuse to serve their children 
altogether. Over two-thirds of the states allow providers to ask 
parents to pay the difference between the state's rate and the 
provider's rate. This may make providers more willing to serve families 
receiving subsidies despite the low state rates. Yet, it also places an 
additional demand on low-income families already stretched to their 
limits.
    States' reimbursement rates are deficient in other ways as well, as 
they often fail to reflect market realities. For example, providers 
generally expect private-paying parents to pay in full even if their 
child is absent for a few days, because the provider still has to 
operate their program on those days and pay their staff. The provider 
relies on that expected income and cannot just temporarily fill the 
slot with another child. While most states reimburse providers for some 
absent days, all but seven place some limits on the number of absent 
days per month or per year they will reimburse providers.
    A number of states offer higher reimbursement rates to cover more 
expensive care, such as special needs or higher quality care, or to. 
give providers an incentive to offer care that is in short supply, such 
as odd-hour care (care during evenings, nights, or weekends). While 
differential rates are extremely important for encouraging providers to 
offer the high quality care that is essential for children's successful 
development and the specialized care that many children and families 
need, they are no substitute for adequate base rates.
    In many states, the differential is relatively small and not enough 
to compensate for low state reimbursement rates. As a result, total 
rates, even with the differential, fall below market rates. For 
example, as of March 2000, New Jersey's reimbursement rate for 
accredited center-based care for a four-year-old was $504 a month, 
which was only slightly higher than the standard rate for non-
accredited care and still lower than the 75th percentile of 1997 rates 
($585 a month). Only the combined strategies of sufficient base rates 
and significant differential rates can produce an effective 
reimbursement rate structure.
    Clearly, there are numerous gaps in state child care assistance 
policies. These gaps are growing wider in a number of states. For 
example:
    In 2001, Louisiana lowered its eligibility cutoff from 75 percent 
of state median income ($31,151 for a family of three) to 60 percent 
($24,921).
    Also in 2001, New Mexico lowered eligibility for families not 
receiving TANF from 200 percent of the federal poverty level ($29,260 
for a family of three) to 100 percent ($14,630).
    West Virginia plans to reduce its income cutoff for child care 
assistance from 200 percent of poverty ($29,260 for a family of three) 
to 150 percent ($21,945) in 2002 as well as eliminate a planned rate 
bonus for infant care and odd-hour care.
    The impact of inadequate investments on the number of families who 
can receive child care assistance is illustrated by the situation in 
Texas, which already has a long waiting list. In 2001, the state failed 
to provide a sufficient funding increase to maintain even the current 
level of support for low-income working families. In order to meet 
strict welfare work requirements, the state will devote a larger 
proportion of its funds to serving families trying to move from welfare 
to work, which will cut back help for low-income families working to 
stay off welfare. Approximately 6,000 fewer children in low-income 
(non-welfare) families are expected to receive child care assistance in 
2003, as compared to 2001.
    The initial signals from governors' budget proposals and 
legislatures' early actions in 2002 indicate that the outlook for child 
care and early education investments, and the children and families 
affected by them, continues to be bleak. While in California the 
governor's proposed budget for FY 2003 includes a small (4.9 percent) 
increase in child care funds, it also proposes substantial changes 
that, if enacted, will make it more difficult for low-income families 
to get help and lower the quality of child care available to their 
children. First, the budget proposes lowering the income eligibility 
limit for child care assistance so fewer families will be able to get 
help. The proposal would lower eligibility from 75 percent of state 
median income ($35,100 for a family of three) to between 60 ($28,080) 
and 66 percent ($30,888), depending on where the family lives.
    Parent fees would increase for families at all income levels, and 
families with the lowest incomes would be required to pay a fee for 
child care, putting an additional financial burden on those with 
extremely limited resources. In addition, the budget proposes lowering 
reimbursement rates for providers, which would give providers a 
significant pay cut and wipe out their ability to make investments in 
quality. Parents who choose to stay with providers with higher rates 
would be responsible for making up the difference-forcing them to 
further stretch their already limited incomes.
    In Illinois, the governor has proposed $63 million in cuts that 
will directly affect child care in the state. The governor's proposals 
would restrict income eligibility for child care assistance, denying 
help to many low-income families. For parents able to receive 
assistance, co-payments would increase-by as much as 20 percent for 
some families.
    In Washington, the legislature has already enacted changes this 
year that will reduce the income eligibility cut off for child care 
assistance from 225 percent of the federal poverty level ($32,918 for a 
family of three) to 200 percent ($29,260). This will affect about 5 
percent of all families currently receiving help paying for child care. 
In addition, parents' co-payments will increase by $5 per month.
    Gaps exist not only in state child, care subsidy programs, but also 
in state efforts to help ensure that good quality care is available for 
all families. There has been a growing focus on improving K-12 
education. and on early literacy. These issues cannot be fully 
addressed, however, without first ensuring that all children who need 
it have access to affordable, high quality child care and early 
education. Children's early experiences have a profound impact.on their 
ability to learn and succeed when they reach school, and for many 
children, a substantial proportion of these early experiences are in a 
child care setting.
    Currently, many children are not receiving the experiences they 
need to prepare for school. Forty-six percent of kindergarten teachers 
report that half of their class or more have specific problems when 
entering kindergarten, including difficulty following directions, lack 
of academic skills, problems in their situations at home, and/or 
difficulty working independently.
    Low-income children are particularly at risk. For example, a North 
Carolina study found that 38 percent of low-income kindergartners in 
North Carolina had very low scores in language skills, while only 6 
percent of their higher-income peers scored this low; in measures of 
early math skills, 37 percent of low-income kindergartners scored very 
poorly compared with 9 percent of higher-income children.
    In order to ensure that children receive a strong start, they must 
be supported by well-qualified and well-compensated child care 
teachers. Yet it is nearly impossible to attract and retain providers 
when their average salary is Just $16,350 a year with few benefits. Low 
wages result in extremely high turnover rates--nearly one-third of 
providers leave their programs each year--which deprives children of 
the opportunity to form close, stable relationships with their 
teachers. A number of states have begun to address this issue with 
promising initiatives that offer wage incentives to teachers who 
receive training, or have already receiving higher credentials, and who 
commit to staying with their program for a certain period of time. Yet 
these efforts, which are dependent on CCDBG and TANF funds, reach only 
a small fraction of child care providers, and typically offer only a 
small salary supplement.
    The large majority of states do not even have basic requirements to 
ensure a minimal level of quality. While cosmetologists must attend as 
much as 2,000 hours of training before they can get a license, 30 
states allow teachers in child care centers to begin working with 
children before receiving any training in early childhood development. 
Although early childhood educators recommend that a single caregiver be 
responsible for no more than three or four infants, four or five 
toddlers, or 10 preschoolage children, only 10 states require that 
child care centers have child-staff ratios that meet these levels.
    States definitely need more resources devoted to improving the 
quality of child care. They are currently required to spend a minimum 
of 4 percent of their CCDBG funds on quality efforts. They have used 
these funds for vital supports and creative initiatives, ranging from 
hiring more inspectors to ensure facilities are safe, to housing infant 
and toddler, health, and early literacy specialists in resource and 
referral programs to work with their communities' child care providers. 
However, a 4 percent set-aside is not nearly enough considering the 
numerous components that need to be in place for children to receive 
the quality of care they need, including well-trained and well 
compensated staff, low child-staff ratios, safe, roomy facilities 
designed to meet the needs of young children, basic equipment such as 
books and toys, regular monitoring and inspection of providers, and 
resource and referral programs to help families find care and support 
providers.
    It is essential that the Child Care and Development Block Grant be 
strengthened so that it provides the help families and children need. 
Other programs cannot be expected to compensate for the continuing 
shortcomings in states' child care assistance policies and basic gaps 
in quality. Over the past several years, federal and state investments 
in prekindergarten and after-school initiatives have expanded. Yet, 
access to these programs remains limited, particularly among low-income 
children. Head Start reaches only three out of five eligible preschool-
age children, and less than 5 percent of eligible infants and toddlers. 
Nationwide only 44 percent of children ages three to five and not yet 
in kindergarten who are in families with incomes below $15,000 a year 
are participating in public or private prekindergarten programs, 
compared with 71 percent of children in families with incomes of 
$75,000 or more. Georgia provides prekindergarten to all four-year-olds 
whose families want them to participate, but Oklahoma is the only other 
state that has taken significant steps toward making prekindergarten 
universally available. Most state prekindergarten initiatives serve 
just a fraction of low-income children, and many are limited to four-
year-olds. Prekindergarten programs also often operate on a part-day, 
part-year basis. As a result, low-income working families needing full-
day care are still dependent on the CCDBG for child care assistance.
    Similarly, many school-age children lack opportunities to 
participate in constructive after-school activities. Nearly seven 
million school-age children are home alone each week. In 2001, only 11 
percent of the requests for funding through the U.S. Department of 
Education's 21st Century Community Learning Centers after-school 
program could be filled.
    Additional investments in child care will help more low-income 
parents afford good care that enables them to work and that helps their 
children grow and learn. CCDBG funding should be increased so that by 
the end of five years, families of at least an additional two million 
children can receive help paying for care. Funding targeted toward 
improving the quality of care child should also be expanded, with 
special attention to the needs of infants and toddlers. Provisions 
should also help providers have access to additional education and 
training and in creased compensation. Funding should be available to 
ensure that children are in high quality care. We should not miss an 
opportunity this year with reauthorization to expand investments in a 
program so crucial to the success of children and families and to truly 
ensure that no child is left behind.
                 Prepared Statement of Elaine Zimmerman
    Mr. Chairman and Members of the Committee: My name is Elaine 
Zimmerman. I am the Executive Director of the Connecticut Commission on 
Children, housed in the Connecticut Legislature. The Commission is non-
partisan and staffs all three branches of government on children's 
policy and trends in Connecticut.
    I join you this morning to share brief comments on the importance 
of early care and education. There is truly nothing more important to 
the economy and our future than to help children thrive and parents 
work. When both are occurring smoothly, the youngest generation is 
usually healthy, safe and learning and the adults are, in the majority, 
providing the work participation our nation demands for economic 
growth.
    It is hard to believe that lack of child care, a modest line item 
compared to other costs and a clear and research-based policy, can 
frequently be the crack in the plan. Yet fissures in our nation's child 
care access and sustainability can impede early learning, timely health 
interventions and employment opportunity for parents ready to work.
    Lack of quality early care for families is like a loose log on the 
trail--it can trip up what is just basic foothold to us--health, 
curiosity, a place of safety, readiness for school and unexpectedly, 
equity. Yes, the lack of access to quality early care widens the 
achievement gap for those who are poor and minority before they open 
the kindergarten door of the schoolhouse.
                       stopping social promotion
    Connecticut supports Congress in the new education law, which has 
insisted on research-based practice and accountability in learning so 
that every child learns. We have in our state ensconced standards 
teacher training and outcome based planning. Concurrent with this, we 
are trying to end social promotion.
    In our efforts to stop falsely passing children forward, we must 
look at what we need to do at the front end to help children succeed. 
We have learned that a key variable in the puzzle to allow children to 
move forward and not be held back in kindergarten, first or second 
grade is quality early care and education.
                          bridgeport findings
    Findings in one of our poorest cities show steady gains from 
quality childcare. Bridgeport followed children who had quality early 
care and education programming against those that did not. Children who 
had quality early care had fewer retentions, more frequent attendance, 
and higher reading scores throughout grades K-2. In the first grade, 47 
percent of students (45 out of 96 students) who did not have quality 
early care and education were retained, compared with only 1 percent of 
students (1 out of 88 students) who had quality early care and 
education.
    Those children in the Bridgeport study who had quality early care 
and education had stronger reading scores than the other children. 
First-graders who had quality early care and education averaged a score 
of 11.68 on the Developmental Reading Assessment (DRA), and all of 
those students exceeded the ``substantially deficient'' level of 10. In 
contrast, those children who did not have quality early care and 
education averaged just 6.84 on the DRA.
    Early care and education saved significant tax dollars in decreased 
retention. In the Bridgeport study, retentions in K-2 cost 5.5 times 
more for those children who did not have quality early care and 
education ($622,644) than for those who did ($113,208).
    Only one child with quality early care and educator programming was 
held back. The costs of the program were much less than the costs of 
retention, which was over $10,000 a child. And these costs are just the 
literal costs per year. They do not measure costs to self-esteem, 
expectation of self as student, and eagerness to learn.
    Social promotion cannot be stopped strictly through formal 
accountability in education policy. It needs also to have a precursor 
in early care and education. Early care and education is the missing 
piece to stopping social promotion.
    CCDBG dollars that did this. Connecticut's preschool dollars are 
paid for by a co-location of funds from CCDBG and education funds.
                      the achievement gap in race
    In the recently signed ESEA, reauthorization bill, the key goals 
include narrowing the achievement gap between those who are successful 
and those who are not, particularly minority students and poor 
students.
    Although Connecticut is among the top-performing states in U.S. 
Department of Education exams, black and Hispanic children trail white 
children by large margins.
    Only 25 percent of black and Hispanic children reached the state's 
fourth-grade reading goal, compared with over 70 percent of white 
students, according to Connecticut Mastery Test scores released on 
March 6, 2002. In the state's seven poorest school systems, one of 
every three eighth-graders was identified as a poor reader, compared 
with one of every 15 in the rest of the state.
    Students from low-income families fared far worse in writing and 
mathematics than children fourth-graders living in poverty met the 
state from higher-income, families. Only 37 percent of fourth-graders 
living in poverty met the state goal in writing; more than two-thirds 
(70 percent) of those above the poverty line met the goal. A majority 
(61 percent) of sixth-graders overall met the state goal in 
mathematics, compared with only one-third (33 percent) of low-income 
children.
    Endeavoring to address the minority achievement gap, we discovered 
that two years of quality early care programming for three and four-
year-olds blocked the early differential. In fact, minority children 
did as well as low-income white children. In new data from a study 
conducted in Middletown, Connecticut, the availability of a school 
readiness program accounted for an over threefold reduction in the 
number of low-income African American children ``not ready'' for 
school--from 12.9 percent (of those who did not attend) to 4.0 percent 
(of those who did attend). Among white children in general, 3.03 
percent were unprepared for school.
    In the Middletown study, low-income African American children who 
attended a school readiness program attained an average school 
readiness score (55.63) that was comparable to white children in 
general (57.59) and surpassed both white low-income children (51.16) 
and those low-income African American children who did not attend a 
school readiness program (48.37).
    Additionally, this Middletown study found that children--across 
racial and economic lines who attended two years of quality early care 
and education were significantly better prepared for kindergarten than 
those who attended only one year. The findings of the study, conducted 
by Walter Gilliam of Yale University, are consistent with an earlier 
Yale analysis by Edward Zigler and Walter Gilliam of all state-funded 
school readiness programs in the nation.
    This nationwide analysis found that pre-K programs had a 
significant impact in increased competence, reduction in behavior 
problems by 4th grade, improved attendance and grades in elementary 
school, and improved state achievement scores. In addition, every state 
that looked at the impact of their program on grade retention found a 
significant impact.
    These results provide strong evidence that quality early care and 
education programs can help to close the educational gap at 
kindergarten entry between white and low-income African American 
children. It is CCDBG dollars that finance this in Connecticut.
 a new divide among children--those with and without quality early care
    The former CEO of our most successful bank in Connecticut spoke to 
the state legislature last week. He was struck by the findings I just 
presented to you and suggested to legislative leadership that we might 
need two-kindergarten classes--one for children who have had quality 
early care and one for children that have not.
    In his travels, he is hearing from kindergarten teachers about the 
divide they already see in skills between the children who have had a 
few years of quality early care and education and the children, 
particularly those from low-income areas, who have had nothing.
    We saw the same problems when we met with kindergarten teachers to 
learn their views of early care and education. After all, the 
kindergarten teacher is the tollbooth between early learning and formal 
education. They informed us methodically that children are manifesting 
less ability to focus, more behavioral health problems, more aggression 
and less fine motor skills which they attribute to more passive 
activity like television rather than scissors and paper cutting or 
drawing or writing.
                          literacy and reading
    An outside reading consultant came to one of our larger cities to 
meet with fifth grade teachers. They had called her in, because they 
were about to con-duct a state required education mastery test and they 
were worried.
    What were they worried about? The children in the fifth grade could 
not read well enough to pass these tests. In fact, the children were 
being taught the entire fifth grade curriculum orally. They brought 
this reading consultant in from out of state because they were ashamed 
and worried. It never occurred to them that as fifth grade teachers 
they would need to concern themselves with reading fundamentals.
    Can you imagine designing a curriculum as if you were in a country 
that did not have print? This is Connecticut, with the best education 
in the nation. Yet often our poor children and children of color are in 
a different story.
                    a state plan to improve reading
    Connecticut created a Reading Panel to look at the skills and 
knowledge that teachers need to teach reading effectively. We brought 
in the best in the country, including many who are now working in 
Washington under President Bush.
    We have implemented teacher training in how children learn to read, 
and we have reading plans in virtually every school. But what is also 
clear is that you cannot reach this without preliteracy and oral 
language development. It is like learning to run or skip before 
learning to walk.
                       oral language development
    Oral language development and preliteracy are the bridge and, 
precursors to language skills development in kindergarten and first 
grade.
    Before entering formal education children should: Have more than 
1000 hours of experiences with books, alphabet games, storybook reading 
and activities. Enjoy books and language and see the purpose of reading 
have been included in conversation and treated as successful speakers 
and listeners. Have engaged in playtime that employs symbols (acting 
out roles, designing stories and in using props. Be exposed to print 
and writing in their daily life. Understand how to handle books and 
know that print moves left to right. Have been read to by an adult who 
supports the child's view and creativity during the reading aloud.
                preliteracy in early care and education
    Young children in early care and education benefit significantly 
from:
    Being read to aloud and being asked to be active participants in 
the reading. Understanding that print carries a message. Engaging in 
reading and writing attempts. Identifying labels and signs in their 
environment. Understanding that there is a connection between letters 
and sounds. Linguistic awareness games, nursery rhymes and rhythmic 
activity (Phonemic awareness, a powerful predictor of later reading 
success, is found in traditional rhyming, skipping and word games). 
Letter sound matches and some letter identification. Temporary invented 
spelling to represent written language.
    Early care and education teachers can: Share books with children, 
including Big Books and model reading behaviors. Talk about letters by 
name and sounds. Establish a literacy-rich environment. Re-read 
favorite stories. Engage children in language games. Promote literacy-
related play activities. Encourage children to experiment with writing.
    Without the quality environments in child care where teachers are 
reading to children, helping them hold and cherish books, the divide 
between those who have and those that do not, increases.
    Also, parents are key to ensure love of language and curiosity in 
daily life. Parent and family members can: Read and re-read stories 
with predicable text to children. Encourage children to recount 
experiences and describe ideas and art that are important to them. 
Visit the library. Talk with children and engage them in conversation, 
give them the names of things. Provide opportunities for children to 
draw and print, using marker's crayons and pencils.
    This happens at home for many--but it does not happen at home 
enough for those children whose parents cannot read, who do not have 
books or who do not know to tap on words, pointing the fingers at 
letters, repeat rhymes, sing songs that rhyme. This is the work of both 
family and trained child care and early education workers.
  connecticut's commitment to oral language development in early care
    Clearly teaching reading does not begin in kindergarten. There are 
numerous activities that child care providers and early educators can 
perform in preschool settings to help children in preliteracy skills 
development.
    Connecticut is now training all of our school readiness child care 
sites in oral language and preliteracy. For programs to receive quality 
early care and education dollars they must have a plan for oral 
language training. This comes from a combination of education dollars 
and CCDBG dollars. We cannot do it without CCDBG dollars.
    Some states are now planning their prison construction, based on 
third grade reading levels. This shows with certainty that a third 
grader is not going to succeed in school if he cannot read is already 
hammered in. The kid's cell could be designed like a pair of jeans.
    The choice is ours--but it is not just an elementary school choice, 
which you have so stunningly passed in spite of budget constraints and 
the disastrous backdrop of terrorism. The missing shoe is quality early 
care and education. If we want to break the achievement gap in learning 
and literacy we need to narrow the lack of skills at an earlier age.
                            family literacy
    ``Babies whose mothers provided them with opportunities to observe, 
imitate and learn, performed higher on IQ tests at age four than 
children who were exposed to the same teachings starting at age one. 
(Tamis LeMonde and M.H. Bornstien 1987)
    There is a high correlation between the literacy level of the 
mother and the literacy level of the child. Yet we know that the 
literacy levels of moms coming off of TANF are very low.
    Many TANF recipients are getting jobs and then being laid off, 
because they can read at a third grade level, but they cannot read 
manuals. So they get a job with the post office and then they are 
fired; they get a great job with U.P.S. and then they axe laid off. We 
are losing workers constantly due to adult literacy gaps.
    Our state is going to assess literacy levels of the moms before 
placing them in work. We see how many low-income adults are losing jobs 
after TANF Not because they have emotional problems; they were never 
taught to read beyond third grade level.
    Their children will also have a literacy gap, if we do not 
intervene. The key indicator of a child's literacy level is the 
mother's literacy level. Where does the intervention begin in language 
development to remedy this profound lack in language development? In 
early care and education.
              behavioral health and aggression in children
    ``Violence is learned so it can be unlearned or conditions can be 
changed so it ?not learned in the first place. It is never too late to 
change the behavior, but it is much more difficult to do it later 
rather than earlier--Dr. Ron Slaby, Harvard University.
    Early aggressive behavior, which is learned through imitation and 
direct experience, is the top predictor of later aggression. 
Increasingly children are showing sips of behavioral health problems in 
the very young years. In fact, in our state, we have facts that read 
more like a Robin Williams routine than a social policy. In 1998-1999, 
Connecticut schools suspended or expelled 1,914 children in 
kindergarten and first grade (458 in kindergarten; 1,456 in first 
grade). When you study the causal factors for these suspensions and 
expulsions, the majority are expelled for problems with behavior.
    The last decade of research on the prevention of violence led to an 
understanding that violence prevention needs to start early and that, 
acting as early as possible, in the first five years, is recommended 
for successful intervention. It is in the under five years that a child 
develops mental health problems and where the severe behavioral 
underpinnings can be anchored to implode later. Yet, impoverished 
children are less likely to receive care for a behavioral problem 
because they receive irregular and poorer quality health care.
    If we want zero tolerance in school, we need to reach the children 
sooner to assess, intervene, and refer children with behavioral health 
difficulties. This is cost effective, as when the behavioral disorder 
shows up in the classroom, the entire learning process is diminished 
and the child is often not given mental health intervention but some 
form of behavioral misconduct reporting which can imprint teacher bias 
towards the child.
                 quality care returns the dollars spent
    When we invest in the early years, we save in out-placement, 
special education and in mental health interventions later, which are 
prohibitive in cost.
    In Bridgeport alone, the children who were in quality care ended up 
not staying back in school. The cost of retention is $9,000 and up to 
$10,000 when you add on the ancillary costs. The cost of child care is 
significantly less, between $5000-7500. Put starkly, we can keep 
children back later and pay more or we can provide quality early care 
and education and see children achieve with dignity.
    Eighty percent of the learning disabled children in special 
education simply did not learn to read. Of our special education 
population, about 45% are learning disabled. This costs our state about 
$397,526,000 or roughly $12,951 per learning disabled student. The 
costs of special education are killing our towns and schools. Pre-
literacy skills and oral language development begins with well-trained 
providers in early care and education.
    The costs of the racial divide in achievement manifests in poor 
school performance, dropouts and low expectations of performance in the 
workforce. The additional cost is a searing despair--Langston Hughes 
said, ``What happens to a dream deferred--does it dry up like a raisin 
in the sun, or does it explode?'' Either way, depression or violence, 
the cost is plenty.
                   changing context, changing values
    There was a time when we did not want to invest in child care 
because we thought that women needed to stay home. Well, perhaps we 
should. But we have just created a welfare reform policy that says that 
poor women need to work and work quickly. If women are working, where 
is the, care for their young?
    We are witnessing moms trading, babies in parking lots like bags of 
celery and potatoes. Other moms are taking, care of eight infants 
illegally to help the neighborhood work. Eight infants with one 
untrained provider is a recipe for illness, poor safety and learning 
failure.
    Child care is like transportation. If you don't have it, you cannot 
get there. Yet, unlike transportation, there is no bus, even if you 
come in late. There is only sometimes a teenager down the street, a 
boyfriend or often the mom just lies and calls in sick.
    This costs the economy. The number of sick days due to lack of 
child care is high. It is simply a white lie that is part of our 
culture because we have not yet admitted that family and work Policy 
must offer care while parents work.
    This costs in safety. I called the Department of Children and 
Families to ascertain where the deaths were of children. At any given 
time, the majority of child deaths are from informal care often some 
unintentional provider who is supposed to be watching the children 
while the mom works. Usually, the boyfriend.
    With cutbacks or level funding of CCDBG dollars, more parents will 
not enter the workforce. They Will stay on welfare longer or leave 
welfare and flounder--because people are rightly not willing to work if 
their children are not safe and protected. This is the heart of the 
matter. Lack of dignity in work choice and safety at home for children 
costs us, unnecessarily.
    Lack of early care is packaged chaos-ready to go off.
              quality care with the best trained teachers
    Early care providers are with children while their learning 
patterns are forming. Unlike the body, which takes 20 years to mature 
to 95% of its full size, the brain develops to 90% of its capacity in 
the first five years. At birth, children's brains have almost all the 
brain cells or neurons, they will ever need. However, these neurons are 
not yet linked into the networks necessary for learning and complex 
functioning.
    Between birth and school age a process of ``sculpting'' occurs: 
some neural connections are made or reinforced and others die away. 
Early childhood experiences shape these connections; helping to 
determine which ones are maintained and which are lost. Early care 
Workers need to know how to teach these young children, not just how to 
clean their diapers. (First Steps-Taking Action Early to Prevent 
Violence).
    Parents want quality care with well-trained providers for these 
critical times in a child's early development. The majority do not seek 
out informal care as a matter of choice. A recent Bridgeport study of 
parents reflects this. Seventy percent of the parents said they would 
choose licensed child care when given the choice. The critical shortage 
of quality care, particularly for infants and toddlers, as well as the 
cost of care pushes many parents to choose unlicensed care because they 
have no real choice. In Bridgeport alone, 2,300 children are being 
cared for in unlicensed, unregulated care.
    The early years are not simply fit for babysitting. They are in 
fact where language begins, where the capacity to care for others 
begins--or does not begin. The facts are uncontested that the 
underpinnings of a child's ego, self esteem, and lifelong learning 
patterns are sewn together before kindergarten.
                  creating a system to train providers
    Connecticut has created a system of training for the field called 
Charts-A-Course. We have designed a method whereby providers get course 
credit for their work. They can accrue these course credits towards 
diplomas in high school, community college, and four-year college. We 
assess every course and determine its worth, sort of like a Betty 
Crocker stamp of approval. We have raised scholarship money for this 
and now see many more providers who come from diverse backgrounds 
coming in for training. In fact, the field has broadened in its race 
and ethnic diversity? due to this programming.
    The state now relies on Charts-A-Course for a host of training 
opportunities. For example, they will provide oral language training 
for the for the child care field. As we position training for homeland 
security, they will host the child care trainings with FEMA. An 
infrastructure, expectation of quality, and insistence on raising the 
water level is methodically working. CCDBG pays for all of this.
    Yet, child care providers are bailing out. It is easier in this day 
to get a job cutting hedges or babysitting dogs to make a decent 
family, wage than child care. In fact, child care workers make less 
money than dog pound attendants. So we believe we should link increased 
dollars to increased training. Raise the water level for the children, 
keep the providers and elevate the field.
    The turnover rate for child care is increasing. Children learn that 
adults are inconsistent in their lives. The child has parents in the 
workforce. Then the second or third adult in the child's life, the 
early care and education providers leave. Then the next early care and 
education provider leaves. The child, from a psychodynamic perspective 
learns not to bond, to trust or to relax into play. Object constancy, 
the internal learning that self is constant, which needs to be in place 
by the age of three, is threatened.
    Constancy of child care providers and excellence in their work 
matters for the child, for the elementary school classroom and for 
savings for the nation. Yet we act as if children only start to learn 
when they open the kindergarten door. Actually, child learning 
patterns, curiosity, values, and moral development are set before they 
open that door.
                        bioterrorism and safety
    When the World Trade Center imploded, the child care providers at 
the child care facility grabbed all the emergency forms. They knew that 
the children might not have parents by the end of the day. They also 
knew there was a chance the parents might lose children. They left 
barefoot and told the children they were going for a walk. They put the 
children in grocery carts and began to walk. They walked and walked 
until they were safe. Then they stopped, pretended that this had always 
been their destination and began to design an intentional play event at 
a location that was safe. Every child was safe. None were lost.
    These child care workers were trained in multi-hazard planning. 
They knew to protect the children. In our new context, we need our 
young to be in places where the providers understand safety, 
evacuation, communications and the psychological interventions 
necessary to calm children and facilitate their not being traumatized. 
Well-trained providers can do this. A babysitter down the street, a 
boyfriend temporarily watching, a child, is less likely to have this 
kind of formal training in protecting our young. It is just one fact of 
early care and education. But it is a new facet.
    In Connecticut, we are going to require all schools and child care 
settings to be trained in multihazard planning. In a bill, modeled 
after original language introduced by Senators Dodd, DeWine and 
Collins, we have added components that ensure that children will not be 
forgotten in homeland security planning. This sort of planning lends 
itself to a greater respect for the formal kinds of care we have for 
our youngest generation.
    We will train every child care provider in multi-hazard planning. 
With the shadow of--bioterrorism, we are working on making sure we can 
access everyone. Where are they? How do we reach them? How do we make 
sure they are immunized? How do we protect them? We will work with the 
child care workers to develop a system of reaching every child in a 
health emergency.
    I can tell you that as a mother now, I am more concerned about the 
whereabouts of my young children after school, and I want to be sure 
that those who are with my children when I am not, understand 
evacuation planning and safety The young need this, as much as the 
public schools. And in both New York and the Pentagon, our children 
were safe in quality child care. This was not by chance. The early care 
and education teachers were trained in child safety.
                   diversity and global connectedness
    Reflecting on September 11, it is clear that we want to sharpen our 
commitment to diversity and global connectedness. We studied the impact 
of difference on children, at what age children learn to notice 
difference and whether integrated settings make any difference on race 
bias for young children.
    Child care and preschool can bring children together from different 
class and race backgrounds. Parents use the care near their worksite, 
are willing to travel for quality and reflect this in their choices.
    A literature summary, performed by Yale University, made it quite 
clear that young children, by the preschool years, begin to think of 
their peers in racial terms. ``Racial attitudes are acquired early and 
become harder to change as the child matures.'' (McConhay, 1981). By 
late preschool, children ``evaluate [others] on the basis of racial-
category membership.'' (Hirschfeld, 1996). The literature also shows 
that early integration may lead to reduced fear, mistrust and violence 
across racial lines. Exposing young children to multiracial peers may 
help reduce the likelihood of later ridicule or fear of other races 
(Hopson & Hopson, 1993), produce positive effects on intergroup 
relations (Slavin, 1995), and help ``transcend some of the structural 
barriers that affect interracial and interethnic contact . . . (Coll & 
Garcia, 1995).
    Simply integrating a classroom is not enough. It is important to 
bring together children of different races and the same economic 
background in order to provide equal-status contact and less likelihood 
of mistrust, fear or violence. (Hopson & Hopson, 1993). Having a large 
enough percentage of each race present in each desegregated school is 
important in order to have equal power and status inside the school. 
(McConhay, 1981). Interaction should be cooperative, involve one-on-one 
situations and receive institutional support. (Devine, in press).
    It is CCDBG dollars that allows this racial integration to happen 
in Connecticut.
                          false policy divide
    We can pay for the lack of quality care later in poor literacy, 
special education, increased divides between the skilled and unskilled, 
poor health care--or we can do it up-front at the beginning. As a 
nation committed to prevention rather that crisis, and particularly now 
with the budget deficit and the need to honor every dollar, early is 
better, younger is better, quality is always better.
                          bold systemic reform
    The question is not should we finance child care but what outcomes 
do we want for children? How can we reach these goals in the early 
years using research-based findings, best practices with proven 
outcomes and the lowest common denominator in dollars?
    I believe the bold strategy here is to invest deeper and to expect 
more-not to invest less and expect it all to begin in kindergarten. 
Perhaps we need a Child Care Accountability Act to raise the overall 
training, expectations in outcomes with explicit requirements and 
stated learning transitions to early elementary school. Let's do what 
you have done for education in the early care and education domain. 
Because early care and education is the porch to the kindergarten door.
    Put in a demand for excellence in health, safety and learning. 
Improve the field. You could demand training, standards, transition to 
school, health care linkages, only research-based practice. But don't 
harvest out the resources when this is where the seed begins to grow.
                 Prepared Statement of Janet Schalansky
    Good morning, Mr. Chairman and members of the Committee. I am Janet 
Schalansky, secretary of the Kansas Department of Social and 
Rehabilitation Services. Thank you for the opportunity to testify on 
the subject of child care, helping parents work, and the wellbeing of 
children.
    Background Since the passage of the Personal Responsibility and 
Work Opportunity Reconciliation Act (PRWORA) in 1996, states' 
investments in child care have exceeded all expectations.We have seen a 
dramatic increase in the number of families and children served as 
evidenced by the unprecedented growth in child care expenditures. 
Between 1996 and 1999, there was an 80 percent increase in the number 
of children receiving a monthly child care subsidy.
    States have programmed every dollar available for child care. The 
child care story is a Child Care and Development Fund (CCDF) and 
Temporary Assistance for Needy Families (TANF) story. Nationally, we 
have doubled spending on child care. In FY 2000, states expended over 
$9 billion in combined federal and state dollars on child care. This 
includes $7 billion from CCDF and TANF dollars transferred, plus $2 
billion in direct TANF spending. States have increased TANF spending on 
child care from $189 million in FY 1997 to $4.3 billion in FY 2000. 
TANF funds spent on child care exceeded the entire federal portion of 
the CCDF allocation in FY 2000.
    Under CCDF, states have met or exceeded the 100 percent 
maintenance-of-effort requirement each year. States have matched all 
available federal funds. While allowed under federal law to spend up to 
5 percent of CCDF on administrative costs, states, on average, spent 
just 2.6 percent on administrative costs in FY 2000. This represents a 
decrease of $3 million in administrative costs from the previous year. 
If TANF caseloads increase due to the current economic downturn, the 
amount of TANF funds available for child care may be reduced. In 
addition, if Congress mandates new welfare reform work rates or hours, 
then federal child care funding must increase as well. We need $4 
billion in addition to the CCDF funding to maintain our current 
investment. If Congress wants states to increase quality and increase 
access, then additional funds will also be needed.
                     the child care story in kansas
    The child care program in the state of Kansas is administered by 
the Kansas Department of Social and Rehabilitation Services. Kansas 
ranks 15th in geographical size as compared to other states. The state 
population of 2,688,418 includes both urban and rural communities. In 
population, Kansas ranks 32nd in the nation--26.5 percent of the 
population is under 18 years of age; 7 percent is under the age of 
five. The median household income is $36,488, which is fairly 
consistent with the national median. In Kansas, 10.9 percent of the 
population and 15.4 percent of the children are living in poverty.
    In federal FY 2002, Kansas received a TANF block grant of $101.9 
million. Kansas has historically spent, and is projected to continue 
spending, the entire amount of the TANF block grant. Of the block 
grant, almost $17.9 million was transferred to CCDF to cover child care 
expenditures. Quality initiatives accounted for 19.8 percent of Kansas' 
total child care budget.
    In Kansas, 15,313 children are served monthly, by child care 
subsidy. Approximately 16 percent of those eligible for subsidy 
payments are served. Child care subsidy payments are available to 
families with incomes below 185 percent of the federal poverty level 
(FPL). Families who receive a subsidy payment, however, may be required 
to contribute a copayment for their child care based on a sliding-fee 
scale. For example, a family of three--a mother and two children--with 
an income at 150 percent of FPL ($1,829 monthly/$21,948 annually), 
would have a total monthly copayment of $177. TANF families and those 
whose children are at risk of abuse and neglect have no fee. Kansas has 
no waiting list at this time. Kansas spends $53,206,577 annually on 
subsidy payments.
    This year, in an attempt to promote both quality and access, child 
care provider rates were adjusted based on state norms. Rates were set 
at the 65th percentile for licensed providers and at the 60th 
percentile for registered providers.
    Approximately $14 million is spent annually on child care quality 
in Kansas. Of that, $7.9 million is for Kansas Early Head Start, which 
serves 825 children and families and has an impact on another 2,000 
children. Kansas was the first state in the nation to devote TANF funds 
to this comprehensive state-funded program.
    Kansas supports flexibility in using CCDF funds. This allows us to 
partner with other agencies and funding sources, focusing on 
initiatives targeted as issues important to Kansas. Each state has its 
own unique issues and needs the flexibility to develop partnerships and 
programs to meet these needs. Several important state collaborations 
have produced the following: After-school programs developed with the 
Kaufman Foundation--for inner-city programs in Kansas City; An 
apprenticeship project designed and implemented with the Department of 
Labor through a federal grant--administered through a community 
college; Kansas Head Start and Early Head Start Programs--which bring 
together year round child care and Head Start services; A statewide 
Resource and Referral network providing core services to all 105 
counties; Initiatives for programs to provide literacy, school 
readiness, teen parenting and fatherhood services for families--through 
Early Head Start centers and community services; and The Midwest Child 
Care Research Consortium, a three-year project to define and evaluate 
child care quality involving Kansas, Nebraska, Iowa, and Missouri.
    Kansas also embraces the emphasis of quality, which CCDF has 
supported. In Kansas we consider quality to combine enhanced services 
delivered by well-trained professionals with the availability and 
access to those services. Our success in this area is demonstrated by:
    Caseload and Rates. We have funded caseload growth (with no waiting 
list) and set eligibility for subsidy at 185 percent of FPL in order to 
serve the working poor and TANF recipients. We have increased rates to 
providers who care for children with special needs, while maintaining 
provider rates that sustain a competitive level with local market rates 
to ensure access for families receiving child care subsidies.
    Professional Development. Our infant/toddler project trains and 
supports child care providers and families by improving the quality and 
supply of infant/toddler care by working directly with infant/toddler 
professionals. These supports include funding professional development 
initiatives to raise quality of care and reduce staff turnover; funding 
TEACH scholarships that enable providers to increase their professional 
knowledge of the best early child hood practices; working with 
community colleges and universities to coordinate early childhood 
curricula and credit requirements; and providing support/information on 
child development to nonregulated/relative care providers by direct 
contact and educational materials.
    Access and Safety. Centers receive funding grants for expansion, 
start-up, and to meet licensing requirements/improving and to improve 
service quality. Grants are also given to family home providers to help 
meet licensing requirements and improve quality of care.
    Public Education and Awareness. We provide education and training 
on early brain development and other research through open workshops in 
collaboration with the Kansas Departments of Education and Health and 
Environment. The state also sponsors a statewide public awareness 
campaign on quality childcare targeted at parents, businesses, and 
providers.
    The Institute for Social and Economic Development recently 
completed a study of TANF leavers in Kansas. The results of this study 
indicate that access to high-quality child care is an important factor 
in families maintaining employment upon leaving TANF assistance. Fewer 
than 20 percent of leavers participate in the child care subsidy 
program and 15 percent of families who return to TANF, who originally 
left due to earnings, do so As a result of child care problems.
    While Kansas has been able to achieve some degree of success in our 
child care programs, we strongly support increased funding. In Kansas 
these dollars would be used for the most pressing needs facing us 
today: Increase access for low-income children and lower eligibility 
rates and copayments; Increase slots for infants and toddlers; Outreach 
to low-income families and funding to support caseload growth; 
Recruitment and retention of quality providers; and Increase provider 
payment rates above the current percentiles.
                        helping working parents
    As chair of the American Public Human Services Association (APHSA) 
Child Care Committee, I know state investment in quality has been 
impressive. For example, states have made a variety of investments to 
support working parents by focusing on odd-hour and after school care. 
Maine and New Mexico have introduced rate adjustments for children 
served during nontraditional hours. In New Mexico, 35 percent of 
families with children in care are utilizing care during nontraditional 
hours. Maine also provides funding for the state's school-age care 
alliance to support efforts to provide technical assistance to schools 
and other entities considering starting a school-age care program. And 
in Connecticut, a partnership with the University of Connecticut, the 
state's schoolage child care alliance and the Connecticut Charts-A-
Course career development systems has resulted in a project on 
establishing a Child Development Associate credential certificate for 
school-age providers.
    States are also launching initiatives to increase capacity for 
infant and toddler care. Alabama has launched an Office of School 
Readiness to develop prekindergarten programs and develop Head Start 
Collaborations at the state and local levels. Missouri provides start 
up and expansion grants for programs that serve children from birth to 
age three. Massachusetts funds distance learning courses in infant and 
toddler care through the Child Care Resource and Referral network. 
Courses have been developed for providers of both center- and family-
based care with an emphasis on including children with disabilities.
    States have developed programs to focus on the special needs 
of.infants and toddlers. In New Hampshire, both family- and center-
based providers can participate in intensive training and receive 
equipment grants to increase the capacity and improve the quality of 
infant and toddler care. North Carolina funds a quality enhancement 
project that seeks to expand community-based child care health 
consultations, provide online support for web-based training, provide 
support for quality enhancement grants to providers, and evaluate the 
impact of child care health consultations on the health status of 
infants and toddlers. Missouri provides start up and expansion grants 
for programs that serve children from birth to age three. Wyoming and 
Vermont provide statewide training to assist caregivers in obtaining 
infant care credentials.
Quality
    At least half of the states are conducting activities focusing on 
the issue of caregiver wages and retention. For example, both Maine and 
Minnesota use training, minigrants, and capital improvement loans to 
increase retention. Maine also funds Maine Roads to Quality, a child 
care and early care and education career development center, 
responsible for developing a 180-hour Core Knowledge Training program, 
which also maintains registries for providers and approved trainers, 
and administers scholarships and an accreditation support project.
    In Massachusetts, child care providers receive quality awards for 
achievement in quality programming, innovation in child care service 
delivery, and assistance for providers in achieving accreditation. 
Maryland has implemented a child care credential and tiered 
reimbursement system. The Maryland Child Care Credential is a six-level 
system that recognizes a provider's achievement of a specified number 
of training hours, years of experience and professional activities, 
which leads to quality care. Cash bonuses are given as incentives to 
move up through each level and vouchers to defray the cost of training 
are available. Washington has a Career and Wage Ladder Pilot Project in 
its third year. The state pays centers for incremental wage increases 
for teachers who have completed education milestones. The centers 
contribute additional pay based on teacher experience. North Carolina 
has developed a licensing system based on levels of quality.
    Child care licenses now show one to five stars, reflecting the 
levels of standards achieved. Increased subsidy payment rates for 
higher star ratings have been an incentive and support for providing 
quality care.
    States are concentrating on early learning initiatives. Arkansas 
has developed ELLA, the Early Learning Literacy in Arkansas initiative, 
a literacy training program for prekindergarten teachers. Massachusetts 
has funded the development of state-approved literacy standards and the 
establishment of a tiered rating scale that offers incentives for 
providing literacy activities.
    Ohio has also worked on increasing collaboration between Head Start 
and child care. The state has formed a workgroup to identify barriers 
to collaboration and propose policy changes to increase opportunities 
to leverage resources, improve quality, and expand access. In Rhode 
Island, the state has certified Comprehensive Child Care Service 
Networks that include center-based and family child care programs that 
deliver comprehensive child care services at an augmented rate to 
disadvantaged children.
    Five years ago, Congress made a decision to invest in child care, 
streamline funding, and devolve authority to the states. Unprecedented 
success has been achieved to date. We urge you to keep the promise made 
in 1996 and resist adding new requirements and expectations without the 
resources necessary to implement them.
    Thank you for the opportunity to testify. I would be pleased to 
respond to any questions you may have.
           Prepared Statement of Elizabeth Bonbright Thompson
    Mr. Chairman and Members of the Committee: Thank you for the 
opportunity to testify before you today.
    I will share with you some of the impressive achievements made in 
improving the quality and availability of child care as well as 
significant improvements in consumer education and parent Choice since 
Congress last reauthorized the Child Care and Development Block Grant 
(CCDBG) and integrated it with the new Temporary Assistance for Needy 
Families Act in 1996.
    I also want to thank you and your colleagues for consistently 
recognizing the critical importance of child care subsidies and the 
early childhood and out-of-school time infrastructure that. supports 
families and children. Affordable, available, quality child care is the 
key to the success of welfare reform and is the foundation upon which 
children stand, ready to enter school.
    I offer you two different perspectives today. One is the broad-
based national view which I share through,my role as Immediate Past 
President of the Board of Directors for the National Association of 
Child Care Resource and Referral Agencies. The other is my daily 
systems building and program implementation experience as Executive-
Director of a statewide, private nonprofit child care resource and 
referral (R&R) organization which focuses on strengthening public 
policies to support families, their children and the individuals who 
dedicate their lives to caring and educating our next generation.
    Each day, approximately 800 R&R programs located in all 50 states 
plus the District of Columbia assist working parents at all income 
levels grapple with the difficult task of locating and assessing 
appropriate child care arrangements. Each day these same R&R programs 
offer critical technical assistance, training and consultation to child 
care and school age care providers in an effort to improve the overall 
quality of care. The other panelists here today will speak more in-
depth about the child care subsidy programs and the critical 
professional development components funded through the CCDBG. I have 
been asked to focus on the role of child care resource and referral as 
the ``thread'' which holds the fragile early childhood care and 
education and out-of-school time ``quilt'' together.
                     child care resource & referral
    Child care resource and referral is the child care system's best 
kept secret. One reason for this is due to a lack of product branding 
since most R&R programs do not actually use ``child care resource and 
referral'' in their agency's name. For example, the program serving 
Spokane, Washington is called Family Care Resources. In Maine, all the 
local R&R programs are actually called Resource Development Centers. 
Regardless of what the R&R is called, they perform basic tasks in their 
local community. The effectiveness of the work performed by R&R 
programs has not been lost on the business community. Several years 
ago, a group of Fortune 500 companies led by IBM joined together to 
form the American Business Collaborative for Quality Child Care. This 
group dedicated $100 million to improve the quality of child care and 
98% of this money was delivered to communities through local R&R 
programs.
    Today, children are in so many different types of early childhood 
settings, we need one system that can reach them all through either 
their parents or their caregivers. Only the R&R system offers that kind 
of access. Only the R&R has the capacity to integrate the wishes of the 
families, the skills of the caregivers and the needs of the children.
    Prior to Congress passing the original CCDBG in 1990, child care 
resource and referral (R&R) programs did not exist in every state. As 
of today, R&R programs are active in every state and the District of 
Columbia as well as many of the territories. In addition, the U.S. 
Military has integrated R&R services into their model child care 
service delivery system. Each R&R program is as unique as the community 
it serves. Thirty-four states have a structure which includes 
community-based R&R programs and a statewide R&R Network or association 
which binds them all together. Although, of these only 22 are publicly 
funded, fully-functioning networks. The level of funding and program 
sophistication varies greatly in this group as well. Eleven states have 
local R&R programs but no unifying network. Five other states have just 
one R&R program serving the entire state. The evidence points to the 
power of a strong statewide R&R Network in helping to shape the 
quality, affordability and availability of care. Research also shows a 
strong correlation between the existence of a statewide network and 
better access of families to consumer information and education.
    Community-based R&R services go far beyond simply helping families 
find child care. They support a wide range of care and education 
choices in communities. Respondents to the recent national census of 
R&R programs provide significant information on the scope and extent of 
R&R in the 4 major areas of R&R activity:
    (1) Family Services support families as they combine work and 
family responsibilities and educate their children. These services 
include: referrals to child care, early learning opportunities, pre-K 
and Head Start programs, and out-of-school time programs; consumer 
education on how to identify safe, high quality options; links to other 
relevant family resources in the community, such as health, education, 
mental health, literacy, employment; and information about the child 
care subsidies which are available to families (in 28 states, the child 
care subsidies are actually managed directly by the R&R system).
    1. Provider Services support existing and prospective programs and 
individuals to increase the supply and improve the quality of early 
learning experiences for children. These services include: recruitment 
and program expansion; technical assistance and consultation (over 1.2 
million consultations are provided a year); training for licensed child 
care providers and other early childhood and school age caregivers who 
may be exempt from licensing (over 1 million individuals are trained 
each year); training or connections to training on caring for infants 
and toddlers (offered by 83% of the R&Rs responding to the field 
census); support for accreditation and credentialing (offered by 96% of 
respondents); support for relatives, friends and neighbors who provide 
child care (offered by 82%); and informing programs/providers when 
policies and regulations change (offered by 95%).
    (8) Community Building Services support communities in building 
early learning systems. These services include: keeping community 
partners and policy makers abreast of key child care issues; serving as 
the local information and service delivery hub; convening coalitions, 
collaborations and partnerships (73% of the respondents); leading 
community planning efforts (52% of the respondents); and engaging 
business, faith, educational and philanthropic leadership in building 
the early learning system (94% of the respondents).
    (4) Data and Research. The R&R programs all collect data on child 
care supply and demand. In states with strong R&R Networks (like 
Washington State), each of the community-based R&R programs collects 
standard data elements and reports that data monthly to the statewide 
R&R Network, which compiles, analyzes and disseminates the data for use 
by state and local community partners and policy makers. The data 
component merits replication nationally and could be reported at the 
national level, which would make for more fully informed policy 
decisions.
                                naccrra
    The National Association of Child Care Resource and Referral 
Agencies (NACCRRA) is the national network which provides strategic 
vision, policy leadership and technical assistance to R&R programs in 
states and local communities all across the nation. Congress currently 
funds NACCRRA to provide vital consumer education to families across 
the nation and to link them with the R&R in their local community 
through Child Care Aware. Child Care Aware was created by NACCRRA in 
1988 with support from the Dayton Hudson Foundation and the Dayton 
Hudson Family of Stores. The national, toll free parent information 
hotline was first established in 1992. Since then, Child Care Aware has 
become a steady national resource, consistently used in print media, 
parenting books and publications, television programs, and national 
public awareness campaigns on child care and related early childhood 
services and programs. All of Child Care Aware's information 
distribution channels (print, phone, web, email) are bilingual in 
English and Spanish.
                        r&r in washington state
    Washington State has spent 15 years building one of the most 
comprehensive child care resource and referral systems in the nation. 
This well-funded statewide R&R system includes the 18 local R&R 
programs which provide direct services to families, caregivers and 
communities and the statewide R&R Network which is the association of 
all 18 community-based R&R programs and provides technical assistance 
to the 18 R&Rs as well as state, regional and national policy 
development. The 18 R&R programs are the child care infrastructure in 
local communities positioned to assist with implementation of various 
State policies or programs throughout the State. The State recognizes 
the value of basic community-based R&R services which, while not 
identical in every county, are offered in a consistent manner with 
uniform standards regardless of location.
    The beauty of the R&R structure is that every local R&R reflects 
the community it serves. In Washington State, only 2 of the 18 R&R 
programs are ``stand alone'' R&Rs, meaning that the mission of the 
entire agency is related to R&R. The other 16 programs are housed in 
``parent'' organizations which vary widely and include Community Action 
Programs (CAP agencies), city government, a university, educational 
services districts, a Community college, and 6 of the R&R programs are 
sponsored by faith-based organizations.
    A key by-product of a strong, well-funded R&R system is the ability 
for the statewide R&R Network both to leverage private dollars to match 
state and federal funds and to position the state to acquire and 
distribute federal grants. Since 1990, the Washington State Child Care 
Resource & Referral Network has leveraged, secured or facilitated the 
distribution of more than $16 million in private, federal and state 
dollars for the child care and out-of-school time care system in 
Washington State above and beyond the funds dedicated for the delivery 
of core R&R services. The R&R Network has served as a catalyst for 
change and a mechanism for raising resources to meet specific community 
and statewide needs.
                           economic realities
    WorkFirst, Washington's welfare reform program, experienced 
caseload declines of 44% from early 1997 to mid-2000. Until the last 
several months, Washington enjoyed a strong economy and a high rate of 
population growth over the last five years. The economic downturn and 
repercussions of September 11 on Boeing and other key employers have 
crippled the State's budget. Currently, Washington State has the second 
highest unemployment rate in the nation. In December 2001, the TANF 
caseloads increased by an alarming 1,800 families and this upward trend 
does not appear to be reversing. The child care subsidy caseload 
increased in June 2001 by 10,000 and has not yet receded.
    Funding for child care services in Washington has increased by 345% 
between state fiscal year 1996 and state fiscal year 2001. During that 
same time period, the state's population of children under age 13 
remained constant. Washington has committed ever increasing amounts of 
its federal and state dollars to enhance the quality, affordability and 
availability of child care and out-of-school time services. This growth 
in child care services and quality activities over the past five years 
has been directly related to Temporary Assistance for Needy Families 
(TANF) expenditures on child care. Over half (53%) of all current 
federal TANF dollars flowing into Washington State are used for child 
care. As a result, funding for child care services has become extremely 
vulnerable to upward fluctuations in TANF caseloads (as has been the 
case in 2001). Decreases in the availability of TANF funds for child 
care services could result in child care subsidy waiting lists, a 
reduction -in the eligibility level for subsidies and a decrease in the 
amount of investments in quality related services above the required 
minimum 4% of the federal mandatory, matching and discretionary as well 
as state matching funds within the Child Care and Development Fund.
                             quality counts
    Washington's quality initiatives are widely viewed as very 
successful, innovative and encouraging signs of the ability to make 
progress on difficult and challenging issues within the child care 
system. Accomplishments include: the creation of a mandatory and annual 
training requirement for licensed caregivers as part of a state 
training and registry system (STARS); a comprehensive statewide 
resource and referral system serving families, providers and 
communities; strong systemic supports for out-of-school time providers; 
partnerships that help providers successfully meet health and safety 
standards and improve the health and well-being of the children and 
families they serve; additional support for families who have children 
with special needs; and subsidy bonuses or enhanced rates for 
caregivers who take infants and/or children with special needs and who 
provide care during non-traditional hours.
    As part of the quality initiatives, Washington has taken innovative 
and effective steps in the last five years to support a professional 
development system for caregivers that includes training and wage 
progression opportunities intended to improve quality and reduce high 
staff turnover levels. Examples include:
    1. T.E.A.C.H. Early <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="387b5051545c5057575c78">[email&#160;protected]</a> Washington which is administered by 
the Washington State Child Care Resource & Referral Network.
    2. The Washington State Child Care Career and Wage Ladder Pilot 
Project, which requires participating child care centers to partner 
with the state on increasing worker wages based on time on the job, 
experience and education.
    3. The Child Care Careers Program which increases the quality and 
quantity of child care available for the low income working families as 
well as provides viable career options for WorkFirst participants who 
want to work with children. This TANF program was designed to train 250 
TANF recipients to become child care providers each biennium.
    These successful efforts have shown that progress is possible 
within the existing constraints. Yet they highlight the difficulties of 
operating in a system that is largely underfinanced and tries to 
survive by patching together solutions that constantly bump up against 
the reality of the ``true'' cost of quality care. All of these 
accomplishments need stable, sustained funding.
         maintaining parental choice through improving quality
    As more and more mothers have entered the workforce, the demand for 
high quality child care, pre-school programs and out-of-school time 
options has increased dramatically. Unfortunately, many families are 
unable to find the type of care they seek due to a lack of child care 
supply to meet their needs. Families of all income levels are patching 
together regulated and non-regulated care options to cover their 
extended work schedules. The most difficult to place are infants, 
toddlers, school age children, children with special needs (physical, 
social, emotional), children who need care during non-traditional hours 
or on weekends and children whose parents work irregular shifts.
    In most states, there is a significantly greater number of family 
child care providers than center-based providers. However, the number 
of available child care slots is much greater in centers. The family 
child care providers tend to care for younger children, especially 
infants, toddlers and preschoolers.
    During the years between 1996 and 2000, up to 1,000 family child 
care providers in Washington state were closing their child care 
businesses each year. There were numerous reasons for this mass exodus. 
The robust economy made it financially enticing for these providers to 
leave the field for higher paying jobs. In addition, the shift in 
federal rules and funding for the Federal Child and Adult Care Food 
Program meant that a large portion of the family child care market was 
no longer able to receive reimbursements to feed all the children in 
their care.
    In an effort to address the growing lack of supply, Washington 
State dedicated over $9 million dollars from CCDF quality dollars in 
2000-2001 to fund creative community-based approaches to building the 
quality and capacity of child care, specifically for: Infants and 
Toddlers; Children with Special Needs; Children needing care during 
non-standard hours; School-age care; and Middle School age youth (ages 
12-14).
    As a result of the huge success of these projects, the State has 
dedicated an additional $12 million over the next 2 years (2001-2003) 
to refine projects to focus on child care provider recruitment and 
retention in all categories primarily through the R&R system and on 
developing and maintaining quality middle school programs.
                   r&r support for family child care
    R&R programs provide specific supports for all child care and out-
of-school time providers. Traditionally, R&R programs are the primary 
source of support for family child care providers who are independent, 
small businesses operating out of their homes. R&R programs support 
family child care providers in many ways including: Help with becoming 
licensed; Business training (including how to: set fees, address taxes 
issues, establish policies and procedures, communicate with parents, 
market the business and much more); Provide training on child 
development, health and safety, infant/toddler care, school age care, 
etc.; Ongoing support and technical assistance, warm lines, etc.; 
Lending libraries and resource vans of materials, equipment; Help and 
resources to become accredited; Federal food program sponsorship; 
Career advancement support; Business management and practices support; 
Home visiting; Empowerment through establishment of neighborhood 
networks; and Linkages to other systems and services in the community.
                   family, friends and neighbor care
    In every state a significant number of children are in the care of 
non-parental family members, friends or neighbors for at least some 
part of each week. Many of these unregulated caregivers receive federal 
child care subsidies to care for children eligible under TANF or CCDBG.
    Washington State fully supports parental choice in child care 
environments. Interestingly, each year the number of families receiving 
child care subsidies who choose licensed-exempt caregivers increases. 
Currently, over 40% of the child care subsidies are paid to these 
licensed-exempt caregivers. We wanted to know why. So, the State 
dedicated $250,000 of the CCDF quality dollars to contract with the 
University of Washington, Human Services Policy Center to study the 
issue, perform a general population survey and assess the results. The 
study found that family, friends and neighbor care is a major part of 
the child care system and is the dominant care for infants, toddlers 
and school age children. A full 45% of all families with children ages 
birth through 12 in Washington State use family, friends and neighbor 
care for at least part of their child care needs. The percentage is 
much higher: for families of infants and toddlers--58%. Another finding 
of the study was that family, friend and neighbor caregivers welcome 
training and other supports if they are offered as supports and not as 
mandates. \1\ Eight-two percent (82%) of R&R programs nationwide 
provide support for quality in those settings as well.
---------------------------------------------------------------------------
    \1\ Brandon, Maher, Joesch and Doyle--University of Washington. 
Developing Training and Support for Family, Friend and Neighbor 
Caregivers in Washington State, December 2001.
---------------------------------------------------------------------------
                                literacy
    All across the nation, states and local communities are creating 
exciting early literacy programs to support children's school 
readiness. Two states have been especially effective in establishing 
viable literacy programs linked to child care, Florida and Maine. In 
Florida, the R&R Network leveraged TANF dollars from the State to help 
25 local R&R programs purchase and equip Caring for Kids resource vans 
which have already provided training, toys, books and curriculum kits 
to over 1,000 child care providers across the state. In Maine, local 
R&R programs covering four large regions received Early Learning 
Opportunity Act grant funds from the Department of Health and Human 
Services, Child Care Bureau to enhance early childhood literacy as well 
as to increase access to early learning for children with special needs 
and children from diverse cultural backgrounds. Like Florida, Maine 
also purchased mobile education vans. In addition, the Maine R&R 
programs hired Early Learning Specialists to reach out to children in 
child care and to train the caregivers about basic early literacy.
    A cost-effective option for enhancing early literacy through child 
care environments would be to capitalize upon the established R&R 
system in each state and establish Early Literacy Specialists in every 
R&R. It is a model which is already working in Maine and in many states 
with other professional partners such as public health nurses, infant/
toddler specialists, children with special needs counselors, and mental 
health consultants.
          transitions from early care and education to school
    The vision of Project STEPS (Sequenced Transition to Education into 
the Public Schools) is that all children in Washington experience 
seamless transitions from one early care and education environment to 
another. The mission of Project STEPS is to provide training and 
follow-up in every community in the state through an integrated system 
of collaboration among local providers. The local R&R programs are 
active partners in STEPS. The Washington State project, funded in part 
with CCDF quality dollars, expands the traditional STEPS model from 
children with special needs, to encompass normally developing children 
who might have barriers to smooth transitions into public schools. The 
project focuses on a wide variety of low-income families and the 
breadth of cultural and linguistic diversity in each community.
                          infant/toddler care
    Washington State has consistently put 100% of its share of the 
federal CCDF Infant/Toddler earmark into community-based efforts to 
build capacity and quality of care available for babies and toddlers. 
The funds have gone to Healthy Child Care Washington to fund an public 
health nurse in every local health juridiction who specializes in 
infant/toddler care and provides on-site consultation to child care 
providers caring for babies and toddlers. In many other states, the 
Infant/Toddler earmark funds public health nurses who do similar tasks 
but are located in local R&R programs. In Washington State, these 
Infant/Toddler resources have also been used to fund the community-
based child care resource and referral programs to recruit child care 
providers to care for infants and toddlers and to provide the 
caregivers with mini-grants to purchase essential equipment or other 
necessities to enable them to meet licensing requirements for infant 
and toddler care.
    These funds also sustain the efforts of the statewide, community-
driven BRAINet efforts to take the brain development training through 
local volunteer ``BRAIN Squads'' to parents, caregivers, policy makers, 
social workers, health professionals and community groups in every 
county in the state. Over 1,000 professionals have been trained to 
offer the ``brain training'' through BRAIN Squads all across the state.
                    health linkages and consultation
    Healthy Child Care Washington (HCCW), which is funded through a 
combination of federal Maternal and Child Health dollars, CCDF 4% 
quality dollars and CCDF Infant/Toddler earmark dollars, has built 
effective local partnerships between local public health jurisdictions 
and the local R&R programs. They provide training, technical assistance 
and consultation for child care providers on all health related topics, 
including children's mental health, baby and toddler care, brain 
development training, environmental health, care for children with 
special needs and nutrition.
    The State has dedicated $5 million over the 2001-2003 biennium to 
support a statewide, community-based, comprehensive support system for 
families who have children with special needs and the child care 
providers who care for them. Through a partnership among local public 
health organizations and the local R&R programs, families receive 
enhanced referral assistance in identifying child care and are linked 
to a skilled public health nurse for consultation and other parenting 
resources. The child's new caregiver is often recruited by the local 
R&R and is also able to access training and specialized consultation 
services to improve the quality of care they are able to provide. 
Unfortunately, this program is now slated to terminate on March 29, 
2002 due to a need to shift resources back to cover TANF and child care 
subsidy caseload increases.
    In another unique project, over the past three years the State has 
dedicated TANF dollars to develop and implement Hand-In-Hand, a 
creative curriculum and training project for child care providers who 
have children in their care who live in families affected by substance 
abuse. Both the trainers' guides and participant's notebooks are 
translated fully into Spanish.
    The philosophy of the curriculum is that the training occurs in 
communities jointly with R&R trainers and local chemical dependency 
counselors. In just 15 months, 1,026 child care providers attended 97 
training sessions totaling 304 hours of instruction from 51 trainers. 
This training positively impacted over 8,200 children. In addition, 
this project offers funding to local communities for mental health 
consultation both for the caregiver and for the children in their care 
as a follow-up to the training. There is also a community level 
childrens mental health ``systems'' building component. This entire 
project was created, designed, developed, managed, distributed and is 
maintained by the Washington State Child Care Resource & Referral 
Network.
                           consumer education
    The largest ongoing investment to consumer education made by 
Washington State each year is basic funding for outreach through the 
child care resource and referral system. The Washington State Child 
Care Resource & Referral Network has a statewide, toll-free consumer 
education hotline which directly links the caller with the community-
based child care resource and referral program or other appropriate 
local resource to meet their needs. The R&R Network has an extensive 
website full of consumer education information for parents, caregivers, 
employers and community members.
    In 1996, the Washington State Child Care Resource & Referral 
Network initiated the nationally acclaimed Child Care 2000 Campaign. 
Over the past 5 years, the State has dedicated approximately $500,000 
of CCDBG/CCDF quality dollars to support this $1.3 million multi-media 
public engagement campaign about the importance of choosing quality 
child care and out-of-school time care.
                               financing
    Since the late 1980's, we have seen convincing evidence that the 
child care workforce is in crisis. Teachers ate leaving the field in 
droves (in 1997 the turnover rate for teachers in Seattle was 29% and 
for assistants was 55%; a national survey reported the turnover rate in 
1997 was 27% for teachers and 39% for aides) to find better paying 
jobs. Wages are very low. In 1998 child care teachers in Washington 
earned $7.73/hour and aides earned $6.34/hour. When adjusted for 
inflation, child care teacher salaries have not increased since 1992. 
The minimum wage in Washington State is $6.90/hour. Employee benefits 
(health care, retirement, dependent care assistance) are rarely 
available. Levels of education among child care workers are also low. 
With high staff turnover and low levels of early childhood education 
comes poor quality of care.
    We know that the price that providers set for their services does 
not reflect.the true cost of care, but rather is tied to the market 
place, and what providers believe parents are willing and able to pay 
for care. These artificially low prices are, in fact, subsidized by 
foregone wages and benefits of the staff, and augmented by tough 
compromises in the quality of care that must be made to arrive at 
parent fees/prices that the market will bear.
    We need a national focus and a statewide effort to work with 
providers to understand what their current costs are and what their 
full cost would be if they offered reasonable wages and benefits and 
were able to ensure more consistently quality programs.
    A pilot True Cost of Care Project is underway in Seattle/King 
County, sponsored by the Northwest Finance CIRCLE (NWFC). The True Cost 
of Care Project is working with family child care homes and child care 
centers to develop true cost budgets and to analyze the gap in funding 
between what exists now and what is needed. The mission of the NWFC is 
to create a model financing system for early childhood care and 
education and out-of-school time care that will ensure a range of high 
quality, affordable, culturally relevant options that meet the unique 
needs of families, children and staff by engineering and testing system 
components and strategies.
    The lack of funding dedicated to maintaining the provider 
reimbursement rate at least at the 75th percentile of the most recent 
market rate survey continues to be of grave concern. By January 2002, 
we will have slipped to somewhere between the 52nd and the 58th 
percentiles of the 2000 rate survey. As noted above, there is a strong 
grassroots movement to rethink the whole basis for establishing the 
reimbursement rate and to have it reflect the true cost of care rather 
than the depressed reality of the market rate.
    The State and community stakeholders recognize that increasing 
child care worker salaries is tied to the larger question of how to 
more appropriately and adequately finance the true cost of care for the 
early childhood education and out-of-school time care system. Until the 
general populous accepts that child care is a ``public good,'' the 
patchwork of current funding will be inadequate to meet the diverse 
needs of children, families, caregivers and communities.
                              conclusions
    Washington State has a long history of thinking holistically about 
developing quality child care and out-of-school time systems and 
providing services for all families in the state This includes 
providing a good safety net of child care subsidies for low-income 
families, even before welfare reform in 1996. Washington's child care 
system has grown and improved through collaboration, systems thinking, 
the existence of strong advocacy and intermediary organizations, and 
bipartisan legislative support.
    Families and policymakers have vigorously demonstrated that 
affordable, quality child care is of great value to children, to 
working families, to our educational system, to our economy and to our 
communities. Welfare reform opened a window on the importance of child 
care during a period when new brain research, an expanding economy, 
changing demographics, increasing concerns over the well-being of 
children, and education reform shed additional spotlights on how our 
state and country support and care for children during some of the most 
important years of their social, emotional, intellectual and physical 
development. New awareness of the widespread benefits of quality child 
care and out-of-school time care led to Washington, and many other 
states, to improve child care systems using discretionary funds 
available through reduced TANF caseloads. This commitment of TANF 
resources is a powerful recognition of the importance of child care to 
working families and to the success of welfare reform.
    Congress has the power to create a strong. safety net for children 
and families through the CCDBG and TANF reauthorization process. Now is 
the time to design the policies and dedicate the funds necessary and to 
feature the models we know make a difference, such as: 1. Ensuring 
adequate funding levels for CCDBG subsidies for eligible low-income 
working families and those leaving welfare; 2. Addressing workforce 
issues by funding efforts to improve the recruitment and retention of 
qualified professionals in child care, early learning and out-of-school 
time programs/businesses and by providing incentives for additional 
training and education; 3. Establishing good learning opportunities for 
children in all settings by placing resource specialists in local R&R 
programs (or other community partner entities) for services to parents 
and providers on critical issues such as inclusion of children with 
special needs, infant/toddler care, early literacy, health and mental 
health, school age care, career counseling and other technical 
assistance; 4. Broadening coverage of sustained community-based support 
and coordination systems for early learning and out-of-school time care 
by mandating a comprehensive system of local R&R services with a funded 
statewide R&R Network in every state. Also continue to fund Child Care 
Aware to ensure parents access to quality R&R services in their local 
community; and 5. Guaranteeing that real-time data on supply, demand, 
gaps, cost and quality are collected at the local, state and national 
level by funding a comprehensive, accurate and current national system 
of early care and education and out-of-school time data collection, 
analysis and reporting using local R&R data.
    If the above five policies were put into place and funded 
appropriately, you could count on the following positive out comes: 
Communities would be better poised for economic development and growth; 
The early childhood and out-of-school time workforce would be well 
prepared and more appropriately compensated; Families would have 
choices of appropriate nurturing and learning environments for their 
children; and Children would enter school ready to succeed.
                Prepared Statement of Kathy R. Thornburg
    Members of the Committee, I am pleased to have the opportunity to 
discuss with you today the reauthorization of the Child Care and 
Development Block Grant and how investments in the early childhood 
workforce will make a significant difference in the lives of our young 
children and their readiness for success in school. I speak before you 
as an early childhood educator, a parent, and on behalf of NAEYC, the 
nation's largest early childhood education organization that is engaged 
at all levels in ensuring that all children have access to affordable, 
high quality early childhood education.
    Roughly 12 million children below school age are in some form of 
non-parental care during the week. The quality of the experiences they 
have in child care and other early childhood settings provides a 
foundation for success in school and beyond.
    Research tells us that high quality child care makes a difference 
for young children's math and literacy skills, behavior, and over time, 
completion of school and lower incidence of juvenile delinquency. The 
Children of the Cost, Quality, Outcomes Study Go to School, a study by 
the National Center for Early Childhood Development and Learning at the 
University of North Carolina, found that programs with additional 
resources could devote more of their funds to hiring staff with better 
qualifications and to providing better compensation, and that those 
programs experienced lower staff turnover rates and higher quality care 
for the children. In addition, the study found that children with close 
teacher-child relationships had better social development and behavior 
that carried through the early school years. Likewise, the National 
Academy of Sciences report, Neurons to Neighborhoods: The Science of 
Early Childhood Development, a report synthesizing the scientific 
knowledge of children's development, said that providing quality would 
also require increases in staff compensation as well as professional 
development.
    It should come as no surprise that the people--the teachers and 
other staff--are the key to quality in child care and other early 
childhood programs. Again, research tells us that programs that provide 
adequate compensation are more likely to have good teachers.
    The lesson is clear: the benefits of good-quality early childhood 
programs will only be achieved when investments in child care and other 
early childhood education programs finance the full cost of providing 
high-quality services. The full cost must include equitable 
compensation of well-qualified and competent staff and must also ensure 
affordable access for all families to good programs. It is this aspect 
of what will help all children be ready for school and for lifelong 
success that I will speak to today.
    We have a long way to go. A parking lot attendant earns more than a 
child care professional. The average child care teacher in a center-
based program earns only $16,000 a year, often without health care or 
other benefits. Many child care professionals are so inadequately 
compensated that they themselves are eligible for child care assistance 
for their own children. It is no wonder then, that roughly a third of 
child care staff in this country leave their programs each year in 
pursuit of a salary that will help them feed, clothe and house their 
own families, even when it means leaving the work they love.
    I am one of several researchers with the Midwest Child Care 
Consortium--we are from Iowa, Kansas, Missouri, and Nebraska. We 
completed the first year of data collection a few months ago and you 
will find some of the results on the table attached to my written 
testimony. Gallup called 920 infant, toddler, and preschool teachers 
through a random selection process. Forty percent of the teachers had 
at least a 2-year child development degree. Almost 60%. of the teachers 
earned less than $15,000 a year.
    I liken the child care workforce situation to a bucket with a 
gaping hole. States require very little, if any, preservice training in 
child development or early education before an individual can work in 
child care. The financing of child care is largely a matter of parent 
fees and inadequate child care reimbursement rates. As a result, the 
people who care for and prepare our young children for lifelong 
learning bear the brunt of a poorly financed system with grossly 
inadequate compensation.
    A recent report by Marcy Whitebook of the University of California-
Berkeley studied staffing patterns in 75 relatively high quality child 
care centers in California. Seventy-five percent of the teachers in 
those centers in 1996 and 40 percent of the directors were no longer in 
those jobs just four years later. And the individuals who replaced them 
came with lower education and training. The hole in the bucket simply 
does not get repaired without real attention to the compensation 
crisis.
    Child care teachers enter the field, receive training or college 
degrees, and then have. no incentives to stay in their programs, or in 
the field at large. Providing more professional development that is not 
tied to increased compensation is not the remedy. A child care teacher 
who gets her Bachelors Degree can--and often does--move to the public 
school system to teach kindergarten for double the pay and benefits. 
Quite simply, the inadequate funding for child care actually drives 
many better educated and qualified staff out of child care programs.
    Michigan's preschool program provides a good example. The Michigan 
School Readiness Program is a half-day preschool program for children 
at risk of school failure. In 2001-2002 the program served 26,000 
children across Michigan. The program requires that all lead-teachers 
have bachelor's degrees with an early childhood education endorsement. 
In programs where these teachers are not part of the collective 
bargaining unit, staff turnover is very high due to the attraction of 
higher salaries in elementary schools.
    For teaching positions that required teacher certification, but 
where teachers were excluded from the district-wide teacher 
compensation package: One-third of the positions tamed-over in the 
1998-1999 program year, over double the rate for on-contract preschool 
teachers; Only 34% of the positions had been filled by the same teacher 
for 5 years or more; and Compensation was about -one-half as much as 
positions that were covered under the districtwide contract.
    A Kindergarten Readiness Program Manager in the Lansing Michigan 
Public School District reports that for a three county area (Ingaham, 
Eaton and Clinton) where none of the MSRP teachers are on contract, 
that 50% or more of the preschool teaching staff turn over every year.
    When they leave, they nearly all go into elementary schools. The 
school district sees preschool as a stepping stone. They use it as a 
feeder program for their elementary grades. They lose almost 2 to 3 
months of the program every fall as they try to fill positions, which 
compromises the stability and quality of the program. It also raises 
the cost of professional development. As qualified teachers leave, new 
teachers come on board who need the training that the former teachers 
had received.
    As this example shows, the importance of compensation cannot be 
downplayed when setting policies to promote quality early childhood 
education. We are hearing from other states that this problem is not 
unique to Michigan.
    We do have successful examples of how the quality of children's 
early learning and development can be enhanced when focused attention 
is paid to linking professional development with higher compensation. 
The U.S. military transformed its child care system from dismal to high 
quality in large measure by providing better compensation and increased 
training tied to compensation increases. As a result, the military 
child care system has experienced dramatic reduction in staff turnover, 
and now has much higher professionalism and staff morale.
    As you heard from Sue Russell when she testified before this 
Committee just last month, there are successful efforts in many states 
to raise both the quality of the child care workforce and to provide 
the compensation assistance that will help them stay in their programs. 
The T.E.A.C.H. Early Childhood Project, now in 19 states including my 
own state of Missouri, provides scholarships that help pay for 
education, tuition, books, release time, and travel stipends. The child 
care program helps support some of the costs. When the child care 
teacher finishes the professional development, she is eligible for a 
bonus or raise, so long as she commits to remaining in her program for 
another year. Participating teachers can renew their TEACH scholarship 
for a long as it takes them to earn their degrees, sometimes several 
years because they are simultaneously working. For those teachers who 
already have college degrees, there are programs to help keep them in 
the field. Programs like WAGE$ in North Carolina and CARES in 
California provide graduated wage supplements to participating teachers 
based on their level of education.
    Both the scholarship and retention compensation initiatives link 
quality with compensation. States and communities are seeing results 
from these efforts in lower teacher turnover and better educated child 
care teachers. But expansion of these programs must happen at a faster 
pace. Many of the states using TEACH and WAGES projects, are using the 
Child Care and Development Block Grant as a key component of the 
financing.
    The National Association for the Education of Young Children, the 
world's largest early childhood education association, supports federal 
legislation introduced last year, known as the FOCUS Act, that would 
take these TEACH and WAGES-like projects to a much larger scale across 
the nation. That legislation has been incorporated as a second title in 
the CCDBG reauthorization bill introduced by Representative George 
Miller. We very much hope that it will be apart of the Senate's 
reauthorization legislation.
    Children cannot wait another five years for the next CCDBG 
reauthorization to provide the resources to tackle the intertwined 
crisis of quality, affordability, and compensation. We can make a 
significant investment in CCDBG now, helping to raise the amount spent 
on quality and particularly compensation, as well as helping more 
families afford good child care. Or, we can fail to make the investment 
today and pay the price: high educational failure, increased 
delinquency, lowered self-sufficiency and productivity, and fewer 
adults prepared to be effective, loving parents to the next generation 
of children. Thank you for listening--and caring about young children 
and their teachers.
                  Prepared Statement of Travis Hardmon
    Good morning Chairman, distinguished members of the Committee, 
fellow witnesses, and honored guests. My name is Travis Hardmon. I am 
the Executive Director of the National Child Day Care Association, 
serving in this position since 1994. I am the President of the District 
of Columbia Child Care Providers Coalition, and I serve on the Board of 
Directors of the United States Association for Child Care.
    The National Child Day Care Association (NCDCA) is the largest non-
profit child care provider in Washington, DC. NCDCA provides 
comprehensive child development and family services for 1600 children, 
ages 6 weeks to 12 years of age, at 25 child development centers--
providing full-day, year round services, and a new family child care 
system of 20 home providers. Approximately 75% of the children enrolled 
at NCDCA participate in the child care subsidy program During my time 
at NCDCA, we have expanded services by opening 8-child development 
centers, yet unfortunately, we are still unable to meet the child care 
needs of the community.
    It is indeed an honor and a pleasure for me to come before you 
today to testify on the importance of and need for, significant 
additional funding for the Child Care and Development Block Grant, the 
major federal support for child care assistance. Even in times of 
economic uncertainty and pressing international and domestic concerns, 
our nation,must look first at the care and education of our children.
    I have been asked to focus on what is needed to meet the needs of 
working parents while promoting the school readiness among our 
children. I am happy to do this from my perspective as an early 
childhood care and education provider in the District of Columbia, an 
interesting area and unique in many ways in providing comprehensive 
early childhood and family services.
    I commend you, Chairman and members of the committee for 
demonstrating your commitment on this important topic by holding this 
hearing.
                                 needs
    There are three areas that I believe need to be addressed in order 
to better serve the children, families, and community:
    1. Stability of the child care delivery system: including a 
trained, educated and adequately compensated child care workforce--and 
the need to increase payment rates to providers who serve low-income 
families.
    2. Providing services to meet the needs of families with infants 
and toddlers.
    3. Improving school readiness in the context of the child and 
family.
    While there are more issues I can include, Congress and the 
Administration have the capacity to address and improve these three now 
within the context of CCDBG reauthorization.
1. Stability of the child care delivery system
    NCDCA employs over 3 00 staff in 25 centers in Northeast, 
Northwest, and Southeast D.C. Of that staff, approximately 150 are 
teaching staff. Child care centers, and the child care industry as a 
whole, are losing well-educated teaching staff and administrators at an 
alarming rate. Annually, on average, NCDCA loses 10 percent or more of 
our teaching staff to better salary offers, or retirement. Recruiting 
approximately 15 new teachers a year places an enormous burden on the 
organization and jeopardizes the quality and stability of our 
child,care services. High staff turnover is also a burden to the 
children who must deal with losing a beloved teacher and must risk 
developing a new relationship on a too frequent basis. We constantly 
struggle to recruit well-qualified staff and often find that we are 
hiring replacement teachers who have less training and education. 
Despite recognition that higher wages contribute to greater staff 
stability, and program quality, compensation for the majority of 
teaching staff positions does not keep pace with the cost of living.
    Additionally, the payment rates that we receive are too low to 
provide families with access to the full range of quality services and 
directly unpacts the stability of the child care infrastructure. The 
monthly reimbursement rates that the District pays are inadequate and 
are based on outdated market rate information. Paying subsidy rates 
that meet the fall and current market rate would allow our organization 
to hire and retain staff better equip our classrooms with books and 
supplies, and upgrade our curriculum materials; thereby improving the 
quality of care available to the children we serve. Operating without 
adequate reimbursement rates is a recipe for failure.
    Recruitment and retention is a top challenge faced by our agency. 
We have had new classrooms ready but were unable to open due to 
difficulty hiring qualified staff. With the move to improve program 
quality, provide professional advancement and growth opportunities, and 
meet the changing needs of our clients, NCDCA has undertaken 
significant professional development activities--activities that 
require new investments. Salaries and training costs for continual 
professional development represent 80% of NCDCA's operating budget. 
These costs are necessary and critical if NCDCA staff are to be 
qualified and trained in the latest research-based methods of teaching 
and delivering comprehensive services. Despite this trend, funding to 
help us address our retention and training needs are falling short of 
what is truly needed. Unfortunately, the President's budget proposes to 
continue mandatory CCDBG funding at the FY 2002 level for the next five 
years--a plan that would seriously undermine the stability of the child 
care delivery system.
    Let me put this in perspective. Without an increase next year for 
workforce development and reimbursement rates, we would not be able to 
keep pace with inflation, and rising expenses leaving these critical 
needs unaddressed: The need for increased staff training to improve 
quality, Salary increases to avoid losing more qualified teachers and 
staff, The need for additional slots to meet unmet and growing need for 
services, The need for additional equipment, supplies, and program 
curriculum materials.
2. Providing Services for Infants and Toddlers
    In the District of Columbia, we have other early childhood 
initiatives to supplement education for three-, four-, and five-year-
olds: charter schools and the D.C. Public Schools' pre-kindergarten 
program. However, during the previous year nearly six thousand families 
with infants and toddlers were on the District's waiting list for child 
care assistance, and fin desperate need of services. Each week NCDCA 
receives calls from families seeking services and we must turn them 
away because we do not have the capacity to serve them. Unfortunately 
this leaves low-income families in the District with choices that do 
not promote the, optimal development of their children and may indeed 
place them in care settings that do not even provide for their basic 
and health and safety. Additional funding is needed to develop and 
equip facilities to meet this age group and to ensure that our youngest 
children are in safe, developmentally appropriate and enriching care 
while their parents are at work. The infant care workforce must be 
appropriately prepared, trained and compensated.
3. School Readiness
    Given the recent compelling research about what young children need 
to know in order to succeed in public school, I am pleased with the 
increased emphasis on early literacy. High-quality child care programs 
have traditionally emphasized pre-reading and language development, 
however, we heed to improve the training for early childhood teachers, 
and need better materials and curriculum so that children in child care 
will have the language rich environment and skiffs they need to 
succeed.
    However, I must share my concern that much of the discussion seems 
to focus on the purely academic aspects of school readiness. 
Particularly when we're talking about our children under five years of 
age, we should remember that we are not talking about SCHOOL but about 
READINESS FOR SCHOOL. Quality early cue and education providers have 
long recognized the importance of a holistic--approach, which includes 
comprehensive services for children and families at risk. Book learning 
will not be achieved in isolation, especially when you're dealing with 
children from low-income families where basic physical needs must be 
addressed if we are to create a rich learning environment. Nutrition, 
health screening, family support and parental involvement are just a 
few of the elements, which pave the road to success in school and, in 
turn, to success in life. And I can't stress enough the critical role, 
which a child's parents must play, in our work.
    Our program at NCDCA would not be the success it is today without 
our focus on the family Certainly as we help each child, we help the 
family. But, we are not about some sort of ``trickle up'' theory. In 
practice, our comprehensive approach to child development is a 
comprehensive approach to family development. With its four walls, 
NCDCA provides GED training, a male involvement initiative, a Parent 
Apprenticeship Program, a home ownership program and a parent and 
family self-empowerment program. NCDCA must constantly fundraise to I 
supplement the child care reimbursement rates that we receive. 
Providing services to the child within a family context is the most 
effective strategy for helping children to be successful and ready for 
school. We believe it is important to provide the kinds of services 
that children from disadvantaged backgrounds need. We see out children 
as the hub of a family Wheel. As we benefit the child, we benefit the 
family. And as we benefit the family we benefit the child, and in doing 
both, we benefit our community. Because of this comprehensive approach 
to human development, children leave our program stronger, more 
resilient, more hopeful and more ``educated''--and ready for school. 
Yes, it may so complicated. But children, families, and the poverty 
from which they come are not simple concepts, easily defined.
                               conclusion
    I thank you for this opportunity to share my excitement about the 
work we do and seek your help to address the challenges faced by 
families and the child care providers who serve them. We know what 
works. When it comes down to the nuts and bolts, one message remains 
clear--if we are to address our infrastructure needs, expand services 
and improve quality for children from birth through school age, 
substantial increased funding is absolutely necessary.
    I was to be part of the panel to testify at the hearing that was 
scheduled here on September 11, 2001. Since that day, we have done Mach 
healing and have come together as a nation. I want to thank you for 
your leadership and also to say that all our efforts as a country and 
as a world leader must start with looking at the well-being of our 
children. They are our most precious asset and ensuring their care and 
well-being is our best defense.
    Again, I thank the Committee for the privilege and opportunity to 
testify today on behalf of early childhood programs and I make myself 
available to the Committee now and at any time in the future to answer 
questions on this or any other matter.
                    Prepared Statement of Jim Klein
    Mr. Chairman and Members of the Committee, Thank you for the 
opportunity to provide written testimony on the important topic of 
improving the well being of children. In low income communities across 
the United States, the most drastically affected by the lack of capital 
resources are children in the midst of crucial physical, emotional and 
social development. The Ohio Community Development Finance Fund 
believes that child care is an overlooked element of a comprehensive 
approach to community renewal. Likewise, the space in which care is 
provided is usually an afterthought at best. Its effect on the 
development of young children is ignored.
    I am the Director of the Ohio Community Development Finance 
(``Finance Fund''). The Finance Fund is a non-profit community 
development intermediary serving local community nonprofit 
organizations in disadvantaged communities across Ohio, from inner city 
to rural communities. We offer a range of housing and economic 
development programs with a large part of our focus on facilities for 
child care and Head Start. The Finance Fund is a member of the National 
Children's Facilities Network (NCFN), a coalition of nonprofit 
financial and technical assistance community development intermediaries 
involved in planning, developing, and financing home and center-based 
facilities for low-income early childhood programs.
    On behalf of the Ohio Community Development Finance Fund and the 
National Communities Facilities Network, I would like to applaud 
Senators Mike DeWine (OH) and Christopher Dodd (CT) for introducing S. 
1217, the ``Child Care Facilities Financing Act', which would create a 
critically needed ``seed money'' federal investment which would 
leverage existing community resources to address the facilities crisis 
in low income neighborhoods. Having this type of funding will enable 
the Finance Fund to increase our private capital investment 
partnerships, resulting in more resources to expand child care space. 
In essence, the Finance Fund will be able to reach more children. I 
would like to offer comments on our successful community development 
child care model in Ohio,--as well as examples of Network member 
projects in Connecticut, Maine, and Illinois; and the important role 
that S. 1217 can play to expand this vital work.
           about the ohio community development finance fund
    The Finance Fund has been working on issues of children's space 
since 1993. Our initial involvement was with the Head Start program 
which provided us with a sound base of understanding in addressing the 
broader childcare market. We offer stable resources for planning, 
technical assistance and funding for the development of expanded 
quality space. As a statewide nonprofit intermediary, we serve locally 
controlled community based nonprofit organizations in low-income 
communities. Our clients develop and implement a variety of community 
revitalization projects. Ohio has been fortunate to have policy makers, 
such as Senator DeWine, who not only realize the value of revitalizing 
communities, but also investing in children. We also have had 
supportive partnerships with Ohio Department of Education, Ohio 
Department of Development, Ohio Department of Human Services and 
private sector investors.
    The Finance Fund has had years of experience in using limited 
amounts of public money to bring about significant private sector 
capital investment. Duringthepast10 years we have used limited public 
funding to enable $368 million in community projects.
    This ability to form public-private Partnerships and our ability to 
offer education and technical assistance to our clients has placed us 
in the unique position of addressing a wide-range of revitalization 
issues.
    In Ohio, resources for the development of housing or economic 
development, though not abundant, are present. In childcare, however, 
resources for the development or enhancement of space are extremely 
scarce. The Finance Fund receives funding from the State of Ohio to 
provide space-planning funds and technical assistance to Head Start and 
Childcare. The State has also invested with the Finance Fund to entice 
private capital investment into the expansion and enhancement of Head 
Start spaces. In addition we offer training and assistance in the 
management of the development process. Every $1.00 of public funding 
has been turned into $26.11 in project funds, which have touched the 
lives of over 13,000 of Ohio's children.
    Eight products are currently being offered to our clients:
    PreDevelopment Program--Grants to start the development process in
    housing/economic development. Provides community-based nonprofits 
funds for ``soft costs'' of specific projects.
    PreDevelopment Section 8 Program: Provides zero-interest loans to 
nonprofit organizations that wish to pursue ownership and/or management 
of Section 8 properties.
    Linked Deposit Fund: Serves as a debt enhancement tool/product that 
is used to reduce the interest rate on permanent financing. Provides 
community based nonprofit developers access to affordable financing 
from local lenders for housing and economic development projects.
    Economic Development Grant: Grants for community revitalization 
projects. Provides community-based nonprofits with funds for 
construction/equipment for specific projects.
    Head Start Facilities Planning Grant: Grants to enable the 
facilities predevelopment or planning process for nonprofit Head Start 
agencies.
    Head Start Critical Repair & Safety Grant: Assists in providing 
better, safer and healthier space for children by providing funding to 
local Head Start grantees for repair of critical deferred maintenance 
and safety items.
    Child Care Facilities Planning Grant: Grants to enable the 
facilities predevelopment or planning process for nonprofit Child Care 
agencies.
    Child Care Capital Fund: Resource for the financing of real estate 
projects available to Head Start agencies. It can be used to reduce the 
interest rate on permanent financing.
    These grant dollars have provided 10,662 homes for low-income or 
homeless families, created almost 2,238 jobs specifically ear-marked 
for the low-income population, and revitalized hundreds of thousands of 
square feet in order to rebuild communities, provide shopping, 
transportation, medical and social services for it's residents. Through 
the other four grants, specifically designed to affect Ohio's children, 
the Finance Fund has also made a huge impact on the state. Those grant 
dollars have built 1,339 classrooms in Head Start and low-income 
childcare centers. Based upon Ohio law, this is enough space for 20,000 
low-income children to receive quality childcare, hot meals and other 
health or social services while their parents are at work or school. 
Other grant dollars have provided almost $100,000 in emergency funds 
for Head Start agencies.
    These funds are for critical repair and safety needs and are easily 
accessible so Head Start agencies do not have to use their operating 
dollars for emergency maintenance or to ensure the safety of the 
children. The Child Care Capital Fund, on the other hand, has helped 
Head Start agencies achieve almost $700,000 in savings by leveraging 
(lowering) the interest on their mortgages.
  increasing the supply of child care in ohio's low-income communities
    Planning resource, capital funding, demand, and supply issues are 
words, which hopefully convey some of the technicalities of the need, 
however, ``on the street' need looks differently. Wonder World in 
Akron, Ohio is an example of the severity of the problem. This urban 
center is located in an old church. Care space is dingy and poorly 
light and divided into an upstairs space and a damp basement space. The 
care spaces have no windows and no direct access to bathrooms or 
kitchen space. There is no outdoor play space. Because the space is 
needed for church and Sunday school, the center must be ``broken 
apart'' each Friday and ``reconstructed'' each Monday. The environment 
cannot help but have an effect on children and on caregivers, no matter 
how dedicated, In spite of these conditions, the center has a waiting 
list and a dramatic need for infant care space as well as expansion of 
toddler, pre-school and after school care. There are no other choices. 
Where there is lack of access to quality space or where the space is 
low quality, children lose developmental opportunity.
    In this case, the Finance Fund played a critical role, offering gap 
funding and technical assistance to help meet the needs of children and 
their families. The Finance Fund was also able to assist the Tri-County 
Community Action Agency in Athens, Ohio for the Nelsonville Head Start 
Project. The project used a $250,000 grant to reduce the interest rate 
on permanent financing to construct a new Head Start facility, which 
replaces a center the agency had rented from Hocking College. The 
financing tool, termed link deposit, made the mortgage more affordable 
and freed up program funds to be used for services for children and 
families.
    In these instances, we have been successful, but looking across the 
State of Ohio there is enormous need for additional quality space. An 
essential tool necessary to help meet this need is low-cost, flexible 
funding of the type that would be provided by S. 1217, the Child Care 
Facilites Financing Act, introduced by Senators DeWine and Dodd. Having 
this type of funding will enable the Ohio Community Development Finance 
Fund to increase our private capital investment partnerships, resulting 
in more resources for local projects and our ability to reach more 
children.
            s.1217, the child care facilities financing act
    Since many low-income communities in Ohio face a severe shortage of 
quality child care space, the Finance Fund has been working to expand 
the supply of child care by providing essential resources to 
communities; and, as a member of NCFN, by supporting federal 
legislation--S. 1217, ``The Child Care Facilities Financing Act'' which 
would create small ``seed money'' investments to capitalize child care 
financing funds within existing community development intermediaries.
    The Finance Fund applauds Senators Mike DeWine (OH) and Christopher 
Dodd for introducing S. 1217,'' The Child Care Facilities Financing 
Act'' on July 20, 2001 with strong bi-partisan support from 10 
additional co-sponsors: Senator Snowe (ME), Senator Kennedy (MA), 
Senator Roberts (KS), Senator Johnson (SID), Senator Edwards (NC), 
Senator Feinstein (CA), Senator Collins (ME), Senator Wellstone (MN), 
Senator Bingaman(NM), and Senator Murray (WA)
    This legislation draws on the community development model by using 
small, seed money investments to leverage existing community resources 
to help meet the growing demand for child care in low-income 
communities. In addition, experienced nonprofit intermediaries will be 
able to enhance the ability of home- and center-based child care 
providers to serve their communities by providing the kind of technical 
assistance that is needed to help them undertake appropriate capital 
planning to improve and expand their programs.
    S.1217 would authorize $50 million annually to fund grants to 
nonprofit intermediaries to help home- and center-based child care 
providers more effectively meet the child care needs of local 
communities. Funds will be used to provide: financial assistance by 
intermediaries, in the form of low-cost loans, grants, and interest 
rate subsidies, for the acquisition, construction, or improvement of 
facilities for home- and center-based care; and technical assistance to 
improve the business management and entrepreneurial skills to ensure 
the long-term viability of child care providers.
    S. 1217 requires that the federal investment be matched, dollar for 
dollar, by funds from the private sector, thereby stimulating valuable 
public/private partnerships. Members of the National Children's 
Facilities Network typically raise well over this match requirement 
from their public and private partners for every dollar they invest in 
child care space.
    The community development approach has proved successful in low-
income neighborhoods and communities across the country in stimulating 
investments in affordable housing, community facilities, economic 
development projects, and small businesses. These investments have 
halted and even reversed the decline of many hard-pressed communities 
and provided economic opportunity to their inhabitants. There is ample 
evidence that the same type of economic boost can be achieved in child 
care.
    The beauty of the community development model is that it relies on 
small community based efforts rather than on large-scale top-down 
government programs. All that is needed to strengthen the child care 
infrastructure in low-income communities is small seed-money 
investments to capitalize child care financing funds within the 
existing community development intermediaries. These organizations 
would then provide technical and financial assistance to local home-
based and center-based child care programs.
                 national children's facilities network
    The Finance Fund and other members of the National Children's 
Facilities Network (NCFN) look forward to continuing to work with 
members of your Committee and other members of Congress to ensure the 
passage of S. 1217. NCFN's purpose is to share information on child 
care facilities issues; initiate legislation and regulations affecting 
low-income early care and education facilities; and develop and support 
various financing strategies, initiatives and programs. (See Appendix A 
for Network Overview and Membership List)
    Network members have become sophisticated at the art of using 
government and philanthropic grants to leverage significant private 
sector capital investments in the expansion of child care space. The 
examples below demonstrate a select few of these intermediaries' 
ability to leverage other funds from their investments, and the child 
care space that is produced as a result. A strategic investment by the 
federal government in these experienced intermediaries will 
dramatically expand and strengthen the child care industry in the low-
income communities they serve.
    Ohio Community Development Finance Agency (since 1994)
    Investments in childcare space--$16.3 million Total project funds 
leveraged--$146.6 million $5 leveraged for every $1 invested Children 
served--23,171 Classrooms created--1,363 Square feet of real estate 
created--1,666,822
    Illinois Facilities Fund (since 1999)
    Investments in Child Care Space--$17.6 million Total project funds 
leveraged--$37.4 million $3.6 leveraged for every $1 invested Children 
served--2,300 Classrooms created--100 Square feet of real estate 
created--595,000
    Local Initiatives Support Corporation (since 1994)
    Investments in childcare space--$8.2 million Total project funds 
leveraged--$47.2 million $6 leveraged for every $1 invested Children 
served--3,850 Childcare centers created--50 Square feet of real estate 
created--356,000
    Coastal Enterprises Inc., Augusta, Maine
    Investments in childcare space--$13.1 million Childcare providers 
served--110 Children served--3,424
                               conclusion
    Looking across the state of Ohio, there is an enormous need for 
additional quality for child care in low-income communities. Where 
there is a lack of access to quality space, children lose. When 
children lose, we lose children, and when we lose children, we always 
pay the social and economic costs later. S. 1217 is an important first 
step in addressing the need to build the supply of quality child care 
facilities to support the needs of children, families and communities 
nationwide.
    Thank you for the opportunity to provide written testimony before 
your Committee today. We would be pleased to provide additional 
information about our work.

    [Whereupon, at 12:17 p.m., the committee was adjourned.]

                            <greek-d>


</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
